No. 19-___
IN THE

Supreme Court of the United States
_____________
VICTOR THOMAS,
Petitioner,
v.
STATE OF NEW YORK, NICOLE L. GREEN, AND STORM
U. LANG
Respondents.
_____________
On Petition for a Writ of Certiorari
to the New York Court of Appeals
_____________
PETITION FOR WRIT OF CERTIORARI
_____________
LOUIS O’NEILL
Counsel of Record
KELLY NEWMAN
HOLLY TAO
WHITE & CASE LLP
1221 Avenue of the Americas
New York, NY 10020
louis.oneill@whitecase.com
212-819-8200
Counsel for Petitioner

i

QUESTION PRESENTED
Whether a provision in a waiver of appeal that
forbids a criminal defendant from filing a notice of
appeal, and in so doing also strips superior courts of
jurisdiction to hear even unwaivable issues, conflicts
with Garza v. Idaho, 139 S. Ct. 738 (2019), and
therefore violates the Sixth Amendment right to
counsel?

ii
PARTIES TO THE PROCEEDING
The Petitioner here is Victor Thomas, who was
defendant-appellant in the New York Court of
Appeals.
The Respondents here are the State of New
York, which was plaintiff-appellee in the New York
Court of Appeals, Nicole L. Green, who was
defendant-appellant in the New York Court of
Appeals, and Storm U. Lang, who was defendantappellant in the New York Court of Appeals.

iii
STATEMENT OF RELATED PROCEEDINGS
This case arises from the following proceedings
in the Supreme Court of the State of New York, the
Supreme Court of the State of New York, Appellate
Division First Department, and the Court of Appeals
of New York:
The People of the State of New York v. Green, No.
387 KA 16-00295 (N.Y. Supreme Ct. Dec. 1, 2015);
The People of the State of New York v. Lang, No.
877 KA 16-00063 (N.Y. Supreme Ct., Dec. 8, 2015);
The People of the State of New York v. Thomas,
No. 2760-2015 (N.Y. Supreme Ct., Aug. 10, 2016);
The People of the State of New York v. Thomas,
No. 2760-2015 (N.Y. Supreme Ct., Aug. 16, 2016);
The People of the State of New York v. Thomas,
No. 2760-2015 (N.Y. Supreme Ct., Aug. 24, 2016);
The People of the State of New York v. Thomas,
No. 2760-2015 (N.Y. Supreme Ct., App. Div. 1st
Dept., Feb. 1, 2018);
The People of the State of New York v. Green, No.
387 KA 16-00295 (N.Y. Supreme Ct., App. Div. 4th
Dept., Apr. 27, 2018);
The People of the State of New York v. Lang, No.
877 KA 16-00063 (N.Y. Supreme Ct. App. Div. 4th
Dept., Oct. 5, 2018);
The People of the State of New York v. Thomas,
No. 87 (Court of Appeals of New York, Nov. 26,
2019).
The People of the State of New York v. Green, No.
88 (Court of Appeals of New York, Nov. 26, 2019).

iv
The People of the State of New York v. Lang, No.
89 (Court of Appeals of New York, Nov. 26, 2019).
There are no other proceedings in state or
federal trial or appellate courts, or in this Court,
directly related to this case within the meaning of
this Court’s Rule 14.1(b)(iii).

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED........................................... i
PARTIES TO THE PROCEEDING ........................... ii
STATEMENT OF RELATED PROCEEDINGS....... iii
TABLE OF CONTENTS ............................................. v
TABLE OF APPENDICES .......................................vii
TABLE OF AUTHORITIES........................................ x
OPINION AND ORDER BELOW............................... 1
JURISDICTION .......................................................... 1
CONSTITUTIONAL PROVISIONS INVOLVED ...... 1
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE .................................... 4
The Underlying Incident ....................................... 4
The Suppression Hearing ...................................... 6
The Plea and No-Notice-of-Appeal Waiver ........... 6
Appeal to the Appellate Division, First
Department ............................................................ 8
Appeal to the New York Court of Appeals ............ 9
REASONS FOR GRANTING THE PETITION ....... 11
I. No-Notice-Of-Appeal Waivers and Their
Equivalents Violate the Sixth
Amendment, Garza v. Idaho, and
Counsel’s Professional and Ethical
Obligations ...................................................... 11

vi
A. No-Notice-of-Appeal Provisions Violate
the Sixth Amendment and Garza v.
Idaho .......................................................... 13
B. No-Notice-of-Appeal Waivers Prevent
Counsel From Giving Disinterested
and Constitutionally Effective Advice ...... 15
C. No-Notice-of-Appeal Waivers Lead to
Unconscionable Pleas and Cannot be
“Knowingly, Intelligently, and
Voluntarily” Made ..................................... 20
D. This Court Should Void Waivers of
Appeal Containing No-Notice-ofAppeal Provisions and their
Equivalents................................................ 24
II. The Challenged Practice Is Widespread,
Takes Many Forms, and Provides an EndRun around Garza .......................................... 27
A. Nearly All Criminal Cases in the
United States End in Plea Agreements
With Waivers of Appeal ............................ 27
B. Many Waivers Completely Block the
Right to “File a Notice of Appeal,” to
“File an Appeal” or to “Appeal” ................. 29
C. Courts Routinely Enforce Overbroad
Waivers ...................................................... 31
CONCLUSION .......................................................... 33

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE STATE OF
NEW YORK COURT OF APPEALS, DATED
NOVEMBER 26, 2019 .................................................. 1a
APPENDIX B — DECISION AND ORDER
OF THE SUPREME COURT OF NEW YORK,
APPELLATE DIVISION, FIRST
DEPARTMENT, DATED FEBRUARY 1, 2018 .... 78a
APPENDIX C — SENTENCING TRANSCRIPT
OF THE SUPREME COURT OF THE STATE
OF NEW YORK, COUNTY OF BRONX,
CRIMINAL TERM, FILED MARCH 27, 2017 ..... 81a
APPENDIX D — PLEA TRANSCRIPT OF THE
SUPREME COURT OF THE STATE OF NEW
YORK COUNTY OF BRONX CRIMINAL
TERM, PART 71, FILED MARCH 27, 2017 .......... 86a
APPENDIX E — DECISION OF THE
SUPREME COURT OF THE STATE OF NEW
YORK, COUNTY OF BRONX, FILED
AUGUST 16, 2016 ........................................................ 98a
APPENDIX F — DENIAL OF REHEARING OF
T HE APP E LLATE DIVISION OF T HE
S U P RE M E C OU RT , F IR ST JU DI CIA L
DEPARTMENT, NEW YORK COU NTY,
DATED MAY 1, 2018 ................................................ 105a
APPENDIX G — WAIVER OF THE RIGHT TO
APPEAL ..................................................................... 107a

viii
APPENDIX H — STATE OF IDAHO V.
NEVAREZ, NO. 47342-2019 (SUP RE ME
COURT OF THE STATE OF IDAHO), ORDER
OF THE SUPREME COURT OF THE STATE
OF IDAHO, FILED DECEMBER 5, 2019 ........... 109a
APPENDIX I — STATE OF IDAHO V.
NEVAREZ, NO. 47342-2019 (SUP RE ME
COURT OF THE STATE OF IDAHO),
PLAINTIFF-RESPONDENT’S RESPONSE
TO OPPOSITION TO MOTION TO DISMISS
APPEAL, FILED OCTOBER 9, 2019 ................... 111a
APPENDIX J — STATE OF IDAHO V.
NEVAREZ, NO. 47342-2019 (SUP RE ME
COURT OF THE STATE OF IDAHO),
DEFENDANT-APPELLANT’S
MEMORANDUM IN OPPOSITION TO
MOTION TO DISMISS APPEAL, FILED
OCTOBER 4, 2019 ..................................................... 114a
APPENDIX K — STATE OF IDAHO
V. NEVAREZ, NO. 47342-2019 (SUPREME
COURT OF THE STATE OF IDAHO),
PLAINTIFF-RESPONDENT ’S MOT ION
TO DISMISS APPEAL, FILED
SEPTEMBER 20, 2019 ............................................ 117a
APPENDIX L — STATE OF IDAHO V.
NEVAREZ, NO. CR14-18-3316 (DISTRICT
COURT, THIRD JUDICIAL DISTRICT OF
IDAHO, CANYON COUNTY), DEFENDANTAPPELLANT’S AMENDED NOTICE OF
APPEAL, FILED SEPTEMBER 20, 2019 ........... 132a

ix
APPENDIX M — STATE OF IDAHO V.
NEVAREZ, NO. CR14-18-3316 (DISTRICT
COURT, THIRD JUDICIAL DISTRICT OF
IDAHO, CANYON COUNTY), DEFENDANTAPPELLANT’S NOTICE OF APPEAL, FILED
SEPTEMBER 4, 2019 .............................................. 137a

x
TABLE OF AUTHORITIES
Page(s)
CASES
Anders v. California,
386 U.S. 738 (1967) .............................................. 13
Bazzle v. State,
434 P.3d 1090 (Wyo. 2019) .................................. 32
Berg v. Nooth,
359 P.3d 279 (Or. Ct. App. 2015) ......................... 32
Boykin v. Alabama,
395 U.S. 238 (1969) .............................................. 21
Brant v. State,
830 S.E.2d 140 (Ga. 2019) ................................... 31
Browne v. United States,
No. 11 C 5833, 2013 U.S. Dist. LEXIS 66642
(N.D. Ill. May 8, 2013) ........................................... 29
Campusano v. United States,
442 F.3d 770 (2d Cir. 2006) ........................... 13, 33
Caplin & Drysdale v. United States,
491 U.S. 617 (1989) ........................................ 12, 19
Commonwealth v. Grant,
689 N.E.2d 1336 (Mass. 1998) ............................. 21
Commonwealth v. Patton,
539 S.W.3d 651 (Ky. 2018)................................... 30
Cuyler v. Sullivan,
446 U.S. 335 (1980) .............................................. 19

xi
Garza v. Idaho,
139 S. Ct. 738 (2019) .................................... passim
Grigsby v. Commonwealth,
302 S.W.3d 52 (Ky. 2010)............................... 22, 24
Hill v. Lockhart,
474 U.S. 52 (1985) .................................... 15, 17, 19
Hill v. State,
710 S.E.2d 667 (Ga. Ct. App. 2011) ..................... 31
In re Pers. Restraint of Schorr,
422 P.3d 451 (Wash. 2018) .................................. 22
Jones v. Commonwealth,
795 S.E.2d 705 (Va. 2017).................................... 30
Junious v. State,
No. 14-99-01247-CR, 2001 Tex. App.
LEXIS 2714 (Tex. Ct. App. Apr. 26, 2001) ............ 30
Kitzke v. State,
55 P.3d 696 (Wyo. 2002) ...................................... 31
Mapp v. Ohio,
367 U.S. 643 (1961) .............................................. 26
McMann v. Richardson,
397 U.S. 759 (1970) ........................................ 15, 19
Mechling v. State,
16 N.E.3d 1015 (Ind. Ct. App. 2014) ................... 29
Miranda v. Arizona,
384 U.S. 436 (1966) ...................................... passim
Missouri v. Frye,
566 U.S. 134 (2012) .............................................. 28

xii
Oliver v. State,
No. 05-14-00308-CR, 2015 Tex. App.
LEXIS 4033 (Tex. Ct. App. Apr. 22, 2015) ............ 30
Oregon v. Elstad,
470 U.S. 298 (1985) .............................................. 26
Padilla v. Kentucky,
559 U.S. 356 (2010) .................................. 12, 15, 19
People v. Alfonso,
52 N.E.3d 456 (Ill. App. Ct. 2015) ....................... 31
People v. Batista,
167 A.D.3d 69 (2d Dep’t 2018) ....................... 25, 29
People v. Callahan,
604 N.E.2d 108 (N.Y. 1992) ................................. 22
People v. Panizzon,
913 P.2d 1061 (Cal. 1996) .............................. 21, 31
People v. Parker,
32 N.Y.3d 49 (N.Y. 2018) ..................................... 28
People v. Reid,
24 N.E.3d 70 (Ill. App. Ct. 2014) ......................... 30
People v. Seaberg,
541 N.E.2d 1022 (N.Y. 1989) ......................... 21, 22
Richardson-Merrell, Inc. v. Koller,
472 U.S. 424 (1985) ........................................ 12, 19
Robinson v. State,
373 So. 2d 898 (Fla. 1979) ................................... 31
Roe v. Flores-Ortega,
528 U.S. 470 (2000) .............................. 2, 12, 13, 27

xiii
Silverman v. United States,
365 U.S. 505 (1961) .............................................. 26
State v. Anderson,
781 N.W.2d 55 (Neb. 2010) .................................. 30
State v. Campbell,
44 P.3d 349 (Kan. 2002) ....................................... 32
State v. Chavarria,
208 P.3d 896 (N.M. 2009) .................................... 30
State v. Sweet,
581 P.2d 579 (Wash. 1978) .................................. 21

State v. Thomas,
391 P.3d 728, 2017 Kan. App. Unpub.
LEXIS 211 (Kan. Ct. App. Mar. 24, 2017) .......... 24
Strickland v. Washington,
466 U.S. 668 (1984) ........................................ 17, 19
United States v. Ashby,
No. 1:10CR00048-002, 2013 U.S. Dist.
LEXIS 36620 (W.D. Va. Mar. 18, 2013) ................ 18
United States v. Bushert,
997 F.2d 1343 (11th Cir. 1993) ............................ 23
United States v. Carter,
No. 2:11CR00002-001, 2014 U.S. Dist.
LEXIS 67402 (W.D. Va. May 16, 2014)........... 18-19
United States v. Dillard,
891 F.3d 151 (4th Cir. 2018) .................... 17, 18, 32
United States v. Erwin,
765 F.3d 219 (3d Cir. 2014) ........................... 16, 32

xiv
United States v. Goodman,
165 F.3d 169 (2d Cir. 1999) ................................. 25
United States v. Hahn,
359 F.3d 1315 (10th Cir. 2004) ............................ 29
United States v. Manning,
No. 7:12CR00042, 2015 U.S. Dist.
LEXIS 62651 (W.D. Va. May 13, 2015)................. 18
United States v. Martinez-Romero,
No. 4:10-cr-00020-1, 2012 U.S. Dist.
LEXIS 143536 (W.D. Va. July 12, 2012) ............... 18
United States v. Oladimeji,
463 F.3d 152 (2d Cir. 2006) ................................. 32
United States v. Teeter,
257 F.3d 14 (1st Cir. 2001) .................................. 23
Weeks v. United States,
232 U.S. 383 (1914) .......................................... 4, 26
Wheat v. United States,
486 U.S. 153 (1988) .............................................. 12
Wong Sun v. United States,
371 U.S. 471 (1963) .......................................... 4, 26

STATUTES AND OTHER AUTHORITIES
Sixth Amendment to the United States ........... passim
28 U.S.C. § 1257(a) ......................................................1
C.P.L. 450.10 ...............................................................7
FED. R. APP. P. 4(b)(1)(A) ........................................... 11
22 N.Y.C.R.R. § 606.5(b)(1) ....................................... 20

xv
OKLA. CT. CRIM. APP. R. 2.1(B) .................................. 11
N.Y. CRIM. P. LAW § 460.10(1)(a) .............................. 11
ABA Model Rules of Professional Conduct 1.7(b),
2.1 (Am. Bar Ass’n 1985) ....................................... 12
Brief for Defendant-Appellant, People v.
Thomas, No. APL-2018-00094
(N.Y. July 20, 2018) ............................................... 22
Dept. of Justice, Bureau of Justice Statistics, S.
Rosenmerkel, M. Durose, & D. Farole, Felony
Sentences in State Courts, 2006-Statistical
Tables, p. 1 (NCJ226846, rev. Nov. 2010)............. 28
Dept. of Justice, Bureau of Justice Statistics,
Sourcebook of Criminal Justice Statistics
Online, Table 5.22.2009 ......................................... 28
J. Rolando Acosta, First Department Takes
Different Approach to Appeal Waivers,” N. Y.
L. J. (Dec. 7, 2018) .................................................. 25
Nancy J. King & Michael E. O’Neill, Appeal
Waivers and the Future of Sentencing Policy,
55 DUKE L.J. 209 (2005) ........................................ 29
New York State Division of Criminal Justice
Services, Criminal Justice Case Processing
Arrest through Disposition New York State
January-December 2017 ........................................ 28
Robert E. Scott & William J. Stuntz, Plea
Bargaining as Contract, 101 YALE L.J. 1909
(1992) ...................................................................... 28
Standards for Criminal Justice, Defense
Function, 4-6.4(a) (Am. Bar Ass’n 2017) .............. 20

xvi
Susan R. Klein, Aleza S. Remis, & Donna Lee
Elm, Waiving the Criminal Justice System: An
Empirical and Constitutional Analysis,
52 AM. CRIM. L. REV. 73 (Winter, 2015) .... 20, 28-29

1
Petitioner Victor Thomas respectfully petitions
this Court for a Writ of Certiorari to review the
judgment of the New York Court of Appeals in this
case.
OPINION AND ORDER BELOW
The opinion of the New York Court of Appeals is
reported at 34 N.Y.3d 1019 (2019) (Pet. App. 1a–
77a). The opinion of the New York Supreme Court,
Appellate Division, First Department, is reported at
158 A.D.3d 434 (1st Dep’t 2018) (Pet. App. 78a–80a).
The New York Supreme Court’s sentencing decision
is unpublished and is reproduced in Appendix C (Pet.
App. 81a–85a). The New York Supreme Court’s
decision on Petitioner’s motion to suppress is
unpublished and is reproduced in Appendix E (Pet.
App. 90a–104a).
JURISDICTION
The Judgment of the New York Court of Appeals
was entered on November 26, 2019. This Court has
jurisdiction pursuant to 28 U.S.C. § 1257(a).
CONSTITUTIONAL
PROVISIONS INVOLVED
The Sixth Amendment to the United States
Constitution provides that “In all criminal
prosecutions the accused shall enjoy the right . . . to
have the assistance of counsel for his defense.”

2
INTRODUCTION
This Court has held that where counsel fails to
file a notice of appeal when requested, and thus
deprives a defendant of an appeal, counsel’s
performance is constitutionally deficient and
prejudice to the defendant on an ineffective
assistance of counsel claim must be presumed. Roe
v. Flores-Ortega, 528 U.S. 470, 483–84 (2000).
Last year in Garza v. Idaho, this Court extended
Flores-Ortega’s presumption of prejudice, holding
that counsel is per se ineffective when she fails to
heed a client’s request to file a notice of appeal even
if the client has executed a waiver of appeal as part
of a plea agreement. 139 S. Ct. 738, 742 (2019). The
Court reasoned that prejudice must be presumed
because “even the broadest appeal waiver does not
deprive a defendant of all appellate claims.” Id. at
749–50. The Court observed that “it should be clear
. . . that simply filing a notice of appeal does not
necessarily breach a plea agreement, given the
possibility that the defendant will end up raising
claims beyond the waiver’s scope.” Id. at 746.
Because the terms of Garza’s appeal waiver did
not specifically command him to refrain from the
“ministerial” task of filing a notice of appeal and thus
jurisdictionally forfeit all chance of further review,
this Court did not address whether counsel’s
accepting a “no-notice-of-appeal” waiver also
constitutes ineffective assistance.
Here, on an arranged plea, Petitioner admitted
his guilt in open court and allocuted to the facts of
his crime. But then, he was ambushed by the
prosecutor’s surprise inclusion of a written waiver of

3
appeal provision that purported to preclude
Petitioner from even filing a notice of appeal, subject
to certain non-exhaustive limitations. The trial
judge then supplemented the written waiver with
contradictory oral admonitions. A splintered New
York Court of Appeals held that the no-notice-ofappeal provision was “incorrect” but the waiver was
nonetheless “knowing and voluntary” under the
“totality of the circumstances.” Pet. App. at 21a. A
dissenting judge disagreed, asserting that the waiver
in question was incapable of providing “any
meaningful knowledge as to the rights” being waived
and calling the State’s waiver jurisprudence a
“Daedalean maze.” Pet. App. at 60a–65a.
This case presents a question of national
importance because no-notice-of-appeal waivers (and
their functional equivalents, waivers that strip a
defendant of any right “to file an appeal” or “to
appeal”) are in common use throughout the United
States. See infra § II. These provisions ignore Garza
and violate the Sixth Amendment—including by
chilling meritorious appeals on unwaivable
issues. Moreover, attempts by counsel to explain nonotice-of-appeal waivers to clients will only lead to
nonsensical advice that guarantees counsel’s
ineffectiveness. Using these waivers in plea
agreements also pits counsel’s interests against those
of her client by insulating counsel’s performance
from review, violating American Bar Association
standards of practice, and requiring counsel to ignore
court rules and ethics guidance.
The remedy is clear, simple and minimally
intrusive: this Court should extend Garza to cover
no-notice-of-appeal waivers and their equivalents,

4
hold that counsel’s acceptance of such waivers
constitutes per se ineffectiveness, and combine that
ruling with a prophylactic rule voiding appeal
waivers containing such provisions. See Miranda v.
Arizona, 384 U.S. 436 (1966); Wong Sun v. United
States, 371 U.S. 471 (1963); Weeks v. United States,
232 U.S. 383 (1914). Absent review and reversal in
this Court, this case will encourage prosecutors to
use no-notice-of-appeal waivers to circumvent Garza,
a result that undermines both the constitutional
rights of criminal defendants and the functioning of
the courts, by purporting to create waivers of
jurisdiction where none can exist.
The Court should grant certiorari.

STATEMENT OF THE CASE
The Underlying Incident
Petitioner allegedly was seen by the police in a
video of a street fight, in which one group of men was
beating another man, whose companions were held
at bay by a man pointing a gun at them. CR 29–30,
44.1 A police officer recognized Petitioner as the man
with the gun, and that officer was ordered to arrest

“CR” refers to the court record on file with the Court of
Appeals of the State of New York, No. APL-2018-00094.
1

5
Petitioner and bring him back to the police station
for questioning. Id.
After Petitioner was located and arrested, he was
not advised of his Miranda rights at that or any
other time. CR 58. Upon and after arrest, the officer
told Petitioner that “the detectives . . . wanted to ask
him some questions.” CR 33–34. In response
Petitioner repeatedly inquired “for what?” CR 34.
The officer responded with variations of “you’ll see
when . . . the detective . . . speaks to you” and “the
detectives . . . have a few questions for you.” Id.
These interactions between the officer and Petitioner
continued on the street, in the squad car and at the
precinct. CR 56–63.
Entering the station-house, Petitioner had
become “loud,” “hostile” and “belligerent.” He “kept
moving” and asked the same thing repeatedly: “what
do the detectives want to speak to me about?” The
officer once again replied “you’ll see when . . . the
detective speaks to you.” CR 34–36.
Precinct
prisoner
protocol
required that
Petitioner be logged-in downstairs and then taken to
the second floor for any interrogation. CR 58–60. In
this case, however, those standard procedures were
not followed. CR 62–63. Instead, the Detective
“immediately” came down to the first floor, showed
Petitioner a still picture from the video of him
holding a gun, and told him, “you’re here to speak . . .
about this.” CR 35–37, 60. Petitioner replied “You
got me” and then “stopped shouting” and “calmed
down after that.” CR 35–36, 60–61.

6
The Suppression Hearing
At a hearing on suppression of Petitioner’s
statement, counsel argued that his confession was
the “product of the functional equivalent of custodial
interrogation in the absence of Miranda” warnings
and that the Detective’s showing Petitioner
dispositive inculpatory evidence violated established
New York precedent and must be suppressed. CR
77–81. The court denied suppression, finding that
Petitioner’s statement was voluntary. CR 82–87.
The Plea and No-Notice-of-Appeal Waiver
Petitioner, a predicate felon, entered into a plea
agreement under which he would plead guilty to
first-degree attempted assault in return for a fiveyear determinate sentence. CR 89–90. Only after
Petitioner agreed to the deal and allocuted to the
facts of the crime in open court did the prosecutor
inform the parties and the court that the plea
agreement would also include a waiver of the right to
appeal. CR 92–94. The court noted that it “was
unaware of that . . . up to this point.” CR 94. There
was then an unexplained “pause in the proceedings,”
after which the court asked Petitioner if he
understood that, by the appeal waiver, he was giving
up his right to challenge the plea and sentence, to
which Petitioner responded yes. CR 94–95.

7
Only then did the court instruct Petitioner and
his counsel to review the written waiver of appeal,
after which it was to be signed “in open court.” CR
95. The written waiver contained in three places a
waiver of the right to file a notice of appeal, with
certain limited exceptions.2 Pet. App. 107a–108a.

2

Petitioner’s “Waiver of the Right to Appeal” states:

The defendant, in consideration of and as part of the plea
agreement being entered into hereby waives any and all rights
to appeal including the right to file a notice of appeal from the
judgment of conviction herein, with the exception of any
constitutional speedy trial claim which may have been
advanced, the legality of the sentence, my competency to stand
trial, and the voluntariness of this plea and waiver.
The undersigned defendant executed this waiver after being
advised by the Court of the nature of the rights being waived.
The defendant has been advised of the right to appeal (CPL
450.10), to prosecute the appeal as a poor person, to have an
attorney assigned in the event that the defendant is indigent,
and to submit a brief and argue before the appellate court on
any issue relating to the conviction or sentence.
I waive my right to appeal and to file a notice of appeal
voluntarily and knowingly after being fully apprised of my
appellate rights by the Court and my attorney [defense counsel]
standing beside me. I have had a full and fair opportunity to
discuss these matters with my attorney and any questions
which I may have had have been answered to my satisfaction.
The above defendant appeared before this court on this date
and in open Court, in the presence of this Court and with the
approval of this Court, and with the advice and consent of

8
Only after Petitioner signed the waiver did the court
inquire whether he had had “a full opportunity to
speak with [counsel] about what signing this waiver
means, what rights you’re giving up.” CR 95. At the
very end of a later sentencing hearing, the court
stated in passing to counsel that “even though your
client waived the right to appeal, you can provide
him with a notice of right to appeal for any rights
that may survive the waiver.” CR 103–104.
Appeal to the
Department

Appellate

Division,

First

Petitioner appealed his conviction to the New
York Appellate Division, First Department, on the
basis that denial of his motion to suppress his unMirandized custodial confession was erroneous.
Petitioner argued that he did not and could not
waive his right to appeal the suppression ruling
because, under established New York precedent, the
written waiver of the right to file a notice of appeal
voided the entire waiver. The People argued that the
waiver was enforceable, and that the oral waiver
during the plea allocution cured any deficiencies in
the written waiver. Pet. App. 78a-80a.

defendant’s attorney, signed the foregoing waiver of said
defendant’s right to appeal and to file a notice of appeal. CR 202
(emphasis added).

9
The First Department upheld Petitioner’s
conviction, finding that the no-notice-of-appeal
waiver was enforceable, and then denied a
subsequent Motion to Reargue.
Pet. App. 105a–
106a.
Appeal to the New York Court of Appeals
Petitioner’s Criminal Leave Application to the
New York Court of Appeals was granted. Petitioner
argued to the New York Court of Appeals, among
other things, that the no-notice-of-appeal waiver
provision is unenforceable and voids the entire
appeal waiver because it deprived him of his Sixth
Amendment right to counsel, improperly divested the
superior court of jurisdiction, runs counter to court
rules and ethical and professional guidance, violates
American Bar Association standards of practice, and
results in unconscionable pleas and bad public
policy.3
A splintered New York Court of Appeals affirmed.
Pet. App. 1a. A four-judge majority, joined by two
concurrences, found that while the no-notice-of-

Petitioner also argued that the no-notice-of-appeal
provision was contrary to settled New York law, and sought
suppression of his confession because the police elicited his
confession through the functional equivalent of interrogation in
the absence of Miranda.
3

10
appeal language was “incorrect,” it did not invalidate
the entire waiver because:
[I]t was coupled with clarifying language in the
same form that appellate review remained
available for certain issues, most importantly, the
validity of the appeal waiver itself, and
indicating, therefore, that the right to take an
appeal was retained. The court’s oral colloquy,
specifically its inquiry of Thomas and resulting
assurances that he had ample opportunity to
discuss with counsel the meaning of the waiver
and appellate rights he was surrendering, was
sufficient to support a knowing and voluntary
waiver under the totality of the circumstances.
Pet. App. 21a.
The court reached this conclusion despite striking
down “mischaracterized” appeal waivers in two
companion cases. Pet. App. 23a. The court also
noted that it had previously held appeal waivers
unenforceable where courts had incorrectly advised
defendants as to the rights relinquished in a plea
agreement. Pet. App. 40a–41a.
In a dissent adopting all of Petitioner’s
arguments, Judge Wilson expressed bewilderment at
the “Daedalean maze” created by the majority’s
distinction between a “mischaracterization” by the
court of waived rights (as in the companion cases),
which results in an invalid waiver, and an “incorrect”
waiver (in Mr. Thomas’s case), which apparently
does not. Pet. App. 63a–65a. He likewise noted that
“most criminal lawyers (and judges, myself included)
could not produce a comprehensive list of the
waivable and unwaivable rights without conducting

11
substantial research—let alone assess the value of
those rights in the context of a particular case.” Pet.
App. 61a.
REASONS FOR GRANTING THE PETITION
I.

No-Notice-Of-Appeal Waivers and Their
Equivalents Violate the Sixth Amendment,
Garza v. Idaho, and Counsel’s Professional
and Ethical Obligations

No-notice-of-appeal waivers and their functional
equivalents
are
pernicious
provisions
that
simultaneously preclude appellants from filing
meritorious appeals on unwaivable issues and
improperly strip superior courts of jurisdiction to
hear otherwise valid appeals and thereby develop the
law. They therefore violate Garza because they
prohibit the “ministerial” gateway task of filing a
notice of appeal, Garza, 139 S. Ct. at 745, and thus
after a short4 time, trigger a jurisdictional default
forfeiting the right to appeal entirely.
No-notice-of-appeal provisions also require
counsel to provide conflicted and nonsensical advice:

For example, 30 days in New York, N.Y. CRIM. P. LAW §
460.10(1)(a), 14 days in federal court, FED. R. APP. P. 4(b)(1)(A),
and 10 days in Oklahoma, OKLA. CT. CRIM. APP. R. 2.1(B).
4

12
counsel must both advise her client that he is
prohibited from filing a notice of appeal and yet
explain to him that she must and will file a notice of
appeal if he so requests. Flores-Ortega, 528 U.S. at
480 (counsel has a constitutional duty to consult with
client about an appeal when there is reason to think
a rational defendant would want to appeal); Padilla
v. Kentucky, 559 U.S. 356, 373–74 (2010) (counsel
has a constitutional duty to advise her client on the
consequences of her plea agreement); Garza, 139 S.
Ct. at 747.
No-notice-of-appeal
provisions
create
still
another conflict of interest and ethical dilemma for
counsel by requiring her to advise her client on
whether to accept a plea agreement that shields her
own performance from appellate review. See Caplin
& Drysdale v. United States, 491 U.S. 617, 632 n.10
(1989) (a lawyer “advis[ing] a client to accept an
agreement entailing a more harsh prison sentence
but no forfeiture—even when contrary to the client’s
interests—in an effort to preserve the lawyer’s fee
. . . would surely constitute ineffective assistance of
counsel.”); Wheat v. United States, 486 U.S. 153, 160
(1988) (“Federal courts have an independent interest
in ensuring that criminal trials are conducted within
the ethical standards of the profession and that legal
proceedings appear fair to all who observe them.”);
Richardson-Merrell, Inc. v. Koller, 472 U.S. 424, 435
(1985) (stating that “[a]s a matter of professional
ethics . . . the decision to appeal should turn entirely
on the client's interest” and not on an attorney’s
personal interest, which may not coincide with the
interests of the client) (citing ABA Model Rules of
Professional Conduct 1.7(b), 2.1 (1985)). No-notice-

13
of-appeal provisions and their equivalents make it
impossible for counsel to provide effective assistance,
and thus violate a defendant’s Sixth Amendment
right to counsel. They also dissuade the filing of an
unknowable number of meritorious appeals.
A. No-Notice-of-Appeal Provisions Violate
the Sixth Amendment and Garza v.
Idaho
Counsel is constitutionally required to file a
notice of appeal upon her client’s request, even if she
believes the appeal is without merit. Flores-Ortega,
528 U.S. at 486; Anders v. California, 386 U.S. 738,
744 (1967). The failure to file a notice of appeal upon
request
constitutes
presumptive
ineffective
assistance of counsel, Flores-Ortega, 528 U.S. at 483–
84, regardless of whether her client waived his right
to appeal, Garza, 139 S. Ct. at 746–47. This is
because “even the broadest appeal waiver does not
deprive a defendant of all appellate claims.” Id. at
749–50. An appeal waiver is actually an appeal
limitation, which simply means that the defendant
has fewer claims to potentially raise on appeal. Id.
at 744–45. Indeed, “all jurisdictions appear to treat
at least some claims as unwaiveable.” Id. at 745; see
also Campusano v. United States, 442 F.3d 770, 774
(2d Cir. 2006) (“[I]mportant constitutional rights
require some exceptions to the presumptive
enforceability of a waiver.”) (Sotomayor, J.).
But no unwaivable question can be reviewed if
the defendant is precluded from filing a notice of
appeal, which is the first step to putting the entire
appellate process in motion. Thus, under Garza,
Flores-Ortega and Anders, actions by counsel that

14
result in a bar to unwaivable appellate claims—such
as counseling a defendant to accept a plea agreement
that contains a no-notice-of-appeal provision—must
be per se ineffective.5 To hold otherwise would
encourage prosecutors to make an end-run around
Garza by accomplishing through a waiver agreement
the very result that Garza disallows: denying a
defendant the right to appeal substantive issues
outside the scope of his waiver. Garza, 139 S. Ct. at
747 (“Garza had a right to a proceeding, and he was
denied that proceeding altogether as a result of
counsel’s deficient performance.”).
Worse, no-notice-of-appeal waivers actually
compel counsel to be ineffective because the
agreement’s terms prohibit counsel from filing a
notice of appeal that counsel is constitutionally
mandated to file. See id. at 746 (“Garza’s attorney
rendered deficient performance by not filing the
notice of appeal in light of Garza’s clear requests.”).
Nor can the defendant himself cure the problem by
filing a notice, because he too is precluded from so
doing by the terms of the waiver. His appeal is thus
jurisdictionally forfeited regardless of its merits and
the potential unwaivability of his claims. See Pet.

Conversely, offering a no-notice-of-appeal waiver as part
of a plea agreement falls equally afoul of this Court’s rulings
and raises ethical and professional-conduct risks for a
prosecutor.
5

15
App. 70a (Wilson, J. dissenting) (“The cases before us
today are deeply troubling because they reveal that
which is not brought before us: the innumerable
cases which never make it to any appellate court.”).
B. No-Notice-of-Appeal Waivers Prevent
Counsel From Giving Disinterested and
Constitutionally Effective Advice
No-notice-of-appeal waivers also violate the Sixth
Amendment because they put counsel in an
impossible position. First, they pit two duties of
constitutional dimension against each other—
namely, the duty to advise a client on the terms of a
plea agreement and the duty to file a notice of appeal
upon a client’s request. Second, they create a conflict
of interest between counsel and client.
This Court has “long recognized that the
negotiation of a plea bargain is a critical phase of
litigation for purposes of the Sixth Amendment right
to effective assistance of counsel.”
Padilla v.
Kentucky, 559 U.S. 356, 373 (2010). Therefore
counsel has a constitutional obligation to advise her
client of the terms and consequences of a plea
agreement. Id. at 371 (affirming duty to counsel
client as to deportation consequences of pleading
guilty); Hill v. Lockhart, 474 U.S. 52, 56 (1985)
(“Where, as here, a defendant is represented by
counsel during the plea process and enters his plea
upon the advice of counsel, the voluntariness of the
plea depends on whether counsel’s advice ‘was within
the range of competence demanded of attorneys in
criminal cases.’”) (quoting McMann v. Richardson,
397 U.S. 759, 771 (1970)).

16
Here, counsel’s obligation to give competent
advice regarding a plea agreement that contains a
no-notice-of-appeal waiver directly contradicts
counsel’s concurrent constitutional mandate to file a
notice of appeal when so instructed. See Garza, 139
S. Ct. at 747. In practical effect, if no-notice-ofappeal waivers are upheld, counsel would have to
advise her client that (on the one hand) the client
has certain appellate rights that can never be
waived, id. at 745, but (on the other hand) under the
plea agreement, the client may not even file a notice
of appeal to preserve appellate rights (except those—
but not all—unwaivable rights which may or may
not be carved out). At the same time, counsel would
have to inform her client that counsel must file a
notice of appeal upon the client’s request, but that
doing so will expose the client to uncertain
consequences if the prosecution should decide that
this action breaches the waiver and the plea
agreement. See, e.g., United States v. Erwin, 765
F.3d 219, 236 (3d Cir. 2014) (“We will continue to
review conscientiously . . . whether a waiver was
knowingly and voluntarily entered into and whether
the issues raised fall within the scope of the waiver
. . . but . . . any such defendant must accept the risk
that, if he does not succeed, enforcing the waiver
may not be the only consequence.”).

17
Under these circumstances, counsel simply
cannot give constitutionally competent advice as to a
no-notice-of-appeal clause.6 Facing these kinds of
waivers, counsel cannot meet the performance
requirement of Strickland v. Washington, 466 U.S.
668 (1984). See Hill, 474 U.S. at 58–59 (Strickland
test applies to challenges to guilty pleas based on
ineffective assistance of counsel).
Moreover, as
recognized in Garza, when counsel’s ineffective
assistance causes the client either to jurisdictionally
default and lose his appeal, or alternatively to breach
the terms of his plea agreement, prejudice must be
presumed. Garza, 139 S. Ct. at 746–47.
United States v. Dillard, 891 F.3d 151 (4th Cir.
2018), illustrates these concerns. In Dillard, the
Fourth Circuit enforced an appeal waiver that
provided:
I hereby waive my right of appeal as to any
and all other issues in this matter and agree I
will not file a notice of appeal. I am knowingly
and voluntarily waiving any right to appeal.
By signing this agreement, I am explicitly and
irrevocably directing my attorney not to file a
notice of appeal. Notwithstanding any other
language to the contrary, I am not waiving my

And a defendant unrepresented by counsel would be at a
complete loss as to how to proceed.
6

18
right to appeal or to have my attorney file a
notice of appeal, as to any issue which cannot
be waived, by law.
891 F.3d at 154. This language highlights the
contradictory nature of no-notice-of-appeal waivers,
which make it impossible for counsel to give
constitutionally effective advice.
These provisions infect not just direct appellate
review but collateral review as well, creating another
end-run around Garza.
A no-notice-of-appeal
provision identical to that in Dillard was at issue in
United States v. Ashby, where the defendant in a
habeas action alleged ineffective assistance of
counsel because “counsel failed to advise her after
sentencing that she could raise a viable appellate
challenge to the six-level enhancement.”
No.
1:10CR00048-002, 2013 U.S. Dist. LEXIS 36620, at
*10 (W.D. Va. Mar. 18, 2013). Despite the presence
of unwaivable issues, the court enforced the waiver
and found no Sixth Amendment violation because, by
the terms of the plea agreement, the defendant had
expressly directed her attorney not to file a notice of
appeal. Id. at 10–13; see also United States v.
Manning, No. 7:12CR00042, 2015 U.S. Dist. LEXIS
62651, at *11–12 (W.D. Va. May 13, 2015) (denying
habeas petition based on ineffective assistance of
counsel for failure to file a notice of appeal, where
defendant’s plea agreement provided: “by signing
this agreement I am explicitly and irrevocably
directing my attorney not to file a notice of appeal”);
United States v. Martinez-Romero, No. 4:10-cr-000201, 2012 U.S. Dist. LEXIS 143536, at *13 (W.D. Va.
July 12, 2012) (same); see also United States v.
Carter, No. 2:11CR00002-001, 2014 U.S. Dist. LEXIS

19
67402, at *5–7 (W.D. Va. May 16, 2014) (enforcing
identical appeal waiver in habeas proceeding, and
finding petitioner had not asked his attorney to file a
notice of appeal).
No-notice-of-appeal waivers also create an
unresolvable ethical conflict for counsel: their use
forces counsel to advocate for a provision that puts
counsel’s own interests ahead of her client’s by
shielding counsel’s performance from review. This
again constitutes ineffective assistance of counsel,
see Caplin & Drysdale, 491 U.S. at 632 n.10 (counsel
advising a client to accept a harsher sentence that
preserves counsel’s fee “would surely constitute
ineffective assistance of counsel”), but would be
unreviewable by its very nature.
See also
Strickland, 466 U.S. at 692 (“Prejudice is presumed
only if the defendant demonstrates that counsel
‘actively represented conflicting interests’ and that
‘an actual conflict of interest adversely affected his
lawyer’s performance.’”); Cuyler v. Sullivan, 446 U.S.
335, 349–50 (1980); Hill, 474 U.S. at 56–57 (1985)
(quoting McMann, 397 U.S. at 771 ).
ABA standards and court rules already recognize
and prohibit the ethical dilemma that no-notice-ofappeal waivers create. See Richardson-Merrell, Inc.
v. Koller, 472 U.S. 424, 435 (1985) (noting that
attorney’s personal interest should not guide the
decision on whether to appeal) (citing Model Rules of
Professional Conduct 1.7(b), 2.1 (Am. Bar Ass’n
1985)); Padilla, 559 U.S. at 366 (quoting Strickland,
466 U.S. at 688) (“We long have recognized that
‘[p]revailing norms of practice as reflected in
American Bar Association standards and the like . . .
are guides to determining what is reasonable . . .’”).

20
Indeed, ABA standards and court rules discourage
counsel from advising a client to accept a plea
agreement that contains a no-notice-of-appeal
waiver, because such an agreement necessarily
waives the client’s right to challenge his conviction
on the basis of ineffective assistance of counsel.
Standards for Criminal Justice, Defense Function, 46.4(a) (Am. Bar Ass’n 2017) (defense counsel should
not agree to appeal waivers of non-specified
ineffective assistance of counsel claims); see also id.
at § 4-9.1(c) (“Defense counsel should take whatever
steps are necessary to protect the client’s rights of
appeal, including filing a timely notice of appeal[.]”);
22 N.Y.C.R.R. § 606.5(b)(1) (“It shall also be the duty
of . . . counsel to ascertain whether defendant . . .
wishes to appeal and, if so, to serve and file the
necessary notice of appeal.”); Susan R. Klein, Aleza
S. Remis, & Donna Lee Elm, Waiving the Criminal
Justice System: An Empirical and Constitutional
Analysis, 52 AM. CRIM. L. REV. 73, 94 (Winter, 2015)
(“When a defense attorney advises her client to
waive the right to present claims of ineffective
assistance of counsel in a post-sentencing collateral
attack, the attorney effectively shields herself from
future findings of ineffective representation—which
in turn often shields her from bar discipline and
malpractice liability.”).
C. No-Notice-of-Appeal Waivers Lead to
Unconscionable Pleas and Cannot be
“Knowingly,
Intelligently,
and
Voluntarily” Made
No-notice-of-appeal
unconscionable pleas

waivers also lead to
that cannot meet the

21
constitutional requirement that plea agreements and
appeal waivers be made knowingly, intelligently, and
voluntarily. See Boykin v. Alabama, 395 U.S. 238,
244–45 (1969); see also People v. Panizzon, 913 P.2d
1061, 1068 (Cal. 1996); People v. Seaberg, 541
N.E.2d 1022, 2026 (N.Y. 1989); Commonwealth v.
Grant, 689 N.E.2d 1336, 1338 (Mass. 1998); State v.
Sweet, 581 P.2d 579, 581–82 (Wash. 1978).
No-notice-of-appeal waivers make it practically
impossible for counsel to identify and articulate the
rights her client is waiving, especially in the hurlyburly of daily criminal practice in an overburdened
system, where cases can be pled out in a matter of
minutes.
As Judge Wilson observed in his dissenting
opinion in this case, “where even a reviewing court
would struggle to understand the rights surrendered
by an appellate waiver, we cannot expect defendants
or their attorneys to ‘grasp the nature of the rights
they are surrendering.’” Pet. App. 60a. Worse, he
noted, “most criminal lawyers (and judges, myself
included) could not produce a comprehensive list of
waivable and unwaivable rights without conducting
substantial research—let alone assess the value of

22
those rights in the context of a particular case.”7 Id.
at 58a; Garza, 139 S. Ct. at 745.
The facts of Petitioner’s case highlight the
problem. His no-notice-of-appeal waiver was not the
product of a pre-plea negotiation between parties of
equal bargaining power.
In fact, it was not
negotiated at all.
Rather, it was sprung on
Petitioner, defense counsel and even the trial judge
only after Petitioner had agreed to the plea in open
court and allocuted to the facts of the crime. The
judge did not explain the waiver, instead delegating
this task to counsel, and nothing in the record shows
that the trial judge even read the waiver. Only after
Petitioner, under time pressure, signed the waiver
did the judge enquire whether he had had a “full
opportunity” to speak with his lawyer about “what

For example, in New York, nearly 20 issues have been
found to survive valid waivers of appeal, not just the
“traditional” four issues sometimes known to counsel. Brief for
Defendant-Appellant, People v. Thomas, No. APL-2018-00094
(N.Y. July 20, 2018) (“Thomas Br.”) 36–38. See People v.
Seaberg, 541 N.E.2d 1022 (N.Y. 1989); People v. Callahan, 604
N.E.2d 108, 111 (N.Y. 1992).
Likewise, the Washington
Supreme Court has identified at least four issues that can
never be waived, In re Pers. Restraint of Schorr, 422 P.3d
451,453 (Wash. 2018), and the Supreme Court of Kentucky has
also enumerated four examples of “some issues” that survive
waiver, Grigsby v. Commonwealth, 302 S.W.3d 52, 54 (Ky.
2010).
7

23
signing this waiver means, what rights you’re giving
up.” Pet. App. 93a. For his part, the judge twice
categorically told Petitioner that he could not
challenge his plea and sentence to a higher court, but
then later, at sentencing, instructed counsel—but not
the Petitioner—that “even though your client waived
the right to appeal, you can provide him with a
notice of right to appeal for any rights that may
survive that waiver.” Pet. App. 84a.
Confusing and contradictory situations like this
are by no means isolated. Rather, courts nationwide
continue
to
struggle
to
create
consistent
jurisprudence governing when appeal waivers can
“knowingly, intelligently, and voluntarily” be made,
as the New York Court of Appeals did here. Pet.
App. 36a (upholding one no-notice-of-appeal waiver
despite its being “incorrect,” and reversing two
different absolute-ban waivers because the court’s
advisements on the waivers were “mischaracterized,”
“muddled,” and “confused” with “few correctly spoken
terms”); United States v. Teeter, 257 F.3d 14, 26–27
(1st Cir. 2001) (“Given the court’s failure to make
inquiry into the waiver, its unfortunate contradiction
of the waiver’s terms, and the lack of any correction,
then or thereafter, we cannot say with the requisite
assurance that the appellant’s surrender of her
appellate rights was sufficiently informed.”); United
States v. Bushert, 997 F.2d 1343, 1352–53 (11th Cir.
1993) (holding that it was not clear whether the
waiver was entered into knowingly and voluntarily
because “[t]he district court’s generalization that the
defendant could appeal his sentence under some
circumstances was insufficient. It is not manifestly
clear that [defendant] understood he was waiving his

24
appeal rights”); State v. Thomas, 391 P.3d 728, 2017
Kan. App. Unpub. LEXIS 211, at *6–7 (Kan. Ct. App.
Mar. 24, 2017) (finding the waiver previously
approved by the lower court was invalid and
inoperable because it waived constitutionally
guaranteed appeal rights).
The practical effect of no-notice-of-appeal
waivers is to prevent recourse to the appellate
courts.
A countless number of defendants and
counsel will take these blanket waivers at their word
and refrain from filing a notice of appeal—even
where the issue to be appealed cannot be waived.
But without filing a notice of appeal, there will be no
transcription of the record, no assignment of counsel
and no review of the record for (unwaivable)
appellate issues.
Jurisdictional default quickly
follows and the appeal of any legitimate unwaivable
issues is lost forever.
D. This Court Should Void Waivers of
Appeal Containing No-Notice-of-Appeal
Provisions and their Equivalents
Current law provides no deterrent to prosecutors
including overbroad no-notice-of-appeal waivers and
their equivalents in plea agreements. And courts
continue to uphold them even as they note that the
waivers are constitutionally flawed.
See, e.g.,
Grigsby, 302 S.W.3d at 54–55 (upholding a broad
waiver while stating, “A waiver of the right to appeal
in a guilty plea does not extinguish all appealable
issues”). The only way to stop the use of these
clauses is to void the entire waiver whenever it
includes language that strips the right to file notice
or otherwise pursue an appeal. This remedy is

25
reasonable and proportionate to an unfair practice
that aims to chill appeals—even those that cannot be
waived.
This type of bright-line rule is easily
understood by all participants in the system and is
administratively efficient.
See, e.g., People v.
Batista, 167 A.D.3d 69, 82 (2d Dep’t 2018)
(conservative estimate of at least 380 appeal waivers
in New York being held invalid over five years); J.
Rolando Acosta, First Department Takes Different
Approach to Appeal Waivers,” N. Y. L. J. (Dec. 7,
2018) (describing First Department practice as more
efficient to review the merits of “waived” claims than
to endeavor to determine if appeal waivers are valid);
see also Miranda, 384 U.S. at 447 (discussing
standard for adopting prophylactic rules to curb
abuse); United States v. Goodman, 165 F.3d 169, 174
(2d Cir. 1999) (observing that the validity of
appellate waivers “has been a recurring issue in this
Court” and presented “more difficulty” in cases
involving broad form waivers).
Accordingly, this Court should extend Garza to
establish a bright-line rule voiding appeal waivers
that contain clauses purporting to block the filing of
a notice of appeal or otherwise prevent appeal
altogether.
Absent a clear, prophylactic rule,
prosecutors will continue to use these provisions,
which bring a false, unconstitutional “finality” to
cases.
This Court prescribes prophylactic rules assuring
the constitutional rights of criminal defendants when
it determines that (i) “[p]rocedural safeguards must
be employed to protect the privilege,” (ii) the relevant
conduct is “sufficiently widespread to be the object of
concern,” and (iii) “there can be no assurance that

26
practices of this nature will be eradicated in the
foreseeable future.” Miranda, 384 U.S. at 447, 478–
79.
The Court has tailored its rulings to the rights
protected by authorizing rules sufficient to deter
behaviors that violate those rights. See, e.g., id. at
479 (“[U]nless and until such warnings are
demonstrated by the prosecution at trial, no evidence
obtained as a result of interrogation can be used
against him.”); Wong Sun, 371 U.S. at 471 (excluding
out-of-court statements against a declarant’s coconspirator when the conspiracy has ended);
Silverman v. United States, 365 U.S. 505 (1961)
(excluding verbal statements overheard by officers
using an electronic listening device); Mapp v. Ohio,
367 U.S. 643 (1961) (extending the exclusionary rule
to the states’ prosecution of crimes); Weeks, 232 U.S.
at 383 (excluding physical evidence seized during an
illegal search). While “Congress and the States are
free to develop their own safeguards,” when “the
issues presented are of constitutional dimensions,”
the rule is for this Court to determine. See Miranda,
384 U.S. at 490, see also Oregon v. Elstad, 470 U.S.
298, 307 (1985) (“Miranda’s preventive medicine
provides a remedy even to the defendant who has
suffered no identifiable constitutional harm”).
The need for a clear prophylactic rule is
highlighted by the practice of prosecutors in Idaho
after this Court’s 2019 Garza decision. The Idaho
Supreme Court has recently heard, and granted by
unpublished summary order, a motion by the State
to dismiss an appeal after the defendant agreed as
part of his plea agreement to a waiver in which he
“specifically waives and gives up his right to appeal

27
the judgment and sentence.” Pet. App. 110a, 118a.
Counsel had filed a notice of appeal to comply with
Garza, Pet. App. 132a, 137a, but before the
defendant could perfect the appeal—and even before
the trial-court record was made available to
defendant—the State moved to dismiss the appeal,
Pet. App. 117a, and the Idaho Supreme Court
granted that motion, Pet. App. 109a. Notably, the
defendant had sought to appeal what this Court has
identified in Garza to be unwaivable: whether the
defendant’s appellate right was “knowingly,
intelligently, and voluntarily waived.” Pet. App.
115a; see Garza, 139 S. Ct. at 745.
This is but one example illustrating the need for
a simple, binding rule: prosecutors may not offer,
defense counsel may not accept, and courts may not
ratify any waiver of appeal that purports to strip a
defendant of unwaivable appellate rights, including
the right to file a notice of appeal. See Garza, 139 S.
Ct. at 744 (“And, most relevant here, prejudice is
presumed ‘when counsel’s constitutionally deficient
performance deprives a defendant of an appeal that
he otherwise would have taken.’”) (citing FloresOrtega, 528 U.S. at 484).
II. The Challenged Practice Is Widespread,
Takes Many Forms, and Provides an EndRun around Garza.
A. Nearly All Criminal Cases in the United
States End in Plea Agreements With
Waivers of Appeal
This Court has recognized that, increasingly,
plea bargaining “is the criminal justice system.”

28
Missouri v. Frye, 566 U.S. 134, 144 (2012) (quoting
Robert E. Scott & William J. Stuntz, Plea Bargaining
as Contract, 101 YALE L.J. 1909, 1912 (1992))
(emphasis in original). Indeed, as many as 96% of
felony convictions in New York State are obtained by
plea agreement,8 while comparative statistics in the
federal system and for the 50 States have reached as
high as 97% and 94%, respectively. Frye, 566 U.S. at
143 (citing Dept. of Justice, Bureau of Justice
Statistics, Sourcebook of Criminal Justice Statistics
Online,
Table
5.22.2009,
https://www.albany.edu/sourcebook/pdf/t5222009.pdf
and Dept. of Justice, Bureau of Justice Statistics, S.
Rosenmerkel, M. Durose, & D. Farole, Felony
Sentences in State Courts, 2006-Statistical Tables, p.
1
(NCJ226846,
rev.
Nov.
2010),
https://www.bjs.gov/content/pub/pdf/fssc06st.pdf).
The majority of such plea agreements contain
waivers of appeal. See Susan R. Klein et al., Waiving
the Criminal Justice System: An Empirical and

8People

v. Parker, 32 N.Y.3d 49, 61 n. 7 (N.Y. 2018) (in New
York State “in 2017, only 1,710 of the felony indictments and
SCIs [Superior Court Informations] were disposed of through
trials, while 40,449 were disposed of through other means,
mostly plea deals”) (citing New York State Division of Criminal
Justice Services, Criminal Justice Case Processing Arrest
through Disposition New York State January-December 2017,
http://www.criminaljustice.ny.gov/crimnet/ojsa/dar/DAR-4Q2017-NewYorkState.pdf (accessed February 20, 2020)).

29
Constitutional Analysis, 52 AM. CRIM. L. REV. 73, 87,
122–26 (2015) (finding that 88 of 114 boilerplate plea
agreements from federal districts contained
appellate waivers); see also Nancy J. King & Michael
E. O’Neill, Appeal Waivers and the Future of
Sentencing Policy, 55 DUKE L.J. 209, 212, 231 (2005)
(reporting that over 65 percent of plea agreements
across all federal circuits included appeal waivers);
United States v. Hahn, 359 F.3d 1315, 1318 (10th
Cir. 2004) (“Many such plea agreements contain a
waiver of the defendant’s right to appeal.”); Batista,
167 A.D.3d 69, 80 (2d Dep’t 2018) (noting appeal
waivers may be the reason why only 846 records on
appeal were filed in that court out of over 15,600
felony guilty pleas recorded in the same year);
Mechling v. State, 16 N.E.3d 1015, 1017 n.4 (Ind. Ct.
App. 2014) (“This court has previously noted the
prevalence of plea agreements containing a waiver of
the right to appeal, and we have advised trial courts
to be on the lookout for those agreements.”).
B. Many Waivers Completely Block the
Right to “File a Notice of Appeal,” to
“File an Appeal” or to “Appeal”
At the same time, prosecutors’ offices across the
nation have deployed no-notice-of-appeal provisions,
or similarly overbroad waiver clauses that achieve
the same deceptive and deterrent result. See, e.g.,
Browne v. United States, No. 11 C 5833, 2013 U.S.
Dist. LEXIS 66642, at *8 (N.D. Ill. May 8, 2013) (“In
the agreement, Browne waived ‘his right to challenge
his conviction and sentence, . . . and (in any case in
which the term of imprisonment and fine are within
the maximums provided by statute) his attorney’s

30
alleged failure or refusal to file a notice of appeal.’”);
People v. Reid, 24 N.E.3d 70, 71–72 (Ill. App. Ct.
2014) (“There is an agreement that the defendant
will not file a notice of appeal, will not file a postconviction petition, and will waive further appeals
exclusive of his constitutional rights to apply for
pardon or commutation.”); Junious v. State, No. 1499-01247-CR, 2001 Tex. App. LEXIS 2714, at *3
(Tex. Ct. App. Apr. 26, 2001) (“[A]ppellant
voluntarily waived his right to file a motion for new
trial, motion in arrest of judgment, notice of appeal,
or any right to appeal in this cause of action.”).
These waivers are categorical in their commands
not to file or take an appeal.
See, e.g.,
Commonwealth v. Patton, 539 S.W.3d 651, 653 (Ky.
2018) (upholding Kentucky waiver of the right to
“appeal to a higher court”); State v. Anderson, 781
N.W.2d 55, 57 (Neb. 2010) (upholding Nebraska plea
form with waiver of the right “to appeal any final
decision of the court”); State v. Chavarria, 208 P.3d
896, 897 (N.M. 2009) (upholding plea agreement with
waiver of “the right to appeal the conviction that
results from the entry of this plea agreement”);
Oliver v. State, No. 05-14-00308-CR, 2015 Tex. App.
LEXIS 4033, at *3 (Tex. Ct. App. Apr. 22, 2015)
(upholding Texas plea form with waiver of “my right
to any appeal if the Court follows the terms of the
State’s recommendation as to sentencing”); Jones v.
Commonwealth, 795 S.E.2d 705, 713 (Va. 2017)
(upholding plea agreement with waiver of “all rights
of appeal with regard to any substantive or
procedural issue involved in this prosecution”).
Regardless of type, these blanket waivers
routinely fail to carve out all unwaivable claims that
survive any limitation of appeal, and thus should be

31
void under Garza. See, e.g., Robinson v. State, 373
So. 2d 898, 902 (Fla. 1979) (right to appeal on the
basis of lack of jurisdiction is unwaivable); Hill v.
State, 710 S.E. 2d 667, 669 (Ga. Ct. App. 2011) (right
to appeal based on double jeopardy is unwaivable);
Chavarria, 208 P.3d at 899–900 (right to challenge
the legality of sentences is unwaivable); Kitzke v.
State, 55 P.3d 696, 699 (Wyo. 2002) (right to appeal
on the basis that the plea or waiver was involuntary
is unwaivable); see also Garza, 139 S. Ct. at 745
(“[W]hile signing an appeal waiver means giving up
some, many, or even most appellate claims, some
claims nevertheless remain.”).
C. Courts Routinely Enforce Overbroad
Waivers
Notwithstanding Garza, state courts routinely
enforce clauses that preclude any appeal. See, e.g.,
Panizzon, 913 P.2d at 1068–70 (enforcing waiver
language that “I hereby waive and give up my right
to appeal from the sentence I will receive in this
case. I also waive and give up my right to appeal the
denial of any and all motions made and denied in my
case.”); Brant v. State, 830 S.E.2d 140, 141 (Ga.
2019) (enforcing agreement that expressly provided
that defendant “waives any and all rights to appeal
and will not file, or cause[] to be filed, any appeal”);
People v. Alfonso, 52 N.E.3d 456, 459–60 (Ill. App.
Ct. 2015) (enforcing a waiver where the defendant
agreed to “giv[e] up [his] right to appeal and . . . to
attack these judgments at a later date” and in which
the defendant was told, “If you appeal or file a
motion to withdraw your plea or to attack the
judgments, you will violate your promise not to do so

32
and that will violate the plea agreement.”); State v.
Campbell, 44 P.3d 349, 353 (Kan. 2002) (enforcing a
waiver that stated the defendant waived “any right
to appeal the verdict against him”); Berg v. Nooth,
359 P.3d 279, 282 (Or. Ct. App. 2015) (enforcing a
waiver where the defendant agreed to “waive any
right to appeal”). But see Bazzle v. State, 434 P.3d
1090, 1097 (Wyo. 2019) (rejecting state’s attempt to
bar an appeal “simply because the parties used the
terms ‘any’ and ‘appeals’ in the appellate waiver,”
noting that “[a]t most, the use of those terms creates
an ambiguity, which is interpreted against the State
and in favor of the defendant”).
Such over-broad and misleading waivers are also
upheld in federal practice. See, e.g., Dillard, 891
F.3d at 154 (enforcing waiver that stated the
defendant “will not file a notice of appeal,” “waiv[ed]
any right to appeal,” was “explicitly and irrevocably
directing my attorney not to file a notice of appeal”
but also stating “[n]otwithstanding any other
language to the contrary, I am not waiving my right
to appeal or to have my attorney file a notice of
appeal, as to any issue which cannot be waived, by
law”); United States v. Erwin, 765 F.3d 219, 224 (3d
Cir. 2014) (enforcing an appellate waiver that stated
defendant “voluntarily waives the right to file any
appeal,” and remanding for resentencing) (emphasis
added); United States v. Oladimeji, 463 F.3d 152, 153
(2d Cir. 2006) (upholding waiver of right to appeal
that provided that “defendant will not file an appeal
or otherwise challenge the conviction or sentence”).
Thus, appeal waivers that prohibit defendants
from pursuing unwaivable appellate issues are
common, widely enforced, and pernicious. Their sole
purpose and practical effect are to deter defendants

33
from seeking, and courts from having jurisdiction
over, appellate review even concerning violations of
“important constitutional rights [that] require some
exceptions to the presumptive enforceability of a
waiver.” Campusano, 442 F.3d at 774. Based on
Garza, the Court should put on end to this practice.

CONCLUSION
For the foregoing reasons, the Petition for a Writ
of Certiorari should be granted.
Respectfully submitted,
LOUIS O’NEILL
Counsel of Record
KELLY NEWMAN
HOLLY TAO
WHITE & CASE LLP
1221 Avenue of the
Americas
New York, New York
(212) 819-8200
louis.oneill@whitecase.com
Counsel for Petitioner
February 24, 2020

APPENDIX

1a
A of the state
Appendix A —Appendix
opinion
of new york court of appeals,
dated november 26, 2019
Court of Appeals of New York
No. 87
The People & c.,
Respondent,
v.
Victor Thomas,
Appellant.
No. 88
The People & c.,
Respondent,
v.
Nicole L. Green, & c.,
Appellant.

2a
Appendix A
No. 89
The People & c.,
Respondent,
v.
Storm U. Lang, & c.,
Appellant.
November 26, 2019, Decided
OPINION
DiFiore, Chief Judge:
In these three consolidated appeals, the defendants’
w ritten waivers of the right to appeal contained
mischaracterizations of the scope of the appellate rights
waived as a condition of the plea bargains. In two of
the three cases, the trial courts’ colloquies, in eliciting
defendants’ oral waivers, similarly mischaracterized
the appellate rights surrendered. Our primary task is
to determine whether, under the circumstances of each
case, the mischaracterizations impacted the knowing and
voluntary nature of the three appeal waivers before us.
Adhering to our well-established precedent in reviewing
the validity of appeal waivers, we affirm in People
v Thomas, as the appeal waiver was knowingly and
voluntarily entered. We reverse in People v Green and

3a
Appendix A
People v Lang, as the appeal waivers were involuntarily
made and thus are not enforceable.
People v Thomas
By indictment, defendant Victor Thomas was charged
with class B violent felonies of first-degree assault and
first-degree gang assault, and related crimes. He was
identified by a police officer who recognized him, based on
previous arrests, as the man in surveillance video pointing
a gun at people attempting to assist the victim during a
gang assault. While in custody at the precinct and prior
to Miranda warnings, a detective showed Thomas a still
photo taken from the video to answer Thomas’ repeated
questions as to why he was being detained. Immediately
upon viewing the photo, Thomas stated: “You got me.”
Supreme Court denied his motion to suppress this oral
statement on the ground that it was spontaneously
made and not the result of interrogation or its functional
equivalent.
The following day, Thomas pled guilty as a secondfelony offender to a reduced class C violent felony charge of
first-degree attempted assault in exchange for the promise
of the legal minimum sentence of five years in prison to be
followed by five years of postrelease supervision (PRS).
This was the same plea offer made before the suppression
hearing was held. Thomas waived his right to appeal both
orally and in writing as a condition of the plea bargain.
During the oral plea colloquy, the trial court elicited from
defendant his understanding that, “separate and apart”
from the constitutional trial rights he waived, he was being

4a
Appendix A
asked to give up the right to appeal, meaning “to challenge
to a higher court what is taking place right now, the plea
and what will take place in about two weeks when you are
sentenced.” The written waiver form he and his attorney
signed stated that, in consideration of the plea agreement,
defendant “waives any and all rights to appeal including
the right to file a notice of appeal from the judgment of
conviction,” with the exception of any constitutional speedy
trial claim, the legality of sentence, competency to stand
trial and “the voluntariness of this plea and [appeal]
waiver.” The court elicited defendant’s acknowledgement
that he “had a full opportunity” to consult with counsel
“about what signing this waiver means” and the rights he
was “giving up.”
At sentencing, the court imposed upon defendant
the promised legal minimum term and advised defense
counsel to provide Thomas “with a notice of right to appeal
for any rights that may survive that waiver.” Defendant
timely filed a notice of appeal and, on direct appeal, sought
review of the validity of the appeal waiver and the order
denying his motion to suppress his oral statement. The
Appellate Division affirmed, holding that defendant’s
valid waiver of the right to appeal precluded review of the
suppression ruling; in the alternative, the Court agreed
with the suppression court that defendant’s statement
was spontaneous and not the product of interrogation (158
A.D.3d 434, 70 N.Y.S.3d 190 [1st Dept 2018]). A Judge of
this Court granted defendant leave to appeal (31 N.Y.3d
1088, 79 N.Y.S.3d 110, 103 N.E.3d 1257 [2018]).

5a
Appendix A
People v Green
After waiving indictment, defendant Nicole Green was
charged by superior court information (SCI) with three
counts of burglary in the second degree, class C violent
felonies. Defendant pled guilty to one reduced count of
attempted second degree burglary, a class D violent felony,
in exchange for an initial sentence promise of a six-year
prison term and three years of PRS. The court left open
the possibility that the sentence could run consecutive to
a nine-year prison sentence Green was then serving. A
waiver of the right to appeal was a condition of the plea
bargain offer. In describing the waiver, the court advised
Green that:
“ordinarily, . . . after somebody is convicted and
sentenced in this court, they have the right to
file an appeal to the Appellate Division Fourth
Department. Some people get to take an appeal
to the highest Court in the state after that, the
Court of Appeals. Some people exhaust their
state appeals and file appeals in the federal
system. Some people come back here and ask to
have their conviction vacated or modified. The
[P]eople have indicated that in order to give you
this cap on sentence, they are requiring you to
waive your right to appeal; and once you are
convicted and sentenced here, there will be no
review by any other court. Do you understand
that?”
Green answered that she did. The court next asked:

6a
Appendix A
“Do you understand that waiver goes to almost
all issues of conviction and sentence, including
the terms and length of your sentence, whether
your sentence is excessive, you won’t be able
to hire an attorney to file an appeal for you,
you won’t get an assigned attorney to file an
appeal for you, you won’t be able to file your own
appeal, you won’t get waived filing fees. There is
just going to be no review by any other court.”
Green again confirmed that she understood and the court
directed her to sign a written appeal waiver form stating
that she was waiving “all rights to appeal,” including her
rights to take an appeal, to file a brief, to have counsel
appointed if she could not afford one, to argue the appeal
before an appellate court and to seek postjudgment CPL
article 440 relief to vacate the conviction or sentence.
Beneath that language, the form listed four issues that
were excepted from the appeal waiver, including the
voluntariness of the waiver. The court did not allocute
Green as to whether she understood the form’s contents.
Green then admitted her guilt of the charged burglary.
After a brief recess and alerted by the prosecutor that a
mandatory five-year PRS period was required as Green
was a second violent felony offender, the court corrected
the sentencing promise with respect to PRS. Green
reaffirmed her acceptance of the plea bargain deal with
the revised five-year PRS term, confirming that she did
not want to withdraw her guilty plea. Counsel made it
clear that Green’s only concern was that the plea offer
still included the possibility of concurrent time. Green

7a
Appendix A
then admitted her predicate violent felony conviction
and was adjudicated a predicate felon. At sentencing, the
court again asked if Green understood that the promised
offer included the increased PRS term. After consulting
with counsel, Green maintained her guilty plea and the
court imposed the promised sentence but ordered it to
run consecutively to the previously imposed sentence.
The court advised defendant: “you waived your right to
appeal at the time you entered the plea. If you intend to
challenge that waiver, you would have to do so within 30
days or you lose your right to appeal forever.” Defendant
agreed that she understood. Green, proceeding pro se,
sought and received permission to file a late notice of
appeal. On direct appeal, appellate counsel challenged
the validity of the appeal waiver and raised an excessive
sentence claim based on the consecutive sentences
imposed. The Appellate Division affirmed, declining to
review the sentence claim as precluded by a valid appeal
waiver (160 AD3d 1422, 72 N.Y.S.3d 870 [4th Dept 2018]).
A Judge of this Court granted defendant leave to appeal
(32 N.Y.3d 1004, 86 N.Y.S.3d 762, 111 N.E.3d 1118 [2018]).
People v Lang
Seventeen-year-old defendant Storm Lang was
charged by felony and misdemeanor complaints with
four felony counts of sexual abuse, and two misdemeanor
counts of sexual abuse stemming from his sexual assault
of three children ages five, seven and twelve years old.
Held for the action of the grand jury on six counts as
charged in the complaints by two separate local courts,
Lang agreed to waive prosecution by indictment after the

8a
Appendix A
County Court thoroughly explained his right to have the
crimes presented to a grand jury and the consequences of
waiving prosecution by indictment. After Lang confirmed
that he had reviewed the indictment waiver form, the
court directed him to sign the waiver, which he did in
open court and in the presence of counsel. Accompanying
the indictment waiver form was the SCI, which repeated
the factual allegations of the six counts of sexual abuse
charged in the felony and misdemeanor complaints,
including the place and designated dates of each crime. In
contrast, the waiver of indictment form identified the six
counts of sexual abuse for which prosecution by indictment
was waived, without mentioning any date, approximate
time or place of the offenses as prescribed by CPL 195.10.
The plea bargain offer required Lang to waive his
right to appeal and plead guilty to two felony counts
and one misdemeanor count of sexual abuse in exchange
for a promised sentence cap of four years in prison plus
ten years of PRS. The same judge who took Green’s
plea presided over Lang’s plea proceedings and used
essentially the same appeal waiver description in its oral
colloquy in both cases. Lang signed the identical written
appeal waiver form that Green did, and the court, as with
Green, did not ask Lang if he understood the contents.
Lang acknowledged that his counsel advised him fully
about the consequences of his plea, he had enough time
to discuss the waiver with counsel and he had confidence
in counsel’s ability to represent him on the charges. The
court accepted the plea after defendant admitted his guilt
of the three relevant counts in the SCI.

9a
Appendix A
During the sentencing proceeding, the court announced
that it had “carefully reviewed all the documents that
[had] been submitted, and . . . agree[d] with the probation
department that youthful offender adjudication would be
inappropriate in this case because of the importance of
having sex offender registration of the defendant based
upon his conduct.” The court sentenced Lang to a prison
term of three years, one year less than the promised cap,
and ten years of PRS. Reminding Lang that he waived his
right to appeal, the court advised him that if he intended to
challenge the appeal waiver, he “would have to do so within
30 days.” Lang indicated that he understood. Defendant
timely filed a notice of appeal. On direct appeal, Lang
challenged the validity of the appeal waiver and the court’s
denial of youthful offender status. The Appellate Division
affirmed (165 AD3d 1584, 85 N.Y.S.3d 642 [4th Dept 2018]).
While agreeing with defendant “that the colloquy and
written waiver contain[ed] improperly overbroad language
concerning the rights waived,” the Court concluded that
nonwaivable appellate issues were excluded from the
scope of the waiver and the remainder was valid and
enforceable, foreclosing review of the youthful offender
determination (165 AD3d at 1584). A Judge of this Court
granted defendant leave to appeal (32 N.Y.3d 1174, 97
N.Y.S.3d 583, 121 N.E.3d 210 [2019]).
I.
Observing that “[p]lea bargaining is now established
as a vital part of our criminal justice system,” we held in
People v Seaberg that defendants may validly waive their
right to appeal, provided the “settlement is fair, free from

10a
Appendix A
oppressiveness, and sensitive to the interests of both the
accused and the People” (74 NY2d 1, 7-8, 541 N.E.2d 1022,
543 N.Y.S.2d 968 [1989]). That conclusion was based on
our recognition that “[t]he pleading process necessarily
includes the surrender of many guaranteed rights but
when there is no constitutional or statutory mandate and
no public policy prohibiting [waiver], an accused may waive
any right which he or she enjoys” (74 NY2d at 7; see People
v Moissett, 76 NY2d 909, 910-911, 564 N.E.2d 653, 563
N.Y.S.2d 43 [1990]; cf. Cowles v Brownell, 73 NY2d 382,
538 N.E.2d 325, 540 N.Y.S.2d 973 [1989]). Appeal waivers
have long been lauded as serving the same beneficial public
interests achieved by the plea-bargaining process itself —
providing a prompt conclusion to litigation, avoiding delay
and removing “the inevitable risks and uncertainties”
of criminal trials for both sides (People v Selikoff, 35
NY2d 227, 232, 233, 318 N.E.2d 784, 360 N.Y.S.2d 623
[1974] [quotation marks and citation omitted]; Seaberg,
74 NY2d at 7). Aside from “conserving judicial resources
and providing finality in criminal proceedings” (People v
Tiger, 32 NY3d 91, 101, 85 N.Y.S.3d 397, 110 N.E.3d 509
[2018]), the plea bargaining process affords the accused
the opportunity to obtain a conviction on reduced charges
and more lenient punishment in a truncated process that
“hopefully start[s] the offender on the road to possible
rehabilitation” (Selikoff, 35 NY2d at 233, 234, citing
Santobello v New York, 404 US 257, 261, 92 S. Ct. 495, 30
L. Ed. 2d 427 [1971]). Thus, we have rejected challenges to
appeal waivers on the ground that they are “invalid per se”
because plenary appellate review is necessary to protect
defendants from “misconduct and coercion in the pleading
process and ensure[] fairness in sentencing” — implicating

11a
Appendix A
societal interests that “transcend the individual concerns
of the defendant” (Seaberg, 74 NY2d at 8-9). In rejecting
such categorical condemnation of appeal waivers based
on a purported power imbalance, we reasoned that those
“arguments overlook the role of the trial court and its
obligation to insure the reasonableness of the bargain
struck and of the sentence imposed and the availability
of collateral proceedings to review infirmities in the plea
bargain which may not appear on the record” (74 NY2d at
8 [internal citations omitted]). Contrary to the argument
that “defendants [are] victims of situational coercion,’
compelled to execute waivers as a [plea] condition,” we
concluded that “[n]othing requires a defendant to seek a
plea bargain and there is nothing coercive in leaving with
the defendant the option to accept or reject a bargain if
one is offered” (74 NY2d at 8-9).1
1. In what is a rejection of Seaberg and its progeny — 30 years
of appellate precedent — our colleague reaches the sweeping and
unsubstantiated conclusion that “appeal waivers have . . . corrupted
the integrity” of the plea-bargaining process (Wilson, J., concurring/
dissenting op. at 2). This condemnation of appeal waivers is
predicated on hypothetical constructs, rather than on the facts of
the cases before us. It further evidences a mistrust of all players
in the system, particularly the trial court and its ability to ensure
that an appeal waiver is voluntarily entered. Moreover, it discounts
the importance of defendant’s consultation with competent counsel
in opting for a plea bargain and comprehending the nature of the
appeal waiver (see People v Nixon, 21 NY2d 338, 354, 234 N.E.2d
687, 287 N.Y.S.2d 659 [1967]) — advice typically provided dehors
the record in communications protected by attorney-client privilege.
Nonetheless, this partial concurrence concludes that while a plea
bargain is eminently enforceable because the defendant is aware of
“the precise terms of the offered sentence,” or, in other words, is
given the sentence in a numerical value, the separate appeal waiver

12a
Appendix A
Manifestly, while a defendant always retains the right
to challenge the voluntariness of the plea (see People
v Lopez, 71 NY2d 662, 525 N.E.2d 5, 529 N.Y.S.2d 465
[1988]) and legality of the sentence, “the negotiating
process serves little purpose if the terms of a carefully
orchestrated bargain’” — particularly the sentence
imposed — can subsequently be renegotiated despite a
voluntary appeal waiver (74 NY2d at 10, quoting People
v Prescott, 66 NY2d 216, 220, 486 N.E.2d 813, 495
N.Y.S.2d 955 [1985]). We see no public policy reason to
depart from Seaberg and its progeny today, as carefullyconstructed and counseled appeal waivers — with the
terms memorialized on the record and executed under
the supervision of the trial courts — continue to serve
the same worthy objectives, as they have for the last three
decades.
Turning to the language of the appeal waiver
colloquies at issue, the following principles derived from
our precedent are instructive. First and foremost, a
is not enforceable because no “itemization” of the appellate rights
waived is provided (Wilson, J., concurring/dissenting op. at 3). Suffice
it to say, with respect to defendant’s waiver of constitutional Boykin
rights (see Boykin v Alabama, 395 US 238, 243, 89 S. Ct. 1709, 23
L. Ed. 2d 274 [1969]), it is firmly established that courts need “not
include a specific enumeration of each of the rights being waived”
for a guilty plea to be enforceable (People v Harris, 61 NY2d 9, 18,
459 N.E.2d 170, 471 N.Y.S.2d 61 [1983]). No rationale whatsoever is
provided for holding the enforceability of waivers of the statutory
right to appeal to a standard more stringent than the one that applies
to the complete waiver of constitutional trial rights. And none exists,
as defendant does not waive appellate review of fundamental issues,
such as the voluntariness of the plea and appeal waiver.

13a
Appendix A
waiver of the right to appeal is not an absolute bar to the
taking of a first-tier direct appeal (see Seaberg, 74 NY2d
at 11; People v Callahan, 80 NY2d 273, 280, 604 N.E.2d
108, 590 N.Y.S.2d 46 [1992]; People v Hansen, 95 NY2d
227, 230-231, 738 N.E.2d 773, 715 N.Y.S.2d 369 [2000]).
“[S]everal categories of appellate claims” remain
nonwaivable “because of a larger societal interest in their
correct resolution” (Callahan, 80 NY2d at 280). One such
claim is the voluntariness of the appeal waiver. Appellate
courts have an integral role in reviewing the validity of
appeal waivers, as they are vested with “the responsibility
to oversee the process and to review the record to ensure
that the defendant’s waiver of the right to appeal reflects
a knowing and voluntary choice” (80 NY2d at 280).
Although an appeal waiver entered as part of the
plea-bargaining process does not serve as an absolute
bar to the taking of a first-tier direct appeal, imprecision
persists in trial courts’ descriptions of the waiver of the
right to appeal. Nonetheless, we have never required any
particular litany explaining the finer distinction in appeal
waiver colloquies between the “right to appeal” and the
right to limited appellate review. 2 Indeed, while the phrase
2. The defendant’s conviction upon a guilty plea is predicated
on the plea itself and will effectuate a forfeiture by operation of law
of the appellate review of most antecedent issues raised in the trial
court (see Hansen, 95 NY2d at 231-232). As stated herein, appellate
review is not waivable, despite a guilty plea, for issues involving
jurisdictional matters or “rights of a constitutional dimension that
go to the very heart of the process” (95 NY2d at 231). Apart from
the forfeited rights and the nonwaivable rights are the waivable
rights that are the typical subject of appellate waivers — including
the intermediate appellate court’s review in the interest of justice

14a
Appendix A
“waiver of the right to appeal” is a “useful shorthand”
reference to what is more precisely a narrowing of the
issues for appellate review, the term “can misleadingly
suggest a monolithic end to all appellate rights [when]
[i]n fact . . . no appeal waiver serves as an absolute bar to
all appellate claims” (Garza v Idaho, 586 US __, 139 S Ct
738, 744, 203 L. Ed. 2d 77 [2019]).
Appeal waivers using such shorthand pronouncements
are enforceable so long as the totality of the circumstances
reveals that the defendant understood the nature of the
appellate rights being waived. Historically, imprecise and
overbroad language in appeal waivers did not prevent
their enforcement, so long as “all the relevant facts
and circumstances surrounding the waiver, including
the nature and terms of the agreement and the age,
experience and background of the accused” revealed that
the waivers were knowingly, intelligently and voluntarily
entered (Seaberg, 74 NY2d at 11; see also Callahan, 80
NY2d at 280). In People v Sanders, we clarified that
“this Court has not . . . set forth the absolute minimum
that must be conveyed to a pleading defendant in the
plea colloquy in order for the right to appeal to be validly
waived” (25 NY3d 337, 341, 12 N.Y.S.3d 593, 34 N.E.3d
344 [2015]). Rather, in determining whether the record
of the severity of the sentence imposed and/or the CPL 710.70 right
to appellate review of an adversely decided suppression motion. Of
note, that some legal issues survive a guilty plea does not mean there
is an inexorable appellate review, as any appellate review demands
the existence of an actual issue extant on a sufficient factual record
in the defendant’s individual case to review (see People v Kinchen,
60 NY2d 772, 457 N.E.2d 786, 469 N.Y.S.2d 680 [1983]).

15a
Appendix A
demonstrates that a defendant understood an appeal
waiver’s consequences, proper considerations include the
defendant’s consultation with counsel and on-the-record
acknowledgments of understanding, a written appeal
waiver that supplements or clarifies the court’s oral advice
and the defendant’s experience with the criminal justice
system (see 25 NY3d at 341-342; People v Bradshaw, 18
NY3d 257, 267, 961 N.E.2d 645, 938 N.Y.S.2d 254 [2011];
People v Ramos, 7 NY3d 737, 738, 853 N.E.2d 222, 819
N.Y.S.2d 853 [2006]; People v Lopez, 6 NY3d 248, 256, 844
N.E.2d 1145, 811 N.Y.S.2d 623 [2006]). The role played by
counsel in ensuring a defendant’s knowing and voluntary
waiver is an important component of that analysis that
cannot be ignored (see 22 NYCRR 606.5 [1st Dept]; 22
NYCRR 671.3 [2d Dept]; 22 NYCRR 821.2 [3d Dept]; 22
NYCRR 1015.7 [4th Dept]; Moissett, 76 NY2d at 911). In
the absence of any record support, we do not presume
that counsel was somehow incompetent and failed to
provide effective assistance during the plea negotiations as
demanded by the Sixth Amendment (see Lafler v Cooper,
566 US 156, 132 S. Ct. 1376, 182 L. Ed. 2d 398 [2012];
McMann v Richardson, 397 US 759, 90 S. Ct. 1441, 25 L.
Ed. 2d 763 [1970]). And, of paramount importance is the
trial court’s responsibility to ensure that each defendant’s
“full appreciation of the consequences” and understanding
of the terms and conditions of the plea and appeal waiver
are “apparent on the face of the record” (Seaberg, 74 NY2d
at 11; Callahan, 80 NY2d at 280).
In our earlier cases, when the litigation was focused on
whether appeal waivers were enforceable as components
of the plea-bargaining process — and not on the precise

16a
Appendix A
language of the courts’ colloquies — we upheld appeal
waivers where no court colloquy with the defendant
occurred on the subject, relying on the record as a whole,
particularly defense counsel’s affirmative conduct in
securing the desired sentence sought to be reviewed on
appeal (see e.g. Seaberg, 74 NY2d 1, 541 N.E.2d 1022, 543
N.Y.S.2d 968), or where waivers were elicited through
court colloquies suggesting an absolute bar to review,
even though we acknowledged that the defendant retained
the right to review certain fundamental issues despite
the waiver (see e.g. Callahan, 80 NY2d at 278, 280 [court
advised defendant that, “by pleading guilty he was waiving
his right to appeal”]). Relevant to the issues before us, our
precedent has made clear from the outset that the scope
of the appeal waiver contemplated by this process related
only to a defendant’s statutory “right to an initial appeal”
(Seaberg, 74 NY2d at 7, citing CPL 450.10), 3 and that a
3. Our colleague’s suggestion that courts should advise
defendants that their “appeal waivers will impact their collateral
remedies” (Garcia, J. concurring/dissenting op. at 14 [emphasis
added]) is incorrect. Rather, it is a voluntary “guilty plea entered
in proceedings where the record demonstrates the conviction was
constitutionally obtained” that forecloses collateral attacks to
the conviction, as a defendant “relinquishes any claim that would
contradict the admissions necessarily made upon entry of a voluntary
plea of guilty” (People v Tiger, 32 NY3d 91, 101, 102, 85 N.Y.S.3d 397,
110 N.E.3d 509, quoting Class v United States, US __, 138 S Ct 798,
805, 200 L. Ed. 2d 37 [2018] [internal quotation marks and citation
omitted]). A waiver of the right to appeal is not needed to address the
rights forfeited by law by the guilty plea itself, and that waiver cannot
be used to foreclose appellate review of nonwaivable issues that exist
on the record in any particular case (see Callahan, 80 NY2d at 280;
People v Lopez, 71 NY2d 662, 525 N.E.2d 5, 529 N.Y.S.2d 465 [1988]).
As we noted herein, an appeal waiver only covers the narrow class of

17a
Appendix A
reasonable interpretation of broad waivers still permits
the conclusion that the counseled defendant understood
the distinction that some appellate review survived
(Callahan, 80 NY2d at 280-281).
By 2006, in the companion cases of People v Lopez,
People v Billingslea and People v Nicholson (6 N.Y.3d 248,
256-257, 844 N.E.2d 1145, 811 N.Y.S.2d 623), the litigation
required our focus to shift from the enforceability of broad
appeal waivers to the precise language of the colloquies
used by the courts in eliciting waivers, causing us to
caution that the rights surrendered by appeal waivers
were too important to be handled in a “perfunctory
step.” In Lopez, we set forth as a standard procedure for
the court’s appeal waiver colloquy — used in all three
colloquies before us — an explanation by the court that
the waiver of the right to appeal is “separate and distinct”
from the so-called Boykin constitutional rights waived
by the defendant in the guilty plea allocution (6 NY3d at
256).4 In Nicholson, we upheld the waiver following the
issues which, if not waived, can be reviewed on direct appeal despite
the guilty plea. In stark contrast, CPL 440.10 relief, which codified
the writ of error coram nobis, cannot be used as a substitute for a
direct appeal (see People v Howard, 12 NY2d 65, 66-67, 187 N.E.2d
113, 236 N.Y.S.2d 39 [1962]). Instead, it is designed as a remedy
against injustice when no other avenue of judicial relief is available for
certain nonwaivable rights impacted by fundamental errors dehors
the record (see People v Cuadrado, 9 NY3d 362, 365, 880 N.E.2d
861, 850 N.Y.S.2d 375 [2007]). As we are addressing guilty pleas,
references in Judge Garcia’s partial concurrence to subdivisions in
440.10 relating to trial errors is irrelevant to our discussion.

4. Judge Wilson concludes that the required separation
between the court’s allocution for the waiver of Boykin rights and

18a
Appendix A
court’s additional shorthand advisement that the appeal
waiver meant “to take to a higher court than this one
any of the legal issues connected with this case,” based
on our review of the totality of the circumstances, which
included the court’s correct application of that “separate
and distinct” language and defendant’s multiple on-therecord acknowledgments of understanding (6 NY3d at 254,
256; see also Sanders, 25 NY3d at 341-342). A few months
later in People v Ramos (7 NY3d 737, 853 N.E.2d 222, 819
N.Y.S.2d 853), we upheld an appeal waiver that followed
the court’s imprecise explanation that “by entering this
plea of guilty you’re giving up any and all rights to appeal
this conviction and sentence; in other words, this is now
final” (Bradshaw, 18 NY3d at 266 [quoting colloquy from
Ramos]). We excused the “ambiguity” in that colloquy
under the circumstances, which included a written waiver
form evidencing that the defendant was advised of the
appellate process and the waiver by defense counsel
and defendant’s on-the-record acknowledgement that
he understood the rights he was waiving — all of which
together sufficiently established a knowing and voluntary
waiver (7 NY3d at 738).

the allocution for the appeal waiver means that the appeal waiver
is not one of the conditions of the plea bargain offer and, therefore,
if a defendant pleads guilty in exchange for a specific sentence, the
defendant has received no consideration for the appeal waiver (see
concurring/dissenting op. at 9-10). This interpretation is not correct
and eschews the mutually beneficial purpose of the plea bargain
offer — to provide a favorable sentence in exchange for an end to
litigation, including a review of the suppression order.

19a
Appendix A
Importantly, we have drawn the line and held appeal
waivers unenforceable where the court’s advisement as to
the rights relinquished was incorrect and irredeemable
under the circumstances. Thus, we invalidated the
defendant’s appeal waiver in People v Billingslea, based
upon the court’s conflated advisement that “ when you
plead guilty you waive your right of appeal,’” where the
court’s inquiry was limited to one question — whether
defendant understood the consequences of the plea —
and the defendant’s one-word answer that she did (6
NY3d at 257). Our disapproval hinged on the court’s
“misleading” language, confusing the discrete concepts
of the forfeiture of a right by operation of law and the
defendant’s intentional relinquishment of a right by a
voluntary waiver (6 NY3d at 257). We concluded that
“[w]hen a trial court characterizes an appeal as one of
the many rights automatically extinguished upon entry
of a guilty plea, a reviewing court cannot be certain that
the defendant comprehended the nature of the waiver of
appellate rights” (6 NY3d at 256). We also invalidated the
appeal waiver in People v Bradshaw, where the court’s
colloquy was “terse” — advising the defendant that an
appeal waiver “means[] the conviction here is final, that
there is not a higher court you can take [the case] to” —
since the record did not contain any assurances that the
defendant, who had a significant mental health history,
understood the shorthand reference to the distinct
appellate rights he was surrendering and, beyond asking
whether it had been signed, the court made no inquiry
of the defendant’s understanding of the contents of the
written appeal waiver form (18 NY3d at 261, 273).

20a
Appendix A
Our requisite analysis for determining the validity of
the waiver remains focused on whether all the relevant
circumstances reveal a knowing and voluntary waiver
(see Seaberg, 74 NY2d at 11; Sanders, 25 NY3d at 341342). As we underscored in Bradshaw, the court’s oral
colloquy with defendant, including the elicitation of an
oral acknowledgment that defendant was “forgoing
his right to appeal,” can cure incorrect language in
the written waiver form (18 NY3d at 267). 5 Of course,
“[w]e expect judges to express the consequences of
a guilty plea clearly to the defendant during the plea
hearing. But in cases too numerous to list dating from at
least 1967, we have repeatedly steered clear of a uniform
mandatory catechism . . . in favor of broad discretions
controlled by flexible standards . . .” (People v Alexander,
19 NY3d 203, 219, 970 N.E.2d 409, 947 N.Y.S.2d 386 [2012]
[internal quotation marks and citation omitted]). We have
emphasized that “it should not matter that the trial judge
failed to choose what we might in hindsight consider to be
more felicitous words or turns of phrase when addressing
[a] defendant” so long as the meaning was “plain enough”
(19 NY3d at 219).

5. That said, our appellate waiver precedent also establishes
that, “[e]ven if there [is] any ambiguity in the sentencing court’s
colloquy, . . . a detailed written waiver, . . . stat[ing] that defendant
had the right to appeal, explain[ing] the appellate process and
confirm[ing] that defense counsel fully advised [defendant] of the
right to take an appeal under the laws of the State of New York”
can “establish[] that [a] defendant knowingly, intelligently and
voluntarily waived [the] right to appeal” (Ramos, 7 NY3d at 738).

21a
Appendix A
II.
Viewed against that backdrop, we conclude that the
appeal waiver in Thomas was knowingly and voluntarily
entered. We reach the opposite conclusion in Green and
Lang.
Defendant Thomas argues that insertion of “nonotice-of-appeal” language in the written waiver form
“voids the entire appeal waiver process.” While that
particular language — suggesting that the waiver may be
an absolute bar to the taking of an appeal — was incorrect,
it was coupled with clarifying language in the same form
that appellate review remained available for certain
issues, most importantly, the validity of the appeal waiver
itself, and indicating, therefore, that the right to take an
appeal was retained. The court’s oral colloquy, specifically
its inquiry of Thomas and resulting assurances that he had
ample opportunity to discuss with counsel the meaning
of the waiver and appellate rights he was surrendering,
was sufficient to support a knowing and voluntary waiver
under the totality of the circumstances.
Somewhat inconsistently, Thomas alternatively claims
that the court’s statement during the oral colloquy that he
was waiving his right to challenge the “plea proceedings”
and “sentence” was a “restricted” appeal waiver rather
than a broad, “comprehensive” appeal waiver and
therefore did not cover the CPL 710.70 right to review a
suppression ruling. We disagree. In People v Kemp (94
NY2d 831, 833, 724 N.E.2d 754, 703 N.Y.S.2d 59 [1999]),
we held that the defendant’s waiver of the right to appeal,

22a
Appendix A
entered one day after denial of his suppression motion,
was “knowingly, voluntarily and intelligently made, with
the advice of counsel,” and was “comprehensive[],” as
it “was manifestly intended to cover all aspects of the
case.” Similarly, Thomas, fully counseled, voluntarily
pled guilty one day after denial of his suppression motion,
to take advantage of a soon-to-expire pretrial reduced
plea bargain offer — the same one offered before the
suppression hearing was held. The court’s statement
that he would be waiving his right to challenge on appeal
what was taking place at the plea proceedings — clearly
referencing his conviction — was sufficient to indicate the
waiver was intended “to cover all aspects of the case” (94
NY2d at 833).
In this regard, the waiver of appellate review of the
suppression order was the quid pro quo to the reduced
plea bargain, which was designed to end the litigation
for all parties. Far from evidencing a coercive deal that
did not involve “mutual concessions,” as the partial
concurrence posits (Wilson, J., concurring/dissenting
op. at 9), the record instead supports the conclusion that
this fully counselled predicate felon — whose crime
was captured on video surveillance — received a highly
beneficial bargain of the legal minimum term of five years’
incarceration for the reduced crime, while avoiding the
risk of the maximum of twenty-five years on the higher
crimes charged, if convicted after trial. Defendant does
not have the right to subsequently eviscerate the favorable
plea bargain he knowingly and voluntarily accepted.
Long before Seaberg, we held the voluntary waiver of
the CPL 710.70 right to appellate review of a suppression

23a
Appendix A
ruling can be a condition of the plea bargain (see People
v Williams, 36 NY2d 829, 830, 331 N.E.2d 684, 370
N.Y.S.2d 904 [1975]). Since harmless error analysis is
generally not available on an appeal following a guilty
plea, the waiver of appellate review of the suppression
decision serves to avoid unnecessary litigation for errors
that would not have affected the outcome of a trial (see
People v Grant, 45 NY2d 366, 378, 380 N.E.2d 257, 408
N.Y.S.2d 429 [1978]). Given the evidence here, counsel’s
advice to defendant in this regard in favor of the plea offer
would be eminently reasonable. On this record, Thomas’
appeal waiver was knowingly and voluntarily entered and
sufficiently comprehensive to cover an appellate challenge
to the suppression ruling — without any need for express
mention of it during the waiver colloquy — squarely under
our holding in Kemp.
III.
A similar conclusion does not follow in Green and Lang.
The trial court’s mischaracterization of appellate rights
waived as encompassing not only an absolute bar to the
taking of a direct appeal and the loss of attendant rights to
counsel and poor person relief, but also all postconviction
relief separate from the direct appeal,6 is even more serious
than the conflated language in Billingslea. We reiterate
6. Contrary to the conclusion of our colleague that no such
argument about postconviction relief was ever “argued” by the
parties (Garcia, J., concurring/dissenting op. at 11), in his sealed
brief to this Court, defendant Lang specifically challenged the plea
court’s advisements in both the oral colloquy and the written waiver
regarding the restriction of his rights to seek collateral relief.

24a
Appendix A
that, when a trial court has utterly “mischaracterized the
nature of the right a defendant was being asked to cede,”
an appellate “court cannot be certain that the defendant
comprehended the nature of the waiver of appellate rights”
(6 NY3d at 256-257). As in Billingslea, it is similarly
impossible to tell, on these records, whether the waivers
entered by defendants Green and Lang were knowing and
voluntary. The waivers cannot be upheld in these cases
on the theory that the offending language can be ignored
and that defendants’ waivers were enforceable based on
the court’s few correctly spoken terms. That position
ignores the muddled nature of the court’s advisements,
making it impossible for reviewing courts to discern
whether the defendants understood the import of the
court’s confused message about the important rights being
waived, much less to expect the defendants themselves
to grasp the nature of the rights they are surrendering.
Nor were there “detailed written waiver[s]” in these cases
that correctly explained the appellate process and were
adequate to cure the “ambiguit[ies] in the . . . court’s
colloquy” (Ramos, 7 NY3d at 738); rather, the written
waivers at issue repeated many of the errors in County
Court’s colloquies and, in any event, the court failed to
confirm that Green and Lang understood the contents
of the written waivers. The improper description of the
scope of the appellate rights relinquished by the waiver
is refuted by our precedent, whereby a defendant retains
the right to appellate review of very selective fundamental
issues, including the voluntariness of the plea and appeal
waiver, legality of the sentence and the jurisdiction of the
court (see generally Seaberg, 74 NY2d 1, 541 N.E.2d 1022,
543 N.Y.S.2d 968; Sanders, 25 NY3d 337, 12 N.Y.S.3d

25a
Appendix A
593, 34 N.E.3d 344). Thus, we cannot conclude that the
appeal waivers on the records in Green and Lang were
knowingly or voluntarily made in the face of erroneous
advisements warning of absolute bars to the pursuit of all
potential remedies, including those affording collateral
relief on certain nonwaivable issues in both state and
federal courts (see CPL 440.10 [1] [a], [b], [e]; 440.20;
Parisi v United States, 529 F3d 134, 139 [2d Cir 2008],
cert denied 555 U.S. 1197, 129 S. Ct. 1376, 173 L. Ed. 2d
632 [2009]). Accordingly, reversal is warranted in Green
and Lang and, in both cases, we remit for a determination
of all issues raised but not determined below.
We further take this opportunity to note that the
employment of imprecise appeal waiver colloquies has
been criticized as encouraging a pathway to increased
appellate litigation over the validity of the waivers. That
pathway was always extant, since appellate review as to
the validity of the waiver has always been and remains a
necessary component of the process (see Seaberg, 74 NY2d
1, 541 N.E.2d 1022, 543 N.Y.S.2d 968; Callahan, 80 NY2d
273, 604 N.E.2d 108, 590 N.Y.S.2d 46). Appellate review
of the voluntariness of an appeal waiver is not onerous.
Greater precision in the courts’ oral colloquies will provide
more clarity on the record as to the issue of voluntariness.
To be sure, the Model Colloquy for the waiver of right to
appeal drafted by the Unified Court System’s Criminal
Jury Instructions and Model Colloquy Committee neatly
synthesizes our precedent and the governing principles
and provides a solid reference for a better practice. The
Model Colloquy provides a concise statement conveying
the distinction missing in most shorthand colloquies —
that:

26a
Appendix A
“[b]y waiving your right to appeal, you do not
give up your right to take an appeal by filing
a notice of appeal . . . within 30 days of the
sentence. But, if you take an appeal, you are
by this waiver giving up the right to have the
appellate court consider most claims of error,[]
and whether the sentence I impose, whatever it
may be, is excessive and should be modified. As
a result, the conviction by this plea and sentence
will normally be final”
(NY Model Colloquies, Waiver of Right to Appeal
[emphasis added]). There is no mention made of an
absolute bar to the taking of an appeal or any purported
waiver of collateral or federal relief in the Model Colloquy
or to the complete loss of the right to counsel to prosecute
the direct appeal.7
7. The Model Colloquy also defines an appeal and the attending
rights. “An appeal is a proceeding before a higher court, an appellate
court. If a defendant cannot afford the costs of an appeal or of a
lawyer, the state will bear those costs. On an appeal, a defendant may,
normally through his/her lawyer, argue that an error took place in
this court which requires a modification or reversal of the conviction.
A reversal would require either new proceedings in this court or a
dismissal” and provides that the court should instruct the defendant
that, “as a condition of the plea agreement, [the defendant is being]
asked to waive [the] right to appeal” (NY Model Colloquies, Waiver
of Right to Appeal). This explanation of the appellate process is
consistent with that endorsed by this Court in Ramos (7 NY3d at 738;
see Bradshaw, 18 NY3d at 270 [Read, J., dissenting] [setting forth
the language of the written upheld in Ramos]). Our discussion here
of colloquies that mischaracterize the nature of the appeal waiver
should not be interpreted as calling into question this portion of the
Model Colloquy or signaling a retreat from Ramos.

27a
Appendix A
IV.
In addition to his challenge to the appeal waiver,
defendant Lang also claims that his written waiver
of indictment was jurisdictionally defective because,
notwithstanding its substantial compliance with CPL
195.20 as to content, it did not state the date, approximate
time and place of the specific offenses for which he was held
for the action of the grand jury, in violation of that statute.
Although he raises this issue for the first time before this
Court, he claims the argument is reviewable because this
statutory violation is either a mode of proceedings error or
is jurisdictional in nature and not forfeited by the guilty
plea. Neither argument has merit.
First, Lang has failed to identify any “mode of
proceedings” error. The indictment waiver form was
executed in full accord with the procedural requirements of
article 1, § 6 of our State Constitution, as it was “evidenced
by written instrument [and] signed by the defendant in
open court in the presence of . . . counsel.” The waiver also
strictly complied with the procedures set forth in CPL
195.10, the statute that implements those constitutional
requirements, which specifies that a defendant may waive
indictment and consent to be prosecuted by SCI when
a local court has held the defendant for the action of a
grand jury, the defendant is not charged with a class A
felony, and the district attorney consents to the waiver.
Pursuant to CPL 195.10 (2) (b), the waiver of indictment
was exercised prior to the filing of an indictment by the
grand jury. Finally, the six counts of sexual abuse charged
in the SCI were the same crimes for which defendant was

28a
Appendix A
held for the action of the grand jury (see People v Milton,
21 NY3d 133, 135-136, 989 N.E.2d 962, 967 N.Y.S.2d 680
[2013]), and the waiver form duly noticed those specific
crimes in conformity with both constitutional and CPL
195.20 mandates. Accordingly, there is no merit to his
claim that any fundamental mode of proceedings error
occurred.
Notw ithstanding the specificity of the factual
allegations of the crimes charged in all the accusatory
instruments in the case, Lang attempts to equate the
omission of the date, approximate time and place in the
waiver form with a “[f]ailure to adhere to the statutory
procedure for waiving indictment,” arguing it is a
“jurisdictional” defect under People v Boston (75 NY2d
585, 589, 554 N.E.2d 64, 555 N.Y.S.2d 27 n * [1990]).
Reliance on Boston to elevate this technical challenge
to a jurisdictional claim is misplaced. Boston involved
a waiver of prosecution by indictment exercised after
the indictment was obtained — a violation of the critical
timing of the waiver process mandated by both the
constitution and CPL 195.10 (see 75 NY2d at 588). No such
jurisdictional infirmity existed here.
In contrast, “[a] purported error or insufficiency in
the facts of an indictment or information to which a plea
is taken does not constitute a nonwaivable jurisdictional
defect and must be raised in the trial court” (Milton, 21
NY3d at 138 n *, citing People v Iannone, 45 NY2d 589,
600, 384 N.E.2d 656, 412 N.Y.S.2d 110 [1978]; see also
People v D’Angelo, 98 NY2d 733, 735, 780 N.E.2d 496,
750 N.Y.S.2d 811 [2002] [absent timely motion to dismiss,

29a
Appendix A
the Court has “no occasion to consider whether statutory
mandates beyond the jurisdictional minimum required the
indictment to recite” additional allegations]). By parity of
reasoning, the omission from the indictment waiver form of
non-elemental factual information that is not necessary for
a jurisdictionally-sound indictment is similarly forfeited
by a guilty plea. As relevant here, the legislative history
accompanying enactment of CPL article 195 makes plain
that the purpose of the written waiver of indictment
form is to ensure the defendant had notice of the charges
upon which the prosecution by SCI would proceed (see
Bill Jacket, L 1974, ch 467, Mem of Staff Attorney of
Law Rev Commn at 2; Governor’s Program Bill Mem at
2; People v Myers, 32 NY3d 18, 23, 84 N.Y.S.3d 406, 109
N.E.3d 555 [2018]). Executed solemnly in open court, the
waiver form must memorialize with sufficient specificity
the charges for which a defendant waives prosecution by
indictment. Here, the statutory notice was accomplished
as the six counts of sexual abuse designated in the waiver
form were identical to the crimes for which Lang was held
for grand jury action and originally charged in the local
court accusatory instruments.
Despite the factual omissions of date, approximate
time and place of the specific offenses in his written waiver
of indictment, Lang lodges no claim that he lacked notice
of the precise crimes for which he waived prosecution by
indictment. Nor could he, since the dates and places of the
offenses were sufficiently detailed in each of the actual
accusatory instruments — the three local court complaints
and the SCI — charging this defendant. As a matter of
statutory mandate, upon defendant’s arraignment in each

30a
Appendix A
local court, the court was required to furnish defendant
with a copy of the accusatory instruments and thereafter
provide defendant notice of the crimes for which he would
be held for the action of the grand jury (CPL 170.10; CPL
180.10). During the indictment waiver proceeding, the
People provided defendant with an advance copy of the
SCI, which was contemporaneously filed with the waiver of
indictment form. Determinatively, the indictment waiver
form identified all six counts of sexual abuse as alleged
in the local court accusatory instruments — specifically,
three counts of sexual abuse in the first degree and two
counts of sexual abuse in the second degree for which
he was held for the action of the grand jury by Town of
Alabama Justice Court and one count of sexual abuse in
the first degree for which he was held for the action of the
grand jury by Town of Bethany Court. The written waiver
form further acknowledged that “[t]he [SCI] to be filed
. . . will charge the offense(s) named in this written waiver”
— clearly incorporating by reference the six counts of
sexual abuse specifically alleged in the accompanying SCI.
In assessing the facial sufficiency of facts alleged as
to non-elements of the crime in an accusatory instrument,
the fundamental concern is whether the defendant had
reasonable notice of the charges for double jeopardy
purposes and to prepare a defense. In child sexual assault
cases, we have upheld indictments alleging an approximate
time span of a period of months as sufficiently stated time
intervals to comply with due process notice requirements
(see e.g. People v Watt, 81 NY2d 772, 774, 609 N.E.2d 135,
593 N.Y.S.2d 782 [1993]). Accepting defendant’s argument
that there must be strict compliance with the CPL 195.20

31a
Appendix A
time requirement in written waiver of indictment form
would eliminate prosecution by SCIs involving most child
sexual assaults, where a time of offense often cannot be
specified — an absurd result. Moreover, all defendants
can seek a bill of particulars as the remedy to obtain the
more specific information necessary for notice purposes
(see People v Morris, 61 NY2d 290, 293, 461 N.E.2d 1256,
473 N.Y.S.2d 769 [1984]), although the information Lang
demands belatedly on this appeal, again, was contained
in the accusatory instruments he undeniably received.
In sum, Lang received sufficient notice of the offenses
for which he waived prosecution by indictment in the
indictment waiver form, and having pled guilty without
raising any legal challenge to the contents of that form
in the trial court, there is no further issue to review on
this appeal.
Accordingly, in People v Thomas, the order of the
Appellate Division should be affirmed, and in People v
Green and People v Lang, the orders of the Appellate
Division should be reversed and the matters remitted to
that Court for further proceedings in accordance with
this opinion.

32a
Appendix A
RIVERA, J. (concurring in result in People v Thomas,
People v Green, and People v Lang):
I agree with Judge Wilson’s thoroughly compelling
discussion of appellate waivers and his conclusion that
they “have proved unworkable, they have created more
questions than they resolve, and when viewed from the
‘cold light of logic and experience,’ they do not serve the
ends of justice” (Wilson, J., concurring/dissenting op at
17). A defendant who pleads guilty should be able to pursue
an intermediate appeal as of right (see CPL 450.10; accord
People v Ventura, 17 NY3d 675, 679, 958 N.E.2d 884, 934
N.Y.S.2d 756 [2011] [“Pursuant to CPL 450.10, which
codifies a criminal defendant’s common-law right to appeal
to an intermediate appellate court, (a defendant has) an
absolute right to seek appellate review of (the defendant’s)
conviction( )”]). Thus, for the reasons discussed in Judge
Wilson’s analysis, with which I fully concur, the appeal
waivers in the three appeals before us are invalid.
Turning to the remaining matters, and proper
disposition of these respective appeals, in People v
Thomas, I concur in the result because although the
waiver is ineffective, defendant’s sole ground for reversal
presents a mixed question of law and fact, and the decision
to deny suppression has record support (see People v
Wheeler, 2 NY3d 370, 373, 811 N.E.2d 531, 779 N.Y.S.2d
164 [2004]; People v Mayorga, 64 NY2d 864, 865, 476
N.E.2d 993, 487 N.Y.S.2d 548 [1985]). In People v Green,
because the waiver is not valid, the order of the Appellate
Division should be reversed and the matter remitted to
that Court for further proceedings.

33a
Appendix A
In People v Lang, I concur in the result, but not on
the basis of the majority’s sweeping rule that a waiver of
prosecution by indictment is valid, so long as the missing
information is set forth in the local court accusatory
instruments, even if the waiver lacks the details required
under CPL 195.20. That rule ignores the text and purpose
of the CPL requirements.
Under our State Constitution, a defendant may waive,
in writing and in open court, an indictment by grand jury
and declare the defendant’s consent to be prosecuted by an
information filed by the district attorney (NY Const, art
I, § 6). The CPL codifies this requirement and establishes
the procedure to effectuate the waiver. Section 195.10 (2)
(b) of the CPL provides, in relevant part, that a defendant
may waive indictment “at any time prior to the filing of
an indictment by the grand jury.” CPL 195.20 requires
that a waiver of indictment shall contain “the name of the
court in which it is executed, the title of the action, and
the name, date and approximate time and place of each
offense to be charged.” We have explained that CPL 195.20
“reiterates the constitutional requirements and specifies
additional items the written waiver must include” (People
v Myers, 32 NY3d 18, 22, 84 N.Y.S.3d 406, 109 N.E.3d
555 n 2 [2018]), and that a waiver of indictment is only
effective if it is “within the express authorization of the
governing constitutional and statutory exception” (id.,
quoting People v Trueluck, 88 NY2d 546, 549, 670 N.E.2d
977, 647 N.Y.S.2d 476 [1996]). “Failure to adhere to the
statutory procedure for waiving indictment which resulted
in [defendant’s] plea[] may be considered jurisdictional”
(People v Boston, 75 NY2d 585, 589, 554 N.E.2d 64, 555
N.Y.S.2d 27 n * [1990]).

34a
Appendix A
The purpose of the CPL requirement that a defendant
sign, in open court, a waiver of indictment by grand
jury—detailing, among other things, each offense to
be charged by superior court information (SCI)—is
twofold: it (1) provides a defendant with notice of the
right to presentment of the charged crimes for grand
jury consideration, and (2) impresses upon them the
solemnity of the right and the consequences of the waiver.
Substantial compliance with “the additional items the
written waiver must include” furthers these dual goals
and satisfies the constitutional and statutory mandates.
Unlike the majority, I interpret the CPL to require
that the substance of those additional items be contained
in the waiver form or, if filed along with the form, the SCI.
Those are the only two documents expressly identified
in our state constitution and the CPL as necessary
prerequisites to a lawful waiver of indictment, and so in
determining the validity of the waiver, we may consider
the contents of the SCI when jointly filed. In appropriate
cases, this ensures the defendant understands that by
pleading guilty they would give up the right to have the
grand jury “assess[] the sufficiency of the prosecutor’s
case” (People v Pelchat, 62 NY2d 97, 104, 464 N.E.2d
447, 476 N.Y.S.2d 79 [1984]), meaning they would forgo
this safeguard against “potentially oppressive excesses
by the agents of the government in the exercise of the
prosecutorial authority vested in the State” (People v
Iannone, 45 NY2d 589, 594, 384 N.E.2d 656, 412 N.Y.S.2d
110 [1978]) because they would consent to prosecution for
the crimes charged in the SCI filed by the district attorney
(CPL 195.20 [b]).

35a
Appendix A
Here, the SCI—the instrument by which defendant
agreed to be prosecuted for the offenses described
therein—was presented to defendant in advance of the
oral waiver and attached to and filed simultaneously with
the waiver form. It contained all details required by CPL
195.20 otherwise missing from the form, except for the
approximate time of the alleged offenses. Significantly,
CPL 195.20 requires only an approximation of the time
of each offense and, as the majority correctly notes, the
Court has upheld indictments in child sexual assault cases
spanning months (majority op at 26). Thus, in defendant’s
case, the dates of the alleged child sexual abuse offenses
set forth in the SCI cabined the time period, and the
waiver form and SCI considered together amount to
substantial compliance with the statutory requirement.
Moreover, on the same day the waiver and the SCI were
filed, the court thoroughly reviewed with defendant the
right to grand jury presentment prior to his signing the
waiver form in open court. Under these circumstances,
defendant has failed to establish a defect warranting
rejection of his waiver of indictment.

36a
Appendix A
GARCIA, J. (concurring in result in People v Thomas and
dissenting in People v Green and People v Lang):
A waiver of the right to appeal will be upheld where the
record demonstrates that it was knowingly, intelligently,
and voluntarily made (People v Seaberg, 74 NY2d 1, 11,
541 N.E.2d 1022, 543 N.Y.S.2d 968 [1989]). That sensible
standard has been settled for more than three decades, and
repeatedly reaffirmed by this Court. It has been employed
to evaluate countless appeal waivers, and consistently
relied on by our State’s lower courts—who bear the
heaviest burden as the final arbiters in the overwhelming
majority of waiver cases. Time and time again, we have
assured trial courts that there is no mandatory litany that
must be used to secure a valid appeal waiver; so long as it
is knowing, intelligent, and voluntary, the waiver will be
upheld (see People v Sanders, 25 NY3d 337, 12 N.Y.S.3d
593, 34 N.E.3d 344 [2015]; People v Lopez, 6 NY3d 248, 844
N.E.2d 1145, 811 N.Y.S.2d 623 [2006]; People v Lococo, 92
NY2d 825, 699 N.E.2d 416, 677 N.Y.S.2d 57 [1998]; People
v Hidalgo, 91 NY2d 733, 698 N.E.2d 46, 675 N.Y.S.2d 327
[1998]; People v Seaberg, 74 NY2d 1, 541 N.E.2d 1022, 543
N.Y.S.2d 968 [1989]).
The majority accurately articulates that standard—
then promptly abandons it. Instead, applying an alternative
approach, the majority examines whether the trial court’s
description of the waiver was “improper” or somehow
“irredeemable under the circumstances” (majority op at
16, 21). Preoccupied with punishing the trial court, the
majority discards voluntariness as the touchstone of the
appeal waiver inquiry. In doing so, the majority loses sight

37a
Appendix A
of the determinative factor in our analysis: In all three
cases, defendants knowingly, intelligently, and voluntarily
waived the right to appeal in exchange for generous plea
deals. Defendants should be held to their bargains.
I.
In People v Seaberg, this Court held for the first time
that “criminal defendants may waive their rights to appeal
as part of a negotiated sentence or plea bargain” (74
NY2d at 5). To be enforceable, we said, the waiver must
be “voluntary” as well as “knowing and intelligent” (id.
at 11). In other words, the reviewing court’s focus should
remain on whether the defendant “knew and understood
the terms” of the waiver and whether, so equipped, “he
willingly accepted them” (id. at 12). Even an imperfect
waiver, then, will remain valid so long as “there is ample
evidence in the record” that the defendant “agreed to the
bargain and did so voluntarily with a full appreciation of
the consequences” (id. at 11).
In the thirty years since Seaberg, we have consistently
emphasized that trial courts need not engage in any
particular litany in order to obtain a valid waiver of
appellate rights (see People v Johnson, 14 NY3d 483, 486,
929 N.E.2d 361, 903 N.Y.S.2d 299 [2010]; People v Lopez, 6
NY3d 248, 256, 844 N.E.2d 1145, 811 N.Y.S.2d 623 [2006];
People v Callahan, 80 NY2d 273, 283, 604 N.E.2d 108,
590 N.Y.S.2d 46 [1992]; People v Moissett, 76 NY2d 909,
910-911, 564 N.E.2d 653, 563 N.Y.S.2d 43 [1990]; People v
Nixon, 21 NY2d 338, 353-354, 234 N.E.2d 687, 287 N.Y.S.2d
659 [1967]). Despite calls for a compulsory colloquy, we

38a
Appendix A
have repeatedly rejected mandatory catechisms in favor of
broader trial court discretion (People v Sanders, 25 NY3d
337, 341, 12 N.Y.S.3d 593, 34 N.E.3d 344 [2015]). “[S]ound
discretion exercised in cases on an individual basis,” we
have reasoned, is preferable to a “uniform procedure” that
would inevitably “become a purely ritualistic device” (id.,
quoting People v Nixon, 21 NY2d 338, 355, 234 N.E.2d
687, 287 N.Y.S.2d 659 [1967]). With the benefit of a faceto-face encounter, the trial court is “in the best position”
to evaluate the voluntariness of each defendant’s waiver
(Callahan, 80 NY2d at 280). Applying that approach, we
have upheld appeal waivers of all shapes and sizes.
We have, for instance, “upheld appeal waivers where
no court colloquy with the defendant occurred” (majority
op at 13, citing People v Seaberg, 74 N.Y.2d 1, 541 N.E.2d
1022, 543 N.Y.S.2d 968 [1989]). Indeed, in People v
Moissett, we held that the defendant validly waived his
right to appeal, overlooking the fact that “the record [did]
not reveal an explicit waiver” (76 NY2d at 911). Decades
later, in People v Sanders, we upheld an appeal waiver
comprised only of three questions posed by the prosecutor,
who conducted the entire colloquy without input from
the trial court (25 NY3d at 339-340). As these cases
demonstrate, there is no “absolute minimum that must be
conveyed to a pleading defendant in the plea colloquy in
order for the right to appeal to be validly waived” (id. at
341). So long as the defendant intentionally relinquished
a known right (People v Hansen, 95 NY2d 227, 230, 738
N.E.2d 773, 715 N.Y.S.2d 369 n 1 [2000]), “it should not
matter that the trial judge failed to choose what we might
in hindsight consider to be more felicitous words or turns

39a
Appendix A
of phrases” (People v Alexander, 19 NY3d 203, 219, 970
N.E.2d 409, 947 N.Y.S.2d 386 [2012]). Simply put, even on
a sparse record, a voluntary waiver will be upheld.
We have also upheld appeal waivers on the opposite
end of the spectrum—waivers that use “overbroad
language” or that suggest “an absolute bar to review” (see
majority op at 12, 13). For instance, in People v Hidalgo,
the court informed the defendant that, once her guilty plea
was accepted, she could not “come back to this Court or to
any court to set aside [her] conviction” (People v Maracle,
19 NY3d 925, 930, 973 N.E.2d 1272, 950 N.Y.S.2d 498
[2012] [Graffeo, J., dissenting] [quoting the Hidalgo waiver
colloquy]). Similarly, in People v Nicholson, the trial court
informed the defendant that his waiver encompassed
the right “to take to a higher court . . . any of the legal
issues connected with this case” (brief and appendix for
defendant-appellant in People v Nicholson, 6 NY3d 248,
844 N.E.2d 1145, 811 N.Y.S.2d 623 [2006]). And in People
v Thomas, the defendant was “incorrect[ly]” required
to waive his “right to appeal” as well as his right to “file
a notice of appeal” (majority op at 17-18; appendix for
defendant-appellant in People v Thomas).
By implying that all appellate avenues were forever
foreclosed, each of these appeal waivers contained
“imprecise” information (see majority op at 12). Of course,
even a perfunctory statement that a defendant has “waived
the right to appeal” is not entirely accurate, as there are
several well-established categories of appellate claims
that can never be waived (see Callahan, 80 NY2d at 280
[discussing the “categories of appellate claims that may

40a
Appendix A
not be waived,” including “the constitutionally protected
right to a speedy trial, challenges to the legality of courtimposed sentences, and questions as to the defendant’s
competency to stand trial”] [citations omitted]). Despite
their “overbroad” language, we upheld those appeal
waivers based on our singular focus on whether each
defendant’s waiver was “knowingly, intelligently and
voluntarily entered” (majority op at 12).
In the rare case where the Court invalidated an
appeal waiver, we emphasized the manner in which
the trial court’s error infected the voluntariness of
the defendant’s decision. In People v DeSimone, for
instance, “[t]here was no record discussion between the
court and [the] defendant concerning the waiver,” let
alone “an acknowledgement from the defendant” that he
understood and accepted its terms (80 NY2d 273, 283,
604 N.E.2d 108, 590 N.Y.S.2d 46 [1992]). Similarly, in
People v Bradshaw, we invalidated the appeal waiver
because the defendant—who had a “history of mental
illness”—”never orally confirmed that he grasped the
concept of the appeal waiver and the nature of the right
he was forgoing” (18 NY3d 257, 265, 267, 961 N.E.2d 645,
938 N.Y.S.2d 254 [2011]). And in in People v Billingslea,
the trial court inaccurately “characterize[d] an appeal as
one of the many rights automatically extinguished upon
entry of a guilty plea,” and therefore the record was “not
sufficient to guarantee that [the] defendant understood the
valued right she was relinquishing” (6 NY3d 248, 256-257,
844 N.E.2d 1145, 811 N.Y.S.2d 623 [2006]). In all of these
cases, the trial courts’ errors prevented the defendants
from fully appreciating the wide-ranging consequences of

41a
Appendix A
their waivers, thereby creating a risk that the defendants
unknowingly abandoned appellate rights they intended
to retain.
II.
Applying that standard to the instant appeals,
the record confirms that each defendant knowingly,
intelligently, and voluntarily waived the right to appeal.
Each defendant was represented by counsel and confirmed
on the record that he or she had an adequate opportunity
to discuss the waiver with defense counsel (see Moissett,
76 NY2d at 911; majority op at 12-13 [“The role played by
counsel in ensuring a defendant’s knowing and voluntary
waiver is an important component of that analysis that
cannot be ignored”]). Each defendant was informed that
the waiver of the right to appeal was separate and apart
from the rights ordinarily forfeited by a guilty plea (see
Billingslea, 6 NY3d at 256-257). Each defendant was
advised that his or her waiver would not bar certain
appellate arguments, including claims concerning the
legality of the imposed sentence, competency to stand
trial, constitutional speedy trial, and the voluntariness of
the waiver (see Callahan, 80 NY2d at 280). Each defendant
orally confirmed on the record that he or she understood
the import of the waiver (see Bradshaw, 18 NY3d at
265; DeSimone, 80 NY2d at 279). And each defendant
executed a detailed written waiver form in open court,
which expressly reaffirmed the knowing, intelligent, and
voluntary nature of his or her waiver (Ramos, 7 NY3d
at 738 [holding that a “detailed written wavier” could
overcome “ambiguity” in the waiver colloquy]).

42a
Appendix A
In addition, all three defendants had prior exposure to
the criminal justice system (see Sanders, 25 NY3d at 342
[considering the “defendant’s background, including his
extensive experience with the criminal justice system”]).
For instance, defendant Thomas, a second felony offender,
confirmed his previous conviction for criminal sale of
a controlled substance. And defendant Green, a second
violent felony offender, admitted to a prior attempted
burglary conviction; in fact, at the time of her guilty plea,
defendant Green was already serving a separate nineyear term.
All three defendants also received highly favorable
deals that enabled them to plead guilty to reduced charges
in full satisfaction of multi-count accusatory instruments
(see Callahan, 80 NY2d at 280 [noting that “relevant
factors” in assessing an appeal waiver include “the
nature of the agreement” and “the reasonableness of the
bargain”]). Defendant Thomas—who was charged with
gang assault and criminal possession of a weapon, among
other things—was promised the legal minimum sentence
of five years of incarceration in connection with his guilty
plea, though he faced a minimum determinate sentence of
eight years on the top count. Defendant Green, who faced
up to fifteen years on each of the three charged class C
felonies, was promised a cap of six years of incarceration in
connection with her guilty plea. And defendant Lang, who
confessed to sexually abusing a 5 year-old girl, a 7 yearold girl, and a 12 year-old girl, faced up to seven years of
incarceration on each of his four charged felonies, but his
plea capped his sentence at four years of incarceration. On
these records, defendants cannot plausibly contend that

43a
Appendix A
their appeal waivers were not knowingly, intelligently,
and voluntarily entered.
III.
The majority’s analysis, by contrast, invalidates two
of the three waivers—taken by the same judge—based on
the trial court’s so-called “serious” mischaracterization of
the right to appeal (majority op at 20). Employing a kitchen
sink approach, the majority takes issue with a number of
the trial court’s statements, including its suggestion that
defendants’ waivers would (1) operate as “an absolute bar
to the taking of a direct appeal,” (2) result in a “loss of
attendant rights to counsel and poor person relief,” and
(3) impact defendants’ “postconviction relief separate
from the direct appeal” (majority op at 20). Because none
of these purported errors affected the voluntariness of
defendants’ waivers, none of them warrant reversal.
A.
With respect to the first asserted error, the majority
itself acknowledges that we have “upheld appeal waivers”
even though they were “elicited through court colloquies
suggesting an absolute bar to review” (majority op at 13).
As the majority concedes, even the term “appeal waiver”
can “misleadingly suggest a monolithic end to all appellate
rights” since “no appeal waiver serves as an absolute bar
to all claims” (Garza v Idaho, 586 US __, 139 S Ct 738,
744, 203 L. Ed. 2d 77 [2019]). That broad, unqualified
terminology nonetheless persists (see majority op at 11),
appearing in practically every oral colloquy and written

44a
Appendix A
waiver form. Because the phrasing does not undermine
voluntariness, we have held that “[a]ppeal waivers
using such shorthand pronouncements are enforceable”
(majority op at 12).
This Court has also addressed—and rejected—the
majority’s second stated error as a basis for invalidating
an appeal waiver (see People v Ramos, 7 NY3d 737, 853
N.E.2d 222, 819 N.Y.S.2d 853 [2006]). In Ramos, for
instance, the written waiver form informed the defendant
that, in connection with his waiver of the right to appeal,
he was “giving up” a number of related appellate
rights—including the right “to prosecute an appeal as a
poor person,” the right to “have an attorney assigned,”
and the right “to submit a brief and/or argue before an
appellate court on any issues relating to [his] conviction
and sentence” (Bradshaw, 18 NY3d at 270 [Read, J.,
dissenting] [quoting the Ramos written waiver]). Despite
the clear implication—that an appeal waiver surrenders
the “attendant rights to counsel and poor person relief”
(majority op at 20)—we upheld the “detailed written
waiver” (Ramos, 7 NY3d at 738). The reason, yet again,
stems from our focus on the defendant; because defendant
“knowingly, intelligently and voluntarily waived his right
to appeal” (id.), his waiver remained valid.1
1. The written waiver in Thomas, upheld today, similarly
advised defendant that the right to appeal—which he expressly
waived—is accompanied by various related rights: the right “to
prosecute the appeal as a poor person, to have an attorney assigned
in the event that the defendant is indigent, and to submit a brief
and argue before the appellate court on any issue relating to the
conviction or sentence” (see appendix for defendant-appellant in
People v Thomas).

45a
Appendix A
Even the Model Colloquy—blessed by the majority
as a “solid reference for a better practice” (majority op
at 22)—identifies the rights to counsel and poor person
relief as components of the right to appeal:
“An appeal is a proceeding before a higher
court, an appellate court. If a defendant cannot
afford the costs of an appeal or of a lawyer,
the state will bear those costs. On appeal, a
defendant may, normally through his/her
lawyer argue that an error took place in this
court which requires a modification or reversal
of the conviction.”
(NY Model Colloquies, Waiver of Right to Appeal
[emphasis added].) Promptly thereafter, the Model
Colloquy reminds defendants that they are “giving up”
the lion’s share of their appellate rights: “As a result
[of the appeal waiver], the conviction by this plea and
sentence will normally be final” (id.). Here, by invoking
the trial court’s reference to the “rights to counsel and
poor person relief” as a basis for reversal (majority op
at 20), the majority simultaneously discredits the Model
Colloquy and tacitly overrules Ramos. 2

2. Moreover, as a practical matter, a valid waiver of the
right to appeal dramatically limits the scope of counsel’s available
arguments—and the nature of the representation that a defendant
should expect—since defense counsel is never required to “make
unsupportable arguments” on a defendant’s behalf (Garza, 586 US
at __, 139 S Ct at 746 n 8; see also Rules of Professional Conduct [22
NYCRR 1200.0] rule 3.1).

46a
Appendix A
The third error identified by the majority is a new
one: the trial court’s purported misstatements concerning
the effect of defendants’ waivers on “postconviction relief
separate from the direct appeal”—namely, on “collateral”
challenges available in “state and federal courts” (majority
op at 20-21). Though we have never said so, the majority
asserts that none of these avenues of postconviction relief
may be waived (see majority op at 13-14, 14 n 3), and based
on that novel conclusion, determines that the trial court’s
contrary suggestion was flawed (see majority op at 20-22).
The breadth of that holding is troubling. CPL 440.10,
our primary postconviction relief statute, contains no
fewer than 10 grounds on which a defendant may move to
vacate his conviction (see CPL 440.10 [1]; see also People
v Tiger, 32 NY3d 91, 98-99, 85 N.Y.S.3d 397, 110 N.E.3d
509 [2018]). The federal habeas corpus scheme is similarly
broad, enabling defendants to assert any “violation of
the Constitution or laws or treaties of the United States”
(28 USC § 2254; Jones v Cunningham, 371 US 236, 243,
83 S. Ct. 373, 9 L. Ed. 2d 285 [1963] [noting that the
writ of habeas corpus “is not now and has never been a
static, narrow, formalistic remedy”]). Given the breadth
and diversity of collateral claims available in both state
and federal court, the impact of an appeal waiver on a
defendant’s postconviction remedies is a complex and
consequential decision—and one that we had not, until
today, resolved.

47a
Appendix A
Still more disturbing, the issue has never been argued
by any of the parties in these appeals. 3 That should come
as no surprise; these cases do not present the issue of
whether any, let alone all, collateral claims may be validly
waived. Rather, defendants seek only to restore their
direct appeals and, as a result, they do not address the
availability (or waivability) of any collateral claims. Apart
from the obvious reviewability problems—we generally
do not consider arguments not raised by the parties (see
People v Tapia, 33 NY3d 257, 270 n 8, 100 N.Y.S.3d 660, 124
N.E.3d 210 [2019])—we are left with a complete absence of
any briefing or argument that would enable the Court to
reach an informed, considered, and well-reasoned decision.
Undeterred, the majority decides the issue—and adopts a
sweeping rule—in a handful of conclusory sentences: An
appeal waiver, the majority states, relinquishes “only”
those claims that “can be reviewed on direct appeal,”
and accordingly, waiver colloquies should never mention
“collateral or federal relief” (majority op at 13-14, 14 n 3,
20-22 [emphasis added]).
Even a brief examination of that holding reveals deep
flaws. With respect to State remedies, at least four of
the collateral claims housed in CPL 440.10 are expressly
3. In cha lleng ing the volunta r iness of thei r wa ivers,
defendants never relied on the trial court’s discussion of collateral
remedies. Even when expressly asked, defense counsel in both Lang
and Green identified only those portions of the waiver colloquy
discussing the right to counsel and the right to poor person relief;
neither defendant adopted an argument concerning the waivability
of the countless collateral claims available in state and federal court
(see oral argument tr at 25-26, 34-35, 52-54).

48a
Appendix A
reserved for those defendants convicted at trial (see CPL
440.10 [1] [c] [claim that “(m)aterial evidence adduced at
a trial” was known to be “false”] [emphasis added]; id.
440.10 [1] [d] [claim that “(m)aterial evidence adduced by
the people at a trial” was “procured in violation of the
defendant’s rights under the constitution”] [emphasis
added]; id. 440.10 [1] [f] [claim of “(i)mproper and prejudicial
conduct” that “occurred during a trial”] [emphasis
added]; id. 440.10 [1] [g] [claim that “(n)ew evidence” was
discovered after “a verdict of guilty after trial”] [emphasis
added]). A fifth provision imposes a heightened standard
on defendants “convicted after a guilty plea” as compared
to those defendants “convicted after a trial” (CPL 440.10
[1] [g-1]). We evaluated a sixth provision in People v Tiger
(32 NY3d 91, 85 N.Y.S.3d 397, 110 N.E.3d 509 [2018]),
where we held that the defendant’s guilty plea—coupled
with a waiver of the “right to appeal all aspects of th[e]
case” (id. at 104 [Garcia, J., concurring])—foreclosed her
subsequent assertion of an “actual innocence” claim under
CPL 440.10 (1) (h) (id. at 102-103). Evidently, an appeal
waiver, coupled with a guilty plea, necessarily restricts
a defendant’s collateral remedies by foreclosing those
grounds for relief predicated on a conviction at trial.
In fact, in People v Hidalgo, the trial court expressly
informed the defendant that, as a result of her appeal
waiver, she could not “come back to this Court or to any
court to set aside [her] conviction” (Maracle, 19 NY3d
at 930 [Graffeo, J., dissenting] [quoting the Hidalgo
waiver colloquy] [emphasis added]). Despite its apparent
reference to collateral remedies, the defendant’s waiver
was upheld.4
4. The majority correctly notes that a guilty plea, by itself,
operates to forfeit a number of collateral claims (majority op at 14 n

49a
Appendix A
With respect to collateral attacks in federal court,
it is crystal clear that a defendant may validly waive the
right to seek federal habeas corpus relief: “[E]nforceable
waivers can preclude not only the right to direct appeal
but also the right to collaterally attack the conviction in
a habeas or other petition” (Rodriguez v Conway, 2010
U.S. Dist. LEXIS 888, 2010 WL 92911, *4 [ED NY 2010]
[holding that the petitioner, a state defendant, “knowingly
waived his right to appeal” and “his right to collaterally
attack the conviction in federal court”]). The majority’s
contrary holding is not only wrong, it is effectively
meaningless; a defendant’s waiver of federal habeas
rights is evaluated not under state standards, but under
“the recognized federal standard of being knowing and
voluntary” (Cross v Perez, 823 F Supp 2d 142, 148 [ED
NY 2011] [emphasis added]). Under that approach, trial
courts are not only permitted to explain the impact of a
defendant’s waiver on his collateral remedies, they are
required to do so (see id.).
Given these repercussions, it would be prudent—not
“erroneous” (majority op at 21)—for trial courts to advise
defendants that their appeal waivers will impact their
collateral remedies. Ironically, had the trial court in these
cases failed to advise defendants of the broad ramifications
of their waivers, defendants might have plausibly (and
perhaps successfully) asserted a voluntariness argument
3). A valid appeal waiver might also operate to relinquish additional
collateral remedies in state court; indeed, in federal court, it has
that precise effect (see infra). We have never evaluated the effect of
an appeal waiver on any collateral claim. Now, given the majority’s
holding, we never will.

50a
Appendix A
on the basis that they failed to appreciate their waivers’
full scope. The majority’s holding now precludes trial
courts from delivering those accurate warnings.
B.
Even if the trial court’s colloquy was, in fact, misleading,
the court’s overbroad description of defendants’ waivers
would still not require their invalidation. As an initial
matter, had defendants actually been misled by a literal
interpretation of their appeal waivers, they would have
never filed these appeals—and none of these cases would
be here. In any event, an otherwise valid waiver is not
rendered involuntary simply because the defendant was
willing to waive more rights than required (see People
v Rudolph, 21 NY3d 497, 502-503, 997 N.E.2d 457, 974
N.Y.S.2d 885 [2013] [“If anything, defendant pleaded
guilty under the impression that the law was less favorable
to him than we have held that it is—in other words, the
plea offer he accepted may have been better than he
thought. That is not a misapprehension that would support
an application to withdraw a plea.”]; see also Garza,
586 US at __, 139 S Ct at 749-750 [noting that “even the
broadest appeal waiver does not deprive a defendant of
all appellate claims”]). While any nonwaivable issues
purportedly encompassed by a waiver will be excluded
from its scope, the balance of the waiver remains valid and
enforceable (see People v Henion, 110 AD3d 1349, 1350,
973 N.Y.S.2d 857 [3d Dept 2013]; People v Neal, 56 AD3d
1211, 1211, 867 N.Y.S.2d 612 [4th Dept 2008]; see also
Callahan, 80 NY2d at 282 [holding that “a bargained-for
waiver of the right to appeal is ineffective to the extent it

51a
Appendix A
impairs the defendant’s ability to obtain appellate review”
of unwaivable claims] [emphasis added]).
Notably, these defendants do not seek to raise claims
that might fall beyond the scope of a valid waiver. Rather,
they seek appellate review of the trial court’s suppression
ruling (Thomas), sentencing determination (Green), and
denial of youthful offender status (Lang)—claims that
are entirely waivable and that, here, were validly waived.
By way of example, during defendant Green’s waiver
allocution, the court stated: “Do you understand that
[appeal] waiver goes to almost all issues of conviction and
sentence, including the terms and length of your sentence,
whether your sentence is excessive . . . ?” Defendant
responded: “Yes, sir.” She now seeks to raise an excessive
sentence claim.
Nor is the majority’s analysis properly anchored
in Billingslea (majority op at 20)—a case involving an
underinclusive waiver (6 NY3d 248, 844 N.E.2d 1145, 811
N.Y.S.2d 623 [2006]). There, the trial court conflated the
distinct concepts of forfeiture and waiver, inaccurately
informing the defendant that his appeal waiver was an
automatic consequence of his guilty plea (id. at 254). As a
result, the record failed to demonstrate that the defendant
grasped the full range of claims he had relinquished
through his waiver, rendering the waiver involuntary
(id. at 257). Here, by contrast, each waiver made clear
that the right to appeal is “separate and distinct,” and
defendants fully appreciated the breadth of claims
validly encompassed by their waivers. Armed with that
knowledge, defendants voluntarily agreed to waive those
rights—and then some.

52a
Appendix A
IV.
In lieu of voluntariness, then, the majority’s holding
is premised on an entirely different standard—one that
focuses solely on the trial court to the exclusion of the
defendant. Tellingly, the majority’s analysis contains
little discussion of these defendants; it makes no mention
of defendants’ backgrounds, plea deals, or discussions
with counsel (see majority op, section III). The majority
effectively eliminates defendants from the inquiry
altogether, instead resorting to harsh criticism of the trial
court’s colloquy as “muddled,” “confused,” “conflated,”
“incorrect,” “improper,” and “erroneous” (majority op at
18, 20-21). The touchstone of that inquiry is the conduct
of the trial court—not its impact on the defendant.
This shift in emphasis works a change in our law. Our
standard is premised not on a review of the trial court’s
colloquy in a vacuum, but on the defendant’s grasp of
the relinquished rights. Rather than asking whether
defendants acted knowingly, intelligently, and voluntarily,
the majority asks whether the trial court’s description
of the waiver contained a “serious” mischaracterization
of the right to appeal or was otherwise “incorrect and
irredeemable under the circumstances” (majority op at 16,
20). That novel standard elevates the court’s colloquy over
the defendant’s state of mind, neglecting the centerpiece
of voluntariness review. Not only does the majority’s
approach run counter to decades of settled precedent,
it leaves lower courts with an unfamiliar and undefined
new framework.

53a
Appendix A
The majority’s punitive tone is particularly jarring
in light of our clear advisement that the “better practice”
is for trial courts to “define the nature of the right to
appeal more fully” (Sanders, 25 NY3d at 342). A broader,
more inclusive colloquy, we reasoned, serves to protect
defendants from unwittingly abandoning vital appellate
rights (see People v Maracle, 19 NY3d 925, 928-929, 973
N.E.2d 1272, 950 N.Y.S.2d 498 [2012]). Indeed, we have
admonished trial judges to more thoroughly explain the
rights surrendered by an appeal waiver in order to ensure
that defendants appreciate their far-reaching implications
(see DeSimone, 80 NY2d at 283; Sanders, 25 NY3d at 342).
Meanwhile, we continue to craft a maze of rules for
trial courts to navigate. Our cases have generated an
evolving, non-exhaustive list of appellate claims that
can never be waived—a list susceptible to continued
amendment (see Seaberg, 74 NY2d at 9). Indeed, defendant
Thomas’s brief purports to list 18 additional appellate
claims that survive a valid waiver (see brief for defendantappellant in People v Thomas). And despite our promise
of “no mandatory litany” (e.g. Johnson, 14 NY3d at 486),
our cases continue to suggest “standard procedure[s]” for
trial courts to adopt (majority op at 14 [discussing Lopez,
6 NY3d 248, 844 N.E.2d 1145, 811 N.Y.S.2d 623]). The
rules are constantly changing, and our cases hardly lend
themselves to a clear procedure.
The result has been predictable: more expansive waiver
colloquies, couched in cautionary language, designed to
impress upon defendants the breadth and significance of
the rights encompassed by an appeal waiver. Reinforcing

54a
Appendix A
that approach, we have upheld a number of these padded
waivers, opting to overlook technical inaccuracies aimed
at emphasizing the broad scope of the right to appeal (see
majority op at 11-17; see also Nicholson, 6 NY3d at 257;
Ramos, 7 NY3d at 738; Hidalgo, 91 NY2d at 734-737).
With respect to appeal waivers, our message to trial
courts has been consistent and clear: say more, not less.
The majority’s message today is the opposite: say less,
not more. In each of these three cases, the trial court went
to great lengths to impress upon the defendant that a
waiver of the right to appeal is important, expansive, and
should not be taken lightly. That approach has now been
condemned. The result is an unfortunate one: waivers will
only be less knowing, less intelligent, and less voluntary.
V.
The ramifications of today’s holding will be substantial
and, more importantly, detrimental to defendants.
Initially, the majority’s assertion that its holding is a
classic application of our established standard will, by
itself, generate widespread repercussions (see majority op
at 2, 17). Any waiver resembling those in Green and Lang
is now prone to attack, and any defense attorney who failed
to challenge its terms is vulnerable to a claim of ineffective
assistance of counsel (see CPL 440.10 [1] [h]). And because
the majority insists that it has not announced a new rule,
its holding applies even to those cases that have already
become final (see People v Baret, 23 NY3d 777, 783-784,
992 N.Y.S.2d 738, 16 N.E.3d 1216 [2014]).

55a
Appendix A
The majority’s holding also unsettles plea bargains
in a manner that will harm the public, the courts, and
ultimately, defendants. Like guilty pleas, appeal waivers
serve the laudable goals of certainty and finality, allowing
for “prompt resolution of criminal proceedings with all
the benefits that enure from final disposition” (Seaberg, 74
NY2d at 7; Tiger, 32 NY3d at 101). But plea agreements,
like all other contracts, depend on consistency and
predictability in their enforcement (see J. Zeevi & Sons
v Grindlays Bank [Uganda], 37 N.Y.2d 220, 227, 333
N.E.2d 168, 371 N.Y.S.2d 892 [1975]; see also United
States v Riggi, 649 F3d 143, 147 [2d Cir 2011] [noting that
plea agreements are construed “according to contract
law principles”]). We therefore counsel against judicial
upending of the bargain reached at the conclusion of the
parties’ negotiations (Oppenheimer & Co. v Oppenheim,
Appel, Dixon & Co., 86 NY2d 685, 695, 660 N.E.2d 415, 636
N.Y.S.2d 734 [1995]), opting instead to enforce the terms
of the parties’ negotiated agreement (Seaberg, 74 NY2d at
10; see also People v Avery, 85 NY2d 503, 507, 650 N.E.2d
384, 626 N.Y.S.2d 726 [“Conditions imposed as part of a
plea arrangement are valid if the parties agree to them
and they do not violate any statute or contravene public
policy”]). “[B]argains fairly made,” we stressed, “should
signal an end to litigation, not a beginning” (Seaberg, 74
NY2d at 10; see also Tiger, 32 NY3d at 100-101).
Today’s holding unravels defendants’ bargains and
undermines the finality of their convictions. That result
serves only to “disadvantage[] the public by allowing
defendants to relitigate issues that they waived in
exchange for substantial benefits” (Garza, 586 US at __,

56a
Appendix A
139 S Ct at 755 [Thomas, J., dissenting]; see also Seaberg,
74 NY2d at 10 [recognizing the “public interest concerns”
that are “served by enforcing waivers of the right to
appeal”]). It also enlarges the caseload of our already
burdened appellate courts, who must address the new
appeals authorized by today’s decision (Garza, 586 US at
__, 139 S Ct at 755 [Thomas, J., dissenting]). 5
5. Judge Wilson asserts that, “in the real world,” appeal
waivers “fail to advance the State’s interest in finality” because
appellate challenges to the validity of appeal waivers consume the
time and resources of appellate courts and advocates (see J. Wilson
concurring/dissenting op, section III). But his anecdotal evidence
omits the most significant statistic: the tens of thousands of cases
where defendants decline to pursue an appeal as a direct result
of their waivers. Accurately presented, the empirical evidence
demonstrates that appeal waivers continue to serve the goals of
finality and judicial economy that we recognized in Seaberg. In 2018,
nearly 37,000 felony cases were resolved by guilty plea in Supreme
Court and County Court, but only 2,870 of those cases were later
addressed by the Appellate Division (see New York State Unified
Court System 2018 Annual Report, Court Structure and Caseload
Activity). Accepting the premise that appeal waivers are a “standard”
component of plea deals (People v Batista, 167 AD3d 69, 81, 86
N.Y.S.3d 492 [2d Dept 2018] [Scheinkman, P.J., concurring]), these
statistics tell us that fewer than 8% of defendants opt to pursue an
appeal once they have waived their appellate rights. Put differently,
in more than 92% of cases, appeal waivers operate exactly as they
were intended.
There is no reason to believe that these revealing statistics are
the result of pure coincidence (see Spriros A. Tsimbinos, The State
of Appellate Division Caseloads, 70-JAN NY St BJ 33, 34 [1998]
[attributing the “steep decline in criminal appeals” to the increasing
“utilization of the waiver of appeal” as a result of “the Court of
Appeals decision in People v Seaberg”]). Judge Wilson’s contrary
suggestion—that defendants would “not appeal their convictions”

57a
Appendix A
Perhaps worst of all, by depriving the prosecution
of the benefit of its bargain, the majority introduces
considerable uncertainty into the plea bargaining process.
Without the guarantee of finality that an appeal waiver
once promised, a prosecutor’s incentive to offer generous
plea deals is dramatically diminished (see Seaberg,
74 NY2d at 10 [“the negotiating process serves little
purpose if the terms of a carefully orchestrated bargain’
can subsequently be challenged”] [citation omitted]).
Here, for instance, defendants Green and Lang, who
faced lengthy terms of incarceration on their respective
burglary and sexual abuse charges, will retain their
reduced sentences (among other benefits), even though
they have been relieved of their earlier promise to restrict
further litigation. Going forward, a negotiating prosecutor
will understandably consider that—notwithstanding
a defendant’s appeal waiver—limitless appeals might
still ensue. In turn, the “very real” benefit of a waiver,
a valuable bargaining chip for defendants, will be
discounted (see United States v Teeter, 257 F3d 14, 22 [1st
Cir 2001] [“Allowing a criminal defendant to agree to a
even in the absence of an appeal waiver (J. Wilson concurring/
dissenting op at 13-14 n 6)—is both unsupported and counterintuitive.
Nor is there any support for the speculative argument that,
because appeal waivers have become “virtually universal,” no
additional consideration is provided to defendants in exchange for
an appeal waiver (brief for amicus curiae The Legal Aid Society
in People v Thomas; accord J. Wilson concurring/dissenting op at
9-10). In fact, the opposite conclusion is at least equally plausible:
universal appeal waivers are universally compensated with more
favorable plea deals—such as a four year maximum prison term for
sexually assaulting three children.

58a
Appendix A
waiver of appeal gives her an additional bargaining chip
in negotiations with the prosecution”]). In other words,
appeal waivers will no longer operate as a secure means
of “providing a prompt conclusion to litigation,” nor will
they serve the “worthy objectives” we once celebrated
(majority op at 8, 10). Terms offered to defendants may
well reflect that new landscape as prosecutors adjust for
increased risk. Ultimately, defendants will pay the price.

59a
Appendix A
WILSON, J. (dissenting in People v Thomas; concurring
in result in People v Green and People v Lang):
The game is not worth the candle. That is not to say
this is a game: for many defendants, the harsh and chilling
effect of appellate waivers results in the deprivation
of their constitutional and statutory rights, far from
anything one could, other than with great irony, call a
game. Rather, our Court’s tortured jurisprudence on
appellate waivers has wreaked havoc on the lower courts,
district attorneys, defense counsel and defendants, and
is not worth any of the hypothetical benefits purportedly
bestowed by appellate waivers.
Since People v Seaberg, 74 NY2d 1, 541 N.E.2d 1022,
543 N.Y.S.2d 968 (1989), we have held that an appeal
waiver is enforceable so long as the defendant has agreed
to it knowingly, voluntarily and intelligently. There, we
offered that appellate waivers provide a means “where,
by mutual concessions, the parties may obtain a prompt
resolution of criminal proceedings with all the benefits
that enure from final disposition” (id. at 7). We observed
that the “final and prompt conclusion of litigation is an
important goal,” “provided that the settlement is fair,
free from oppressiveness, and sensitive to the interests
of both the accused and the People” (id. at 8). We noted
that there was no public policy precluding defendants
from waiving their rights to appeal, and that the “validity
of the waiver is supported by the interests supporting
plea bargains generally” (id. at 10). At the same time,
Seaberg recognized that some claims — not itemized in
our decision — could not be waived because those claims

60a
Appendix A
“embrace the reality of fairness in the process itself” (id.
at 9).
The reality, however, is that appeal waivers have
so corrupted the integrity of the process that, as our
jurisprudence now stands, it is the rare appellate waiver
that is fully knowing, voluntary and intelligent. The
foundational justifications on which Seaberg relied to
sanction appellate waivers are painfully absent in all three
cases before us. Those waivers were not “fair,” “free from
oppressiveness,” or “sensitive to the interests of both the
accused and the People.” I therefore dissent as to People
v Thomas; I concur in result as to People v Green and
People v Lang.
I.
The waivers at issue here were incapable of providing
the defendants any meaningful knowledge as to the rights
they were waiving. The knowing, voluntary and intelligent
test works tolerably well in its original context: plea
bargaining. There, a defendant must learn the precise
terms of the offered sentence, and weigh that against
the potential benefits and costs of going to trial. As
regards the sentence received, our jurisprudence has been
circumspect in ensuring that every detail of that sentence
is identified clearly (see e.g. People v Catu, 4 NY3d 242,
244, 825 N.E.2d 1081, 792 N.Y.S.2d 887 [2005] [“the court
must advise a defendant of the direct consequences of
the plea”]; People v Louree, 8 NY3d 541, 545, 869 N.E.2d
18, 838 N.Y.S.2d 18 [2011] [“a plea cannot be knowing,
voluntary and intelligent if a defendant is ignorant of

61a
Appendix A
a direct consequence” of his plea]; People v Peque, 22
NY3d 168, 197, 980 N.Y.S.2d 280, 3 N.E.3d 617 [2013] [“a
noncitizen defendant convicted of a removable crime can
hardly make a ‘voluntary and intelligent choice among
the alternative courses of action open to the defendant’
unless the court informs the defendant that the defendant
may be deported if he or she pleads guilty,” citing People
v Ford, 86 NY2d 397, 657 N.E.2d 265, 633 N.Y.S.2d 270
(1995)]; People v Estremera, 30 N.Y.3d 268, 66 N.Y.S.3d
656, 88 N.E.3d 1185 [2017]). Transported by Seaberg to
appellate waivers, however, the test sheds painfully little
light on whether a defendant knows the rights waived,
comprehends them intelligently, and makes a voluntary
decision to abandon them. Two principal reasons account
for that failure. First, in sharp contrast to the terms of
a sentence, we have expressly held that no itemization of
the appellate rights waived is required (People v Lopez,
6 NY3d 248, 256, 844 N.E.2d 1145, 811 N.Y.S.2d 623
[2006] [“a trial court need not engage in any particular
litany when apprising a defendant pleading guilty of
the individual (appellate) rights abandoned”]; People v
Sanders, 25 NY3d 337, 341, 12 N.Y.S.3d 593, 34 N.E.3d
344 [2015]; see also majority op at 11). In practice, no
such itemization is given. Second, for the typical criminal
defendant, grasping the weight of the term of a sentence
is fathomable; grasping the weight of the waived and
unwaived appellate rights is not. Indeed, I feel confident
that most criminal lawyers (and judges, myself included)
could not produce a comprehensive list of the waivable
and unwaivable rights without conducting substantial
research — let alone assess the value of those rights in
the context of a particular case.

62a
Appendix A
The prospect that appeal waivers might be knowing,
voluntary and intelligent is further eroded because
we are attempting to measure whether the defendant
“knows” something, has an “intelligent” basis to assess
it, and makes a “voluntary” choice based on factors
completely external to the defendant. We review the trial
transcript, the colloquy of the court, the written waiver
provided by the prosecutor. The defendant’s own voice
is conspicuously lacking. We test middle-school students
about their knowledge of American history by asking
them to recite facts and dates, not by giving them the
correct answers and instructing them to answer “yes.”
We test prospective citizens similarly. But with criminal
defendants, we verify their knowledge (and intelligence
and voluntariness) based on monosyllabic answers they are
instructed by counsel to deliver, coupled with a signature
on a form in a situationally coercive environment, where
the entire plea — not just the appellate waiver — may
be jeopardized should the defendant say he or she does
not understand the rights forfeited or their import (see
Seaberg, 74 NY2d at 8). Stark is the contrast between
the reality of Seaberg, where no colloquy occurred, and
the language espoused in cases following it, which have
emphasized “the responsibility to oversee the process and
to review the record to ensure that defendant’s waiver
of the right to appeal reflects a knowing and voluntary
choice” (see e.g. People v Callahan, 80 NY2d 273, 280, 604
N.E.2d 108, 590 N.Y.S.2d 46 [1992]).
A n appellate waiver is effective only when “a
defendant has a full appreciation” of its consequences, and
a defendant “must comprehend” that the appellate waiver

63a
Appendix A
is separate and distinct from the plea (People v Bradshaw,
18 NY3d 257, 264, 961 N.E.2d 645, 938 N.Y.S.2d 254
[2011]).1 When the courts themselves spout misleading and
incorrect information as they did in Thomas, Green, and
Lang, courts will be hard pressed — even if they engage
in in-depth colloquies — to ensure the “full appreciation”
and “comprehension” of defendants. 2 Perhaps it is the
reality that a judge cannot truly determine whether the
defendant knows the rights waived and their import that
has resulted in the labyrinth of contradictions comprising
our appellate waiver jurisprudence.
As the majority acknowledges, the language of the
waivers in all of the cases before us was either “incorrect” in
Thomas (majority op at 18) or “mischaracterized” in Lang
and Green (majority op at 2). Query, from a defendant’s
perspective, why a “mischaracterized” statement by
a court results in an invalid waiver, but an “incorrect”
one does not, or what meaning the majority ascribes the
1. Moreover, because appellate waivers are “ritualistic
devices” included in every plea agreement as discussed in Part II,
a judge will face a herculean task in making sure a defendant fully
comprehends that an appellate waiver is “separate and distinct”
from the plea.
2. Presiding Justice Scheinkman of the Second Department
has suggested that even describing these agreements as “appellate
waivers” makes them more difficult for the average defendant to
comprehend fully. “It would seem more likely to be comprehensible to
one without formal legal training, and substantially less inconsistent,
to identify the limitation on appeal issues as being what it is — a
limitation — from the outset, rather than having to explain that an
appeal may be taken notwithstanding the ‘waiver’ of appeal just
executed moments earlier” (People v Batista, 167 AD3d 69, 80, 86
N.Y.S.3d 492 [2nd Dept 2018] [Scheinkman, P.J., concurring]).

64a
Appendix A
difference between the two. I agree with the majority that
“the muddled nature of the court’s advisements” cannot
be ignored in Lang and Green (majority op at 20), where
the trial court told the defendants that there would be “no
review by any other court.” I also agree with the majority
that where even a reviewing court would struggle to
understand the rights surrendered by an appellate waiver,
we cannot expect defendants or their attorneys to “grasp
the nature of the rights they are surrendering” (majority
op at 20-21). I part ways with the majority as to its
conclusion in Thomas. The court told Mr. Thomas that he
was waiving his right “to challenge to a higher court what
is taking place right now, the plea and what will take place
in about two weeks when you are sentenced, to challenge
those proceedings to a higher court.” In the context of
assuring that a defendant has knowingly, voluntarily
and intelligently waived certain appellate rights, I see
no difference between a judge telling a defendant that
there will be no review by any other court and telling a
defendant that he cannot challenge any of the current or
future proceedings in a higher court, especially when that
colloquy is coupled with a waiver that states the defendant
is waiving his right to file a notice of appeal. As in Green
and Lang, a reviewing court would struggle to discern
whether Mr. Thomas understood the rights he waived. 3
3. In the alternative, the Appellate Division held that the
hearing court properly denied Mr. Thomas’s suppression motion
because the “detective’s act of showing defendant an incriminating
photograph was, under the circumstances, a permissible response
under People v Rivers to defendant’s demand to know why he was
being arrested” (citations omitted). Because I conclude that Mr.
Thomas’s case falls squarely within our holding in People v Ferro
(63 NY2d 316, 472 N.E.2d 13, 482 N.Y.S.2d 237 [1984]), I disagree.

65a
Appendix A
By choosing to differentiate these cases, the majority
further ensnares this Court in our Daedalean maze. As the
majority acknowledges (majority op at 16), we have struck
down waivers when a lower court advised the defendant
that he could not take the case to a higher court (see People
v Billingslea, 6 N.Y.3d 248, 844 N.E.2d 1145, 811 N.Y.S.2d
623 [2006]; People v Bradshaw, 18 NY3d 257, 961 N.E.2d
645, 938 N.Y.S.2d 254 [2011]) — but, the majority says,
those situations were distinguishable because “under the
circumstances” those defendants could not have known the
distinct appellate rights they were surrendering, while
here Mr. Thomas surely did. Under our current case law,
the “nature and terms of the agreement and the age,
experience and background of the accused” may allow a
trial court to determine that a waiver remained voluntary,
knowing and intelligent (Seaberg, 74 NY2d at 11), despite
its internal contradictions and inconsistencies. Even the
most experienced defendant would struggle under the
facts at issue in Thomas. A judge told Mr. Thomas that
he was waiving his right to appeal, explicitly telling him
that meant he could not challenge his plea or sentence
in a higher court; next, he signed a written waiver form
which said at once both that he was waiving “any and
all rights to appeal including the right to file a notice of
appeal . . . with the exception of any constitutional speedy
trial claim which may have been advanced, the legality
of the sentence, my competency to stand trial, and the
voluntariness of this plea and waiver” and that he had
waived his right to “appeal and to file a notice of appeal.”
Those inconsistencies alone prevent Mr. Thomas’s waiver
from being knowing and intelligent.

66a
Appendix A
Our totality-of-the-circumstances jurisprudence —
in addition to supplying an excuse for courts to uphold
inherently contradictory waivers — reflects a bizarre and
unintended additional punishment for repeat offenders.
Those who have been previously convicted or exposed to
the system are, without any empirical evidence that this is
so, determined to be more “intelligent” about the appeal
waiver and more likely to have “knowingly and voluntarily”
waived their right to appeal, as a consequence of their
“age, experience, and background” (id.), while first-time
offenders will have an easier time of representing their
waiver as unknowing. Perhaps, instead, their experience
has taught them only that our maze is inescapable.
II.
In addition to the above problems inherent in
determining the state of mind of a layperson about rights
we offer in a coercive setting and we fail to enumerate,
appellate waivers run afoul of Seaberg’s foundation in a
fundamental way. Seaberg sanctioned appellate waivers
as means “where, by mutual concession, the parties may
obtain a prompt resolution of criminal proceedings with
all the benefits that enure from final disposition” (Seaberg,
74 NY2d at 7). Laudable as that objective is, both ends of
the presumed bargain have failed in the real world. As I
set out in Part III, appellate waivers have not resulted in
Seaberg’s finality panacea. More importantly, appellate
waivers are not — and have long since ceased to be —
“mutual concessions,” resulting in outcomes “sensitive
to the interests of both the accused and the People” (id.).

67a
Appendix A
The Seaberg Court was able to dispose of the theory
that appellate waivers are per se invalid — and the
related one, that appellate waivers chill defendants from
effectuating their rights — only by relying on the premise
that plea bargains are ultimately a voluntary process that
a defendant is free to accept or reject (see Bordenkircher
v Hayes, 434 US 357, 363, 98 S. Ct. 663, 54 L. Ed. 2d 604
[1978]; Robert K. Calhoun, Waiver of the Right to Appeal,
23 Hastings Const L Quarterly 127, 149 [1995]). History
and experience have undermined Seaberg’s core. Our
thirty years of experience under Seaberg demonstrates
that however voluntary the plea bargain itself is, no
additional consideration is provided to defendants in
exchange for an appeal waiver. For appeal waivers, there
are no “mutual concessions.”
Instead, something quite distasteful and unseemly
happens. The government, in the form of prosecutors
and the courts, receives immunity for harmful errors 4 it
has made, while defendants are expected, almost without
exception, to waive their right to appeal upon pleading
guilty. Appeal waivers have become a “purely ritualistic
device” — they are “standard” and “part and parcel of
plea bargaining” (People v Batista, 167 AD3d 69, 81, 86
N.Y.S.3d 492 [2018] [Scheinkman, P.J., concurring]). Due
to their constituent nature, defendants do not receive a
lesser sentence because of them. If they did, we would not
have situations like those before us — frequently occurring
in my review of cases — in which the appellate waiver was
4. If the errors were harmless, the harmless error doctrine
would dispose of them, without resort to an appeal waiver.

68a
Appendix A
sprung upon a defendant after the plea bargaining had
been completed (see e.g. Green). The underlying rationale
for both the majority here and in Seaberg can survive only
if there is true voluntariness for the bargain between the
People and the defendant who is waiving his or her right
to appeal and only if the plea and waiver are bargained
separately. A contract in which one party gives nothing is
void for want of consideration. Because defendants receive
no benefit in exchange for the appeal waiver, defendants
are often rendered victims of “situational coercion” by
these automatic, non-bargained-for waivers.
This is particularly true where defendants are giving
up a fundamental right, specifically that of error correction,
while the government benefits from that lack of review.
In a prototypical example, a defendant seeks to suppress
evidence that was unlawfully obtained. Erroneously, the
court denies suppression. The defendant is now offered
a much higher plea deal with a mandatory appellate
waiver but sees no other feasible way to proceed: she
must either agree to that plea or proceed to trial without
the inculpatory evidence suppressed. The prosecutor and
the court have thus effectively inoculated their error in
denying suppression from appellate review. As the First
Department stated in People v Ventura, although the
“powers of a prosecutor may indeed be broad,” they are
“not so broad and limitless as to include the power to exact
waivers of as fundamental a right as the right to appeal”
(139 AD2d 196, 205, 531 N.Y.S.2d 526 [1988]). The history
since Seaberg illustrates what the Court in Seaberg did
not see then: appellate waivers insulate courts from error
review. As such, appellate waivers should be per se invalid,

69a
Appendix A
even on Seaberg’s own reasoning, because they result not
from fair bargaining but from an unjust process that leads
defendants compulsorily to accept waivers, foreclosing
the system’s obligation to review for prejudicial errors.
Our jurisprudence on appellate waivers affects more
than just the rights of defendants: it impinges on the
right of the public to a system that includes appellate
review. The right to appeal is a fundamental right (see
e.g. Ventura, 139 AD2d at 205; Melancon, 972 F2d at
577, citing Griffin v Illinois, 351 US 12, 18-18, 76 S. Ct.
585, 100 L. Ed. 891 [1956]). Moreover, in New York, the
duty of appellate courts to entertain “all appeals from
final judgments in criminal cases’ is of constitutional
dimension” (Callahan, 80 NY2d 273, 284, 604 N.E.2d
108, 590 N.Y.S.2d 46 [1992]). The United States Supreme
Court has recognized that defendants have “a right to
a[n appellate] proceeding” regardless of whether they
signed an overbroad waiver (see Garza v Idaho, 139 S Ct
738, 747, 203 L. Ed. 2d 77 [2019]). We must then view our
decisions in these cases as having utmost significance: it is
a right of every New Yorker to have an honest process by
which criminal defendants are convicted and their cases
reviewed by a higher court. That right is diminished where
this Court prevents the full review of errors that occur
at trial, errors for which the government is responsible. 5
5. Everyone agrees that our court systems are over-burdened.
We should all agree then that “a decision of three people with time
for reflection over the decision of one person with little or no time
to think” should be preferred (Judith Resnik, Precluding Appeals,
70 Cornell L Rev 603, 620 [1985]; see also Calhoun, Waiver of the
Right to Appeal, at 165). Five, had they time, would be still better.
We should all want such error review.

70a
Appendix A
Why should the public trust a system in which the process
is not open to examination by a court capable of further
consideration? “It is essential that the system not only be
fair but that it be perceived as fair” (Calhoun, Waiver of
the Right to Appeal, at 178). Because the right to appeal
assures defendants and the public that there is an available
corrective process — one outside the hands of a single
judge — it is that right which ultimately allows the system
to be perceived as fair.
Yet despite its fundamental importance, our Court
has repeatedly approved of overbroad appellate waivers
— waivers in which it is not clear that the defendants,
the prosecutors or the courts knew the full extent of
the rights waived. That result is incongruous with a fair
criminal justice system. The cases before us today are
deeply troubling because they reveal that which is not
brought before us: the innumerable cases which never
make it to any appellate court. When a defendant is
told, as Ms. Green and Mr. Lang were, that they cannot
appeal to “any other court,” or when a defendant signs a
form that forbids the filing of a notice of appeal, as Mr.
Thomas did, mere fortuity brings that case to our notice.
In innumerable other cases, after being explicitly told by
a judge or advised by an attorney that she cannot file an
appeal or that there will be no further review of her case,
a defendant will simply not file an appeal and not seek
review. This prevents defendants from effectuating their
rights, even when those rights are legally unwaivable.
Although “an agreement to waive appeal does not foreclose
appellate review in all situations” (Callahan, 80 NY2d at
284), the broad and impenetrable language in appellate

71a
Appendix A
waivers “discourages defendants from filing notices of
appeal even when they have claims that cannot be waived,
such as one concerning the lawfulness of the waiver or
the plea agreement itself” (People v Santiago, 119 AD3d
484, 486, 990 N.Y.S.2d 494 [1st Dept 2014]). Because such
language deprives a court of the “very jurisdictional
predicate it needs as a vehicle for reviewing the issues
that survive the waiver,” (Callahan, 80 NY2d at 284), and
chills defendants from enforcing their rights, appellate
waivers should never be valid.
III.
As if that was not enough to make appellate waivers
worthy of abandonment, the raison d’etre of appeal
waivers — finality — does not justify their existence.
In Seaberg, Callahan, and again in People v Lopez, 6
NY3d 248, 844 N.E.2d 1145, 811 N.Y.S.2d 623 (2006), we
stressed the importance of “holding [a] defendant to the
plea and sentence bargain he or she made . . . in order
to accomplish the goals of fairness and finality” (id. at
262). We even held that “waivers advance that interest,
for the State’s legitimate interest in finality extends to
the sentence itself and to holding defendants to bargains
they have made” (Seaberg, 74 NY2d at 10) (emphasis
added). Those are nice theories. What happens in the
real world? Appellate waivers not only fail to advance the
State’s interest in finality, they have become a “pathway
to future litigation” (Batista, 167 AD3d at 78), largely due
to the failure inherent in a test designed to determine
knowledge, intelligence and voluntariness in a coercive

72a
Appendix A
situation with amorphous and inconsistent guidelines
susceptible to various interpretations.6
To be clear, when we have said “finality,” what we
really mean is cost. For the centuries before Seaberg
authorized appeal waivers, every criminal prosecution in
New York came to a final conclusion. “Finality” is just the
cost savings associated with avoiding one level of appellate

6. Judge Garcia in his partial dissent concludes that appellate
waivers “operate exactly as they were intended” because just 8% of
defendants appeal after waiving their appellate rights (Garcia, J.,
concurring/dissenting op at 20 n 5). My colleague’s analysis lacks
essential information: the fraction of defendants who pled guilty
and did not appeal their convictions pre-Seaberg. Moreover, Judge
Garcia’s suggestion that Seaberg resulted in a “steep decline in
criminal appeals” is not supported by the data in the article he
cites. Putting aside that the article reflects the first four years
post-Seaberg, not the quarter century since then, the proposition
that Seaberg — a ruling with statewide effect — was the primary
driver of the decline in the number of appeals between 1992-1996
is incompatible with the same article’s data showing “significant”
increases in the number of criminal appeals in the Third and
Fourth Departments, including an increase of over 50% in the Third
Department (id.; see Spriros A. Tsimbinos, The State of Appellate
Division Caseloads, 70-JAN NY St BJ 33, 35 [1998]). Indeed, that
article notes that the “number of felony indictments in New York City
have [sic] dropped some 21% since 1990 [and] [s]imilar decreases in
counties outside of New York City have also occurred.” It goes on
to say that the drop in criminal appeals from 1992 to 1996 was 18%
— less than the drop in felony indictments beginning in 1990. That
is, the reduction in indictments alone would account for the drop in
appeals, which appears quite likely because of the increase in the
Third and Fourth Departments post-Seaberg.

73a
Appendix A
review.7 Surely, cost to taxpayers must be taken into
account, but we should recognize it for what it is, instead
of calling it “finality” to raise the specter of endless
litigation. We also must recognize that we are balancing
that cost against the actual and perceived fairness of the
criminal justice system. 8
Post-Seaberg, that balance becomes quite easy to
calculate, because on one side there is fairness and public
confidence, and on the other side there is less than nothing.
Appellate waivers create more litigation than they avoid.
As the Second Department noted, it is “far too often”
that a “perfunctory appeal waiver colloquy serves only”
to create further litigation because an appellate court is
forced in its review of the case “to hold invalid a bargainedfor waiver” (id.). In what Justice Scheinkman calls a
“conservative estimate,” in just the last few years, the
Appellate Division has found at least 380 appeal waivers
to be invalid (id. at 82 [Scheinkman, P.J., concurring]).
7. Appeals to this court are largely discretionary; we grant
approximately 1.5% of the criminal leave applications before us —
and that includes cases in which the validity of an appeal waiver is
at issue (see 2018 Court of Appeals Annual Report, Appendix 8).
8. Were appeal waivers abolished, either legislatively or
judicially, we should expect cost savings in all the cases now appealed
in which an appeal waiver exists. Among the cases in which no appeal
is now taken, there are four possible outcomes if appeal waivers are
eliminated: (1) some will still not be appealed; (2) some will now be
appealed and have merit; (3) some will now be appealed, the defendant
will lose, but the law will be clarified; and (4) some meritless appeals
will be taken. Only (4) is an undesirable outcome, but the cost of
disposing of a truly meritless appeal is quite small.

74a
Appendix A
Rather than conserving judicial resources, appellate
waivers consume the time of prosecutors, defense counsel
and the court in attempting to create a record that might
satisfy our appellate waiver jurisprudence. All that time
and effort would be saved were appellate waivers banned.
On appeal, appellate waivers force intermediate appellate
courts, not to mention advocates, to spend countless hours
parsing through appellate waiver jurisprudence, trying
to navigate the complexities of waivable and nonwaivable
issues, and guessing at whether the defendants “fully
comprehend[ed]” their waivers. And then, after all that
time spent in such morass, the appeal waivers will often
be found invalid and the merits of the case reached — the
opposite of what Seaberg contemplated.
At argument, counsel for the People in Green and
Lang confirmed that her office always briefs the merits
even when there is an appeal waiver (“[W]e have no way
of knowing for sure what’s valid as a waiver of appeal, you
also have to argue . . . the other issue”). In my experience,
that is true statewide. Perhaps part of the People’s
motivation is to give appellate courts an easier way to
decide appeals, because in many cases the appeal’s lack
of substantive merit is clearer than the validity of the
appeal waiver. That conclusion is evidenced in the many
Appellate Division decisions ducking the question of a
waiver’s validity and addressing the merits of the appeal.
Thus, if you are an appellate judge in one of the
Departments that does not spend hours attempting to
assess the validity of each appellate waiver, you may be
in one which ignores the waivers altogether and reaches

75a
Appendix A
the merits anyway. Presiding Justice Acosta notes that
in the First Department, appellate waivers in excessive
sentence cases “consume very little of our precious time,”
because the court decides the merits “without reaching the
validity of any appeal waiver” (First Department Takes
Different Approach to Appeal Waivers, NYLJ, Dec 7, 2018
at 1). Even there, then, appellate waivers waste attorney
time and save no judicial time. Nor do they encourage
finality as formulated by Seaberg; they are instead largely
ignored. It is clear that appellate waivers generally fail to
serve the cost-saving purpose that formed the basis for
their justification. As mentioned, for the vast majority of
our history as a state, we have not had appellate waivers.
The parties, lawyers and courts managed just fine without
them.
IV.
The majority observes that my dissent is based
on “hypothetical constructs” drawn from outside the
record (majority op at 9). So too was Seaberg. Seaberg’s
justifications for appellate waivers relied on sweeping
public policy assumptions not contained anywhere in
its record. No record evidence in Seaberg demonstrated
that appellate waivers would conserve resources, avoid
litigation, improve outcomes for the parties or would be
knowingly, voluntarily and intelligently entered into in a
noncoercive, freely bargained exchange. Instead, those
assumptions were based on good-faith judgments about
extra-record facts. It is odd to suggest that this Court can
make — and entrench — law based on such assumptions
but cannot now overturn it if those assumptions have
proven wrong.

76a
Appendix A
In one case before us today, the Court approves of a
waiver that provided “incorrect” information (majority
op at 18). In two others, it disapproves of waivers that
were “mischaracterized” (majority op at 2). Praise to the
lower courts that can follow a string out of that maze, for
it has only one exit: abandon Seaberg. The rule of Seaberg,
while admirable in its notion of assuring fairness and
saving costs, in practice attains neither of those goals.
“Precedents remain precedents, however, not because
they are established but because they serve the underlying
‘nature and object of the law itself,’ reason and the
power to advance justice” (People v Bing, 76 NY2d 331,
338, 558 N.E.2d 1011, 559 N.Y.S.2d 474 [1990] [citations
omitted]). Stare decisis is a matter of policy choice, “not
a mechanical formula of adherence to the latest decision”
(id.). Here, appellate waivers have proved unworkable,
they have created more questions than they resolve, and
when viewed from the “cold light of logic and experience,”
they do not serve the ends of justice (see People v Peque,
22 NY3d 168, 194, 980 N.Y.S.2d 280, 3 N.E.3d 617 [2013]).
Seaberg’s knowing, voluntary and intelligent test has
resulted in many defendants’ unknowing, unintelligent
and involuntary waivers. It has produced — not avoided
— vast amounts of additional effort in trial courts and
litigation in appellate courts as they struggle to establish
and determine, respectively, the validity of such waivers.
And, ultimately, defendants are chilled from pursuing
their fundamental rights to appeal, while the public’s
confidence in the system’s fairness wastes away.
All I will say with regard to Judge Garcia’s partial
dissent is that I thank him for proving my case.

77a
Appendix A
I do not, as the majority claims, “mistrust [] all players
in the system” (majority op at 9). I trust that overworked
prosecutors, overworked defense attorneys, overworked
trial judges and overworked appellate judges are doing
their level best to follow our tortured appellate waiver
jurisprudence, which has unintentionally foisted on all of
them additional work and cost, with no benefit, and with
a further cost to some defendants who believe they have
waived even unwaivable rights and therefore fail to pursue
them. Is an excellent judicial system one that insulates
errors from judicial review, or one that considers the
merits of every claim of error? What if doing so would cost
less, or even the same? I respectfully dissent in Thomas
and concur in result in Green and Lang.
****
For Case No. 87: Order affirmed. Opinion by Chief Judge
DiFiore. Judges Stein, Fahey and Feinman concur. Judge
Rivera concurs in result in an opinion. Judge Garcia
concurs in result in a separate concurring opinion. Judge
Wilson dissents in an opinion.
For Cases No. 88 and 89: Order reversed and case
remitted to the Appellate Division, Fourth Department,
for further proceedings in accordance with the opinion
herein. Opinion by Chief Judge DiFiore. Judges Stein,
Fahey and Feinman concur. Judge Wilson concurs in
result in an opinion, in which Judge Rivera concurs in a
separate concurring opinion. Judge Garcia dissents in an
opinion.
Decided November 26, 2019

78a
Appendix
B AND ORDER
Appendix B —
DECISION
OF THE Supreme Court of New York,
Appellate Division, First Department,
dated february 1, 2018
Supreme Court of New York,
Appellate Division, First Department
Ind. 2760/15
The People of the State of New York,
Respondent,
- against Victor Thomas,
Defendant-Appellant.
February 1, 2018, Decided;
February 1, 2018, Entered
Sweeny, J.P., Manzanet-Daniels, Webber, Kahn, Moulton,
JJ.
Judgment, Supreme Court, Bronx County (April A.
Newbauer, J. at hearing; Michael A. Gross, J. at plea
and sentencing), rendered August 24, 2016, as amended
October 20, 2016, convicting defendant, upon his plea
of guilty, of attempted assault in the first degree, and
sentencing him, as a second felony offender, to a term of
five years, unanimously affirmed.

79a
Appendix B
Defendant made a valid general waiver of his right
to appeal, which encompassed his suppression claims (see
People v Kemp, 94 NY2d 831, 724 NE2d 754, 703 NYS2d
59 [1999]). The court’s on-the-record explanation of the
appeal waiver “was sufficient because the right to appeal
was adequately described without lumping it into the
panoply of rights normally forfeited upon a guilty plea”
(People v Sanders, 25 NY3d 337, 341, 12 NYS3d 593, 34
NE3d 344 [2015]; see also People v Bryant, 28 NY3d 1094,
45 NYS3d 335, 68 NE3d 60 [2016]). The written waiver
properly supplemented the court’s oral explanation, and
did not contain any language this Court has previously
found to be unenforceable, or that would otherwise require
the invalidation of the waiver. There was no language
that “discourages defendants from filing notices of appeal
even when they have claims that cannot be waived, such
as one concerning the lawfulness of the waiver or the
plea agreement itself” (People v Santiago, 119 AD3d
484, 485-486, 990 NYS2d 494 [1st Dept 2014], lv denied
24 NY3d 964, 996 NYS2d 223, 20 NE3d 1003 [2014]). On
the contrary, unlike the form used in People v Powell (140
AD3d 401, 30 NYS3d 873 [1st Dept 2016], lv denied 28
NY3d 1074, 47 NYS3d 233, 69 NE3d 1029 [2016]), the form
did not limit the unwaived issues to constitutional speedy
trial and legality of sentencing, but expressly stated that
defendant could raise on appeal “the voluntariness of this
appeal and waiver.” Furthermore, the form here did not
contain anything to suggest that the filing of a notice of
appeal could be deemed a motion to vacate, or that it would
have any other unwanted consequences (see Santiago, 119
AD3d at 485).

80a
Appendix B
Regardless of whether defendant made a valid
waiver of his right to appeal, we find that the hearing
court properly denied defendant’s suppression motion.
The record supports the court’s finding that defendant’s
statement was spontaneous and was not the product of
interrogation requiring Miranda warnings. A detective’s
act of showing defendant an incriminating photograph
was, under the circumstances, a permissible response
under People v Rivers (56 NY2d 476, 480, 438 NE2d 862,
453 NYS2d 156 [1982]) to defendant’s demand to know
why he was being arrested (see People v Wilson, 279 AD2d
381, 719 NYS2d 555 [1st Dept 2001] , lv denied 96 NY2d
869, 754 NE2d 1127, 730 NYS2d 44 [2001]).
this constitutes the decision and
order of the supreme court, appellate
division, first department
		

entered: february 1, 2018
/s/
		Clerk

81a
Appendix C TRANSCRIPT of
Appendix C — SENTENCING
the SUPREME COURT OF THE STATE OF NEW
YORK, COUNTY OF BRONX, CRIMINAL TERM,
FILED MARCH 27, 2017
[A-100]SUPREME COURT OF THE STATE
OF NEW YORK COUNTY OF BRONX:
CRIMINAL TERM: PART:
INDICTMENT NO. 2760/15
THE PEOPLE OF THE STATE OF NEW YORK,
-againstVICTOR THOMAS,
Defendant.
SENTENCE
Supreme Courthouse
265 East 161 Street
Bronx, New York 10451
August 24, 2016
before:
THE HONORABLE MICHAEL A. GROSS, JUSTICE
[A-101]COURT CLERK: Calling case on the record,
the People of the State of New York versus Victor Thomas.
Appearances, counsel.

82a
Appendix C
MS. MEIS: For Mr. Thomas, the Bronx Defenders
by Marika Meis.
THE COURT: Good morning, Ms. Meis.
MS. MEIS: Good morning.
MS. FULLER: Julian Fuller. Good morning, counsel.
THE COURT: Ms. Fuller, good morning.
COURT CLERK: The defendant is present.
THE COURT: Mr. Thomas is now before the Court,
pled guilty in this courtroom on the 10th of August of this
year. He was permitted to plead guilty to the C violent
felony of an attempt to commit the crime assault in the
first degree, a lesser of the first count of the indictment,
in satisfaction of higher felony charges, B violent felony
charges. He was promised a five year determinate term
to be followed by a period of five years post release
supervision.
Mr. Thomas was, in fact, adjudicated a prior felony
offender at the time of the plea.
MS. MEIS: Yes, correct.
THE COURT: Have both counsel had an opportunity
to review the presentence report?
[A-102]MS. MEIS: Yes.

83a
Appendix C
MS. FULLER: Yes.
THE COURT: The Department of Probation points
out, as already indicated today, that Mr. Thomas is a prior
felony offender. There appears to be no legal impediment
to the Court imposing the negotiated sentence.
Ms. Meis, are you and your client ready to proceed to
arraignment for sentence at this time?
MS. MEIS: Yes.
THE COURT: Please arraign Mr. Thomas for
sentence.
COURT CLERK: Victor Thomas, you’ re being
arraigned for sentence on your plea of guilty to attempted
assault in the first degree. Before the Court pronounces
judgement, the Court will accord the district attorney
an opportunity to make a statement with respect to any
matter relevant to the question of sentence. The Court
will then accord your attorney an opportunity to speak in
your behalf and you also have a right to make a statement
personally in your behalf.
Does the district attorney wish to make a statement?
MS. FULLER: Just that the promised sentence
be imposed. Your Honor didn’t mention it now but also
incorporated in the sentence was a final Order of [A-103]
Protection which -- along with the waiver of right to
appeal, which we executed on the last date. I do have the
final Order of Protection today.

84a
Appendix C
THE COURT: That was my oversight, yes. An order
of Protection was part of the promised sentence.
Ms. Meis, do you wish to be heard on behalf of Mr.
Thomas?
MS. MEIS: Nothing further than the agreement upon
disposition, I just ask that the premise be honored.
THE COURT: Mr. Thomas, do you wish to make any
statement to the Court before you are sentenced?
THE DEFENDANT: No.
THE COURT: The sentence is the negotiated and
agreed upon sentence of a five-year determinate term
of incarceration to be followed by a period of five years
post release supervision. There will be a final Order of
Protection directing Mr. Thomas to avoid contact with
the complainant, Brianna Rosa, for the statutory period
of time.
The surcharge and crime victim fees mandated by
law are imposed. Was the DNA fee previously imposed?
COURT CLERK: It has to be imposed.
THE COURT: Surcharge, crime victim and DNA fees
all mandated by law are imposed. At this time, Ms. Meis,
even though your client waived the right to appeal, you
can [A-104]provide him with a notice of right to appeal for
any rights that may survive that waiver.

85a
Appendix C
**********************************
CERTIFIED TO BE A TRUE AND ACCURATE
TRANSCRIPT OF THE ORIGINAL STENOGRAPHIC
MINUTES TAKEN OF THIS PROCEEDING.
/s/				
Laura Diercks
Senior Court Reporter

86a
Appendix
D
Appendix d — plea
transcript
of the
supreme court of the state of new
york, county of bronx, criminal term,
part 71, filed march 27, 2017
[1]SUPREME COURT OF THE
STATE OF NEW YORK
COUNTY OF BRONX : CRIMINAL TERM : PART 71
Indictment:
2760-15
THE PEOPLE OF THE STATE OF NEW YORK,
-againstVICTOR THOMAS,
Defendant(s).
265 East 161st Street
Bronx, New York 10451
August 10, 2016
BEFORE:
HONORABLE MICHAEL GROSS,
Justice
[2]THE CLERK: People V. Victor Thomas, jail matter.
MS. PULLIN: Trecia Pullin for the People. Good
morning.
MS. MEIS: For Mr. Thomas, Bronx Defenders by
Marika Meis.

87a
Appendix D
THE COURT: Ms. Pullin, good morning. Ms. Meis,
good morning. Mr. Thomas has now been produced in
court somewhat later than the 9:45 I had requested the
parties to return tomorrow. I understand Mr. Thomas
was not produced correctly by Department of Corrections.
MS. MEIS: Yes.
THE COURT: The matter was adjourned for further
discussion between the parties about further disposition.
Ms. Pullin.
MS. PULLIN: Yes, Judge. I do want to actually before
I get to the recommendation, clarify the offer. I think
yesterday I indicated that the separately apprehended
defendant who took a plea to six years was not a predicate.
That had been a discussion that Ms. Meis and I -THE COURT: I don’t think that was placed on the
record at all. At least I have no recollection of it.
MS. PULLIN: If it was, I wanted to clarify that I
did speak to my chief and made her fully aware of the
circumstances, and the People are not prepared to change
our recommendation from five years.
[3]THE COURT: If I’m, correct that is not a
recommendation, that is an offer, correct?
MS. PULLIN: I’m sorry, correct. The offer, because
we are offering that on a C, which is the attempted assault,

88a
Appendix D
Judge. Thank you for that. And the offer is going to -- is
being made today. And so the defendant can avail himself
if he wishes, to that offer today. If he does not, the offer
is no longer on the table.
THE COURT: And Ms. Meis, have you had an
adequate opportunity to consult further with Mr. Thomas
about a proposed disposition?
MS. MEIS: Yes. Part of what I attempted to do was
speak to him downstairs. They had difficulty finding
him in the correct register, so thank you for allowing me
some time in the back. Yes, I did make him aware of the
situation, and there would be no lower offer than the five
that he would have been offered.
THE COURT: The time is 11:55 a.m.
MS. MEIS: Your Honor, yes, Mr. Thomas does wish
to enter a plea on this case based on the People’s offer.
THE COURT: Mr. Thomas, do you swear the answers
you’re about to give to the questions placed to you by the
Court will be the truth, the whole truth and nothing but
the truth so help you God?
THE DEFENDANT: Yeah, yes.
[4]THE COURT: Your attorney, Ms. Meis, indicated
you would like now to withdraw your previous plea of
not guilty and enter a plea of guilty under the first count
of the indictment to the lesser charge of an attempt to

89a
Appendix D
commit the crime assault in the first degree, that plea in
violation of Penal Law sections 110 and 120.10, subdivision
1. Again, that is a lesser charge of the first count. That is
a class C violent felony offense. That plea would be in full
satisfaction of all of the charges now pending against you
under this indictment. Is that, in fact, what you want to do,
Nr. Thomas, plead guilty to that C violent felony offense?
THE DEFENDANT: Yes.
THE COURT: Have you had enough time to speak
with Ms. Meis about this proposed plea?
THE DEFENDANT: Yes.
THE COURT: Are you satisfied with the advice and
counsel you’ve received from Ms. Meis while she has been
representing you?
THE DEFENDANT: Yes.
THE COURT: Are you now taking medication or
drugs of any kind that might effect your ability to think
and concentrate at this time in this courtroom?
THE DEFENDANT: No.
THE COURT: Under the first count of the [5]
indictment in this case, Mr. Thomas, the grand jury has
alleged that on the 6th day of September of last year, 2015,
here in Bronx County, you acting in concert with others
with the intent to cause serious physical injury to another

90a
Appendix D
person, did in fact cause serious physical injury to Brian
Rosa using a deadly weapon or dangerous instrument. Is
that claim about you true, Mr. Thomas?
THE DEFENDANT: Yes.
THE COURT: What did -- first, what was the
dangerous instrument that was used in connection with
the attack against Mr. Rosa?
THE DEFENDANT: A blade.
THE COURT: And what did you do on September
6th to assist in the causing of serious physical injury to
Mr. Rosa.
THE DEFENDANT: I stopped other people from
coming to his aid.
THE COURT: And the others that you were acting
in concert with, what did one or more of them do with the
blade involving Mr. Rosa?
THE DEFENDANT: Slashed Mr. Rosa.
THE COURT: What part of his body?
THE DEFENDANT: Face and shoulder.
THE COURT: Is the allocution acceptable to the
People?

91a
Appendix D
[6]MS. PULLIN: Yes, Judge.
THE COURT: Mr. Thomas, do you understand by
pleading guilty to a crime as you are now doing, you give
up a number of rights. Among the rights you give up is the
right to a jury trial. At that trial, the prosecutor would
have the burden of proving your guilt beyond a reasonable
doubt. Your attorney would be by your side throughout the
trial to confront every witness. That is, to cross-examine,
to question closely every witness the prosecutor would
bring in to testify against you. Your attorney would also be
there to help you put in any available defense. By pleading
guilty, you give up each of those rights, do you understand
that Mr. Thomas?
THE DEFENDANT: Yes.
THE COURT: You have a right to remain silent at
trial. Here in court right now, by pleading guilty you give
up that right to silence as well. Do you understand that,
Mr. Thomas?
THE DEFENDANT: Yes.
THE COURT: Mr. Thomas, other than the promise
that you will receive a sentence of a five year determinate
term of incarceration 1n prison to be followed by a period
of five years post-release supervision, what is frequently
or usually what is referred to as parole supervision, other
than that a five year determinate term followed by a five
[7]years post-release supervision, besides that, have any
other promises of any kind been made to you by anyone
in connection with your plea in this courtroom today?

92a
Appendix D
THE: DEFENDANT: No.
THE COURT: People, have you prepared a predicate
felony statement?
MS. PULLIN: I have, Judge. And also there is a
waiver of right to appeal attached to the plea.
THE COURT: I was unaware of that before then, up
to this point.
Mr. Thomas, separate and apart from each of those
rights which I have just gone through in some detail, you
understand as part of the negotiations with the district
attorney’s office in this case, you are being asked to give up
your right to appeal. That means to challenge to a higher
court what is taking place right new, the plea and what
will take place in about two weeks when you are sentenced,
to challenge those proceedings to a higher court. Do you
understand that as well?
(Whereupon, there was a pause in the proceedings.)
THE COURT: Mr. Thomas, do you understand, again,
as part of the negotiations with the district attorney’s
office, you are being asked to give up your right to appeal,
challenge this plea and to challenge the sentence that will
be imposed in about two weeks. Do you understand [8]
that as well?
THE DEFENDANT: Yes.

93a
Appendix D
THE COURT: Ms. Meis, when you and Mr. Thomas
have had an adequate opportunity to review the terms
of the written waiver, please let me know. I will then ask
you to have Mr. Thomas sign that waiver in open court.
MS. MEIS: We’re prepared.
THE COURT: Have Mr. Thomas sign.
MS. MEIS: Yes.
THE COURT: Mr. Thomas, is that your signature on
the line about halfway, which I’m pointing?
THE DEFENDANT: Yes, sir.
THE COURT: You had a full opportunity to speak
with Ms. Meis about what signing this waiver means, what
rights you’re giving up?
THE DEFENDANT: Yes.
THE COURT: The record will reflect Mr. Thomas
signed the written waiver of right to appeal in open court
following consultation with Counsel.
Ms. Pullin, I don’t believe there was any reference
to an order of protection or is that part of the proposed
sentence as well?
MS. PULLIN: Yes, Judge. There has been an order
of protection on the case up until --

94a
Appendix D
THE COURT: All this should be put on the record
[9]so I can properly allocute.
Mr. Thomas, other than the promise that I am making
to you that the sentence in this case in about two weeks
will be a determinate term of five years jail term, you
get credit for every day you’ve been in since you’ve been
arrested here. That determinate term to be followed
by five years post-release supervision, what used to be
referred to as parole. And that there will be a final order
of protection directing you to avoid contact with Mr. Rosa
for an extended period of time in the future. Other than
that, have any other promises of any kind been made to you
by anyone in connection with your plea in this courtroom
today?
THE DEFENDANT: No.
THE COURT: People, you prepared the predicate
felony statement?
MS. PULLIN: Yes.
THE COURT: Ms. Meis, when you and Mr. Thomas are
ready to proceed with arraignment on that information,
please let me know.
MS. MEIS: We’re prepared.
THE CLERK: Victor Thomas, the District Attorney
of Bronx County filed with the Court a second felony
information which reads as follows. On the 10th day of July

95a
Appendix D
2013 in Supreme Court, Bronx County, State of New York
[10]before the honorable justice, said defendant was in due
form of law convicted of an offense for which a sentence to
a term of imprisonment in excess of one year or sentence
of death was authorized. To wit, Penal Law section 220.31
and thereupon on the 10th day of July 2013, said defendant
was duly sentenced to one year. Please take further notice
that the tolling provisions contained in 1B of section 70.06
of the Penal Law do not apply.
Victor Thomas, have you received a copy of the
statement?
THE DEFENDANT: Yes.
THE CLERK: Have you discussed the statement with
your attorney?
THE DEFENDANT: Yes.
THE CLERK: Under the law, you may challenge
any allegation in the statement on the grounds that
the conviction was unconstitutionally obtained. Failure
to challenge the previous conviction in the statement
at this time is a waiver on your part of any claim of
unconstitutionality.
Victor Thomas, do you understand the statement?
THE DEFENDANT: Yes.
THE CLERK: Do you admitted you are the person
named in the second felony information

96a
Appendix D
THE DEFENDANT: Yes.
[11]THE CLERK: You w ish to challenge any
information in the second felony information?
THE DEFENDANT: No.
THE COURT: Based on Mr. Thomas’ acknowledgement
that he is the person named in the predicate felony
statement he’s been arraigned on, further in light of his
decision not to challenge in any way the conviction cited
in that statement, I do adjudicate Mr. Thomas a predicate
felony offender.
Please arraign him on the guilty plea.
THE CLERK: Victor Thomas, you now wish to
withdraw your previously entered plea of not guilty and
plead guilty to attempted assault in the first degree,
110/120.10, subsection 1, that plea to cover indictment 2760
of 2015. Is that what you wish to do?
THE DEFENDANT: Yes.
THE COURT: Mr. Thomas will be remanded for
sentencing with a required report from the Department
of Probation.
Ms. Meis, the earliest date available is August 24th.
If that is a good date for both Counsel, that will be a good
date for sentencing.

97a
Appendix D
MS. MEIS; That’s fine for us.
THE COURT: Good date for you as well, Ms. Pullin?
HS. PULLIN: Yes, Judge. August 24th.
[12]THE COURT: Mr. Thomas is remanded until the
24th of August for sentencing at that time with a report
from probation.
MS. PULLIN: Before we conclude, I would ask that
you extend the order of protection until that date.
THE COURT: Order of protection will be extended
through the date of sentence, August 24th.
(Whereupon, proceedings were adjourned to August
24, 2016.)
***
This is to certify that the foregoing is a true and
accurate transcript of the stenographic minutes taken
within.
/s/				
SARAH DEBOURG
Senior Court Reporter

98a
Appendix E
Appendix E — DECISION
of the SUPREME
COURT OF THE STATE OF NEW YORK, COUNTY
OF BRONX, filed august 16, 2016
SUPREME COURT OF THE STATE OF
NEW YORK COUNTY OF BRONX PART 33
IND. NO. 2760-2015
THE PEOPLE OF THE STATE OF NEW YORK,
Against
VICTOR THOMAS,
Defendant.
DECISION
April A. Newbauer, J.
Defendant by indictment is charged with Assault in
the First Degree and related charges. Defendant filed
an omnibus motions to suppress any statements made by
the defendant on the grounds that the statements were
not voluntary and were the subject of an illegal search
and seizure. A Huntley/Dunaady hearing was granted.
On August 4, 2016 a hearing was conducted to
determine the admissibility of the statements attributed
to the defendant.

99a
Appendix E
FINDINGS OF FACT
The People called one witness, Police Officer Ramon
Rodriguez of the 48th precinct, Bronx County. Officer
Rodriguez, in his fourth year with the NYPD, was
assigned to a crime reduction team on September 6, 2015.
While on duty detectives in the 48th precinct squad played
for him a video of an incident that had occurred earlier
in the day. The officer believed the video footage was
obtained from a nearby restaurant. The detectives did
not tell Officer Rodriguez anything about what was on the
video, but just to “watch this incident.” The officer viewed
the entire video from two camera angles; he saw a large
group of people beating a man. Some individuals were
attempting to assist the victim and stop the fight. Officer
Rodriguez recognized Victor Thomas, who pointed what
appeared to be a silver firearm at the people who were
trying to break up the fight. Officer Rodriguez knew it was
the defendant because he saw him nearly every day in the
vicinity of East 1983rd Street and Washington Avenue and
had arrested him twice before. The officer knew his name
because he obtained his pedigree information when he first
arrested him. Officer Rodriguez also described another
specific encounter he had with the defendant, when Mr.
Thomas was playing dominoes in a group and the officer
stopped his police car and checked whether there was any
illegal activity connected to the game, such as drinking.
There was not.
After seeing the video, Officer Rodriguez informed
the detectives that he recognized Victor Thomas, and
a detective advised him that if he could “get him now”
he could “take the arrest,” So Officer Rodriguez and a

100a
Appendix E
sergeant went out in the field to look for the defendant. At
about 8 p.m. they arrived at the intersection of Bassford
Avenue and East 183rd Street and arrested the defendant.
The defendant was wearing a white shirt, green basketball
shorts and green Jordan sneakers, the same items as were
worn by the individual in the video.
Officer Rodriguez approached the defendant, and as
he did so, the defendant threw a medium sized ziplock
bag to the ground. The officer applied handcuffs, and
although the defendant stiffened his arms he complied
with the officer’s directions. Officer Rodriguez told the
defendant that the detectives wanted to ask him questions.
The defendant asked repeatedly, “for what?”, and the
officer kept saying, “You’ll find out when you speak to the
detectives.” During the ride back to the 48th precinct, this
same dialogue continued, and according to the officer at
times the defendant was “loud” and “very hostile.” When
they reached the precinct, the defendant kept shouting
and asking what he was doing there and what does he
(the detective) want to talk about. In front of the desk
sergeant, Detective Gross showed defendant Thomas a
still photo from the video and said, “you’re here to speak
to me about this,” and the defendant replied “you got me.”
The defendant was not told or read Miranda warnings
before this interaction.
CONCLUSIONS OF LAW
The People have the initial burden of production at a
suppression hearing of providing evidence that the police
conduct was legal. People v. Malinsky, 15 N.Y.2d 86 (1965).
Probable cause exists when the facts and circumstances

101a
Appendix E
known to the arresting officer warrant a prudent person
in believing that the offense has been committed (People
v. Oden, 36 N.Y.2d 382, 384) and that the person arrested
is the perpetrator (see People v. Carrasquillo, 54 N.Y.2d
248, 254), The establishment of probable cause requires
a fact-based determination that considers the “totality of
the circumstances;” Illinois v. Gates, 462 U.S. 273, 236,
103 S. Ct. 2317 (1983); Spinelli v. United States, 393 U.S.
410, 419, 89 S. Ct. 584 (1969).
Given the facts developed at this suppression hearing,
this Court credits the testimony of Officer Rodriguez and
finds that he had probable cause to arrest the defendant
on September 6, 2015 based on video surveillance footage
of an assault that took place earlier that morning which
captured the defendant removing a silver gun from his
shorts and pointing it at one or more individuals. Officer
Rodriguez testified that he knew the defendant very well
from prior arrests as well as from numerous interactions
the officer had with the defendant during his shifts.
Officer Rodriguez went to a location where he had seen
the defendant numerous times and arrested him. The
Court finds that the People established probable cause to
arrest the Defendant.
The People have met their burden of establishing
that the defendant’s statement was voluntary and not
the result of custodial interrogation. The statement was
not the result of any conduct by the officers intending to
elicit an incriminating admission. See, People v. Rivers,
56 N.Y.2d 476, 480 (1982); People v. Mercado, 92 A.D.3d
458 (1st Dept. 2012). The defendant was in custody at the
time of his statement, “You got me.”

102a
Appendix E
The issue before the Court is whether law enforcement
actions rose to the level of the functional equivalent of
interrogation violative of the defendant’s rights to Miranda
warnings prior to being questioned by law enforcement.
See Miranda v. Arizona, 86 S.Ct. 1602 (1966). This case
is similar to People v. Acosta, 132 AD3d 466 (1st Dept.
2015) inn which the court found that a detective’s brief
response to an inquiry by defendant concerning the
reason for his arrest constituted an innocuous reply to
defendant’s question, not reasonably likely to elicit an
incriminating response, and part of an effort to discourage
the defendant’s agitated outbursts. While en route to
and at the 48th precinct desk, the defendant continually
asked why he was being arrested and why he was at the
police precinct. The defendant was in custody and had not
received Miranda warnings. The detective placed a still
photograph from a video surveillance camera purportedly
depicting the defendant with a silver handgun. It was at
this point the defendant made his statement. As described
by Officer Rodriguez, Detective Gross’s presentation of
the still photo was designed to address the defendant’s
repeated concerns. It was not the functional equivalent
of interrogation. The Court finds that the actions of the
detective did not amount to conduct which was intended
to evoke an incriminating response. People v. Rivers, 56
NY2d 476 (1982); People v. Lynes, 49 NY2d 286.
The defendant’s statement was spontaneous and
not the product of custodial interrogation. There was
no interrogation or its functional equivalent. See People
v. Acosta, 132 AD3d 466 (1 st Dept 2015). See also,
People v. Richardson, 134 AD3d 440 (1st Dept. 2015)

103a
Appendix E
(although defendant was in custody and had not received
Miranda warnings, his inquiry about why he was being
charged with a felony was “immediately met by a brief
and relatively innocuous answer by the officer” did not
constitute interrogation or its functional equivalent);
People v. Frost, 16 AD3d 351 (1st Dept. 2005)(detective’s
brief statement to defendant in response to defendant’s
inquiry as to how he had been identified did not constitute
the functional equivalent of interrogation and thus did not
require Miranda warnings); People v. Thomas, 174 AD2d
447 (1st Dept. 1991) (officer merely advised defendant of
accusations made against him which does not constitute
either formal questioning or its functional equivalent);
People v. Smith, 160 AD2d 472 (1st Dept. 1990) (defendant’s
statement while in a holding cell that “you got me” when
the officer extracted cash from a hiding place in the cell
was admissible as a spontaneous declaration and not the
product of custodial interrogation).
The defendant’s reliance on People v. Ferro, 63 NY2d
316 (1984) in this case is misplaced. In Ferro, the defendant
had already invoked his right to remain silent following
his arrest for murder and then abandoned it later in an
attempt to speak to the district attorney. Knowing that
the defendant wished to speak to the district attorney,
the officer told the defendant that he first had to reveal
to the officer what he wanted to speak about with the
district attorney. Then, the officer left and returned a
short time later with furs that had been stolen from the
decedent’s apartment and placed them directly in front
of the defendant’s cell and Ferro made an incriminating
statement. The Court of Appeals held that Ferro’s right

104a
Appendix E
to remain silent was not scrupulously honored warranting
suppression of the statements. 63 NY2d at 322-323.1
Defendant Thomas was not read Miranda warnings
and did not invoke his right to remain silent. The defendant
questioned why he was being arrested and in response,
the detective showed him a still photograph from a video
surveillance recording. As this does not constitute either
formal questioning or its functional equivalent, the
defendant’s motion to suppress his statement is denied.
The Court finds that the People have met their burden
of proving the voluntariness of the statements made by
defendant beyond a reasonable doubt. See, People v.
Holland, 48 N.Y.2d 861 (1979).
Accordingly, for the foregoing reasons, the Defendant’s
motion to suppress the statement attributed to him is
denied.
ENTERED,
Dated: Bronx, New York
August 9, 2016
/s/				
Honorable April A. Newbauer

1. Implicit in the decision here is that this case does not
involve Sixth Amendment elicitation principles as in People v.
Ferro.

105a
Appendixof
F rehearing OF
Appendix f — denial
THE APPELLATE DIVISION OF THE SUPREME
COURT, FIRST JUDICIAL DEPARTMENT,
NEW YORK COUNTY, DATED MAY 1, 2018
At a Term of the Appellate Division of the Supreme
Court held in and for the First Judicial Department
in the County of New York on May 1, 2018.
M-809
Ind. No.
2760/15
The People of the State of New York,
Respondent,
v.
Victor Thomas,
Defendant-Appellant.
PRESENT: Hon. John W. Sweeny, Jr., Justice Presiding,
Sallie Manzanet-Daniels
Troy K. Webber
Marcy L. Kahn
Peter H. Moulton, Justices.
Defendant-appellant having moved for reargument of
the decision and order of this Court, entered on February
1, 2018 (Appeal No. 5607),

106a
Appendix F
Now, upon reading and filing the papers with respect
to the motion, and due deliberation having been had
thereon,
It is ordered that the motion is denied.
ENTERED:
/s/

CLERK

107a
Appendix
Appendix
g—G
WAIVER
OF THE RIGHT TO APPEAL
WAIVER OF THE RIGHT TO APPEAL
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF BRONX: PART 71
Indictment or SCI #:
2760/15
THE PEOPLE OF THE STATE OF NEW YORK,
v.
VICTOR THOMAS,
Defendant.
The defendant, in consideration of and as part of the
plea agreement being entered into hereby waives any and
all rights to appeal including the right to file a notice of
appeal from the judgment of conviction herein, with the
exception of any constitutional speedy trial claim which
may have been advanced, the legality of the sentence, my
competency to stand trial, and the voluntariness of this
plea and waiver.
The undersigned defendant executed this waiver after
being advised by the Court of the nature of the rights
being waived. The defendant has been advised of the
right to appeal (CPL 4S0.10), to prosecute the appeal as
a poor person, to have an attorney assigned in the event
that the defendant is indigent, and to submit a brief and

108a
Appendix G
argue before the appellate court on any issue relating to
the conviction or sentence.
I waive my right to appeal and to file a notice of appeal
voluntarily and knowingly after being fully apprised
of my appellate rights by the Court and my attorney
Ms. Meis standing beside me. I have had a full and fair
opportunity to discuss these matters with my attorney and
any questions which I may have had have been answered
to my satisfaction.
Dated: 8/10/16
/s/
Defendant
/s/
Attorney for Defendant
The above defendant appeared before this court on
this date and in open Court, in the presence of this Court
and with the approval of this Court, and with the advice
and consent of defendant’s attorney, signed the foregoing
waiver of said defendant’s right to appeal and to file a
notice of appeal.
Dated: 8/10/16
Hon. M. Gross
/s/
J. S. C.

109a
Appendix
H
Appendix h — State
of Idaho
v. Nevarez,
No. 47342-2019 (Supreme Court of the State
of Idaho), Order of the Supreme Court
of the State of Idaho, Filed
December 5, 2019
IN THE SUPREME COURT
OF THE STATE OF IDAHO
Supreme Court Docket
No. 47342-2019
Canyon County District Court No.
CR14-18-O3316
STATE OF IDAHO,
Plaintiff-Respondent,
v.
JOE ANGEL NEVAREZ,
Defendant-Appellant
order granting motion
to dismiss appeal
A MO T ION T O DI S M I S S A P P E A L A N D
STATEMENT IN SUPPORT THEREOF was filed
by Respondent on September 20, 2019. Thereafter, a
MEMORANDUM IN OPPOSITION TO MOTION TO
DISMISS APPEAL was filed by Appellant on October 4,
2019, followed by a RESPONSE TO “MEMORANDUM
IN OPPOSITION TO MOTION TO DISMISS APPEAL”

110a
Appendix H
filed by Respondent on October 9, 2019. Therefore, after
due consideration,
IT IS HEREBY ORDERED that Respondent’s
MOTION TO DISMISS APPEAL be, and is hereby
GRANTED and the above-entitled Appeal is DISMISSED.
Dated 12/05/2019.
By Order of the Supreme Court
/s/ Karel A. Lehrman
Karel A. Lehrman
Clerk of the Courts

111a
Appendix
I
Appendix I — State
of Idaho
v. Nevarez,
No. 47342-2019 (Supreme Court of the
State of Idaho), Plaintiff-Respondent’s
Response to Opposition to Motion to
Dismiss Appeal, Filed October 9, 2019
IN THE SUPREME COURT
OF THE STATE OF IDAHO
No. 47342-2019
Canyon Co. Case No.
CR14-18-3316
STATE OF IDAHO,
Plaintiff-Respondent,
v.
JOE ANGEL NEVAREZ,
Defendant-Appellant.
RESPONSE TO “MEMORANDUM IN
OPPOSITION TO MOTION TO DISMISS APPEAL”
COMES NOW, the State of Idaho, plaintiff-respondent,
by and through its authorized representative, the Attorney
General of the State of Idaho, and responds to Nevarez’s
“MEMORANDUM IN OPPOSITION TO MOTION TO
DISMISS APPEAL,” filed on October 4, 2019 (hereinafter
“Memorandum”). The appeal must be dismissed because
Nevarez waived his right to appeal as part of his plea
agreement.
The applicable procedure to dismiss an appeal was
set out in McKinney v. State, 162 Idaho 286, 296, 396 P.3d
1168, 1178 (2017). In that case the Court stated that when

112a
Appendix I
the appeal waiver is brought to the Court’s attention it
would “give the defendant an opportunity to show good
cause why the appeal should not be dismissed. If the
defendant cannot do so, we will dismiss the appeal.” Id.
at 286, 396 P.3d at 1178. In this case Nevarez entered a
plea agreement whereby he waived the right to appeal.
The state has brought the waiver to the Court’s attention
by a motion to dismiss. Nevarez’ response is to point out
that the waiver does not prevent him from challenging
the validity of the waiver itself. (Memorandum, p. 1.) The
state does not dispute that a waiver does not prevent a
party from challenging the waiver itself, on the logic that
an invalid waiver is no bar. However, Nevarez does not
claim that he challenged the validity of the waiver in the
district court, despite ample opportunity to do so.
More importantly, Nevarez does not claim that he
actually intends to raise a claim that his waiver is invalid.
Nor does he support his response with any evidence that
his waiver is invalid. Rather, he contends that an appellate
record must be prepared for him to decide whether he
wants to raise this issue. (Memorandum, p. 2.) Such is not
good cause to allow the appeal to proceed in the face of a
facially valid waiver.
To show “good cause” a party must demonstrate facts
that “rise[] to the level of a legal excuse.” State v. Young,
136 Idaho 113, 116, 29 P.3d 949,952 (2001). See also Martin
v. Hoblit, 133 Idaho 372, 375, 987 P.2d 284, 287 (1999). Here
Nevarez asserts that the appeal should proceed merely so
he can search an appellate record for unwaived issues.
He does not claim that he will ultimately find any such
issues. The claim of a mere possibility that Nevarez will
assert an unwaived issue does not establish good cause

113a
Appendix I
any more than a claim that the mere possibility the Court
has jurisdiction establishes a Court’s jurisdiction.
In addition, filing an appeal to merely ascertain
whether Nevarez can pursue the appeal (or is barred by
his own waiver) deprives the state of its bargain in the
plea agreement. A plea waiver achieves the twin goals of
finality and reduction of expenses. Allowing an appeal to
proceed for months and incurring the costs to the state
of preparing a record, preparing a transcript, paying an
attorney to review said record and transcript on the mere
chance that the appellate attorney will come to a different
conclusion than trial counsel (who did not elect to file a
motion to withdraw the guilty plea with complete access to
the record), and, finally, paying for its own attorney, would
render the appeal waiver in this case less than useless.
The only record before this Court is that Nevarez
“enter[ed] into this stipulated, binding plea agreement
knowingly, voluntarily and intelligently, and that his
decision is not the result of threats or coercion by any
individual.” (Exhibit A, ¶ 11) Nevarez wishes this court to
find “good cause” based on speculation of what the record
might show. Because Nevarez waived his right to appeal
and stipulated that the waiver was knowing, voluntary and
intelligent, his mere desire to prepare a record to see if
there is evidence contrary to his stipulation is not good
cause and the appeal should be dismissed.
DATED this 9th day of October, 2019.
/s/ Kenneth Jorgensen
KENNETH JORGENSEN
Deputy Attorney General

114a
Appendix
J
Appendix J — State
of Idaho
v. Nevarez,
No. 47342-2019 (Supreme Court of the
State of Idaho), Defendant-Appellant’s
Memorandum in Opposition to Motion to
Dismiss Appeal, Filed October 4, 2019
IN THE SUPREME COURT
OF THE STATE OF IDAHO
NO. 47342-2019
CANYON COUNTY NO.
CR14-18-3316
STATE OF IDAHO,
Plaintiff-Respondent,
v.
JOE ANGEL NEVAREZ,
Defendant-Appellant.
MEMORANDUM IN OPPOSITION
TO MOTION TO DISMISS APPEAL
Joe Nevarez objects to the State’s motion to dismiss
his appeal, and he offers this memorandum explaining
why dismissal would be inappropriate at this juncture.
In its motion to dismiss, the State correctly points out
that Mr. Nevarez entered into a plea agreement with the
State, pursuant to which he purported to waive certain
rights, including his right to appeal the judgment and the

115a
Appendix J
sentence. Such appellate waiver provisions are generally
enforceable, so long as they are knowing, intelligent, and
voluntary. State v. Murphy, 125 Idaho 456-57 (1994).
“[H]owever, no appeal waiver serves as an absolute bar
to all appellate claims.” Garza v. Idaho, __ U.S. __, __,
139 S. Ct. 738, 744 (2019). Certain appellate claims are
“unwaiveable.” Id. at 745. For example, “defendants retain
the right to challenge whether the waiver itself is valid
and enforceable—for example, on the grounds that it was
unknowing or involuntary.” Id.; accord id. at 747, 748.
Whether the defendant’s appellate rights were
knowingly, intelligently, and voluntarily waived is a
question that may be litigated in the appeal itself. See
Garza, 139 S. Ct. at 745, 747, 748. See, e.g., State v. Cope,
142 Idaho 492, 496-97 (2006) (evaluating on appeal whether
the appellate waiver in the plea agreement was knowing,
intelligent, and voluntary); Murphy, 125 Idaho at 457
(same). In determining whether the defendant validly
waived his appellate rights as part of a plea agreement,
this Court “employ[s] the same analysis as [it] would in
determining the validity of any plea of guilty,” and it asks
whether “the entire record shows the waiver was made
voluntarily, knowingly, and intelligently.” Murphy, 125
Idaho at 456-57 (emphasis added).
Given the standard for determining whether Mr.
Nevarez’s waiver of his appellate rights was validly
made and, therefore, is currently enforceable, the State’s
motion to dismiss is premature. This inquiry necessarily
requires examination of the appellate record—at a bare
minimum, the transcript of the change of plea hearing,
but perhaps other materials, such as the competency

116a
Appendix J
evaluation that was undertaken in this case—which are
currently unavailable to this Court or the parties’ counsel,
pending preparation and lodging of the Clerk’s Record and
Reporter’s Transcript. Accordingly, Mr. Nevarez asks that
this Court deny (without prejudice) the State’s motion to
dismiss this appeal until it can determine from the “entire
record” whether Mr. Nevarez’s appellate waiver was made
voluntarily, knowingly, and intelligently.
DATED this 4th day of October, 2019.
/s/ Erik R. Lehtinen
ERIK R. LEHTINEN
Chief, Appellate Unit

117a
Appendix
K
Appendix k — State
of Idaho
v. Nevarez,
No. 47342-2019 (Supreme Court of the
State of Idaho), Plaintiff-Respondent’s
Motion to Dismiss Appeal, Filed
September 20, 2019
IN THE SUPREME COURT
OF THE STATE OF IDAHO
Supreme Court No. 47342-2019
Canyon Co. Case No. CR14-18-3316
STATE OF IDAHO,
Plaintiff-Respondent,
v.
JOE ANGEL NEVAREZ,
Defendant-Appellant.
MOTION TO DISMISS APPEAL AND
STATEMENT IN SUPPORT THEREOF
COMES NOW, the State of Idaho, Plainti ffRespondent, by and through its authorized representative,
the Attorney General of the State of Idaho, and pursuant
to Rule 32, I.A.R., hereby moves this Court for an order
dismissing, with prejudice, the appeal in this case. The
basis for the state’s motion is that Nevarez waived his
appeal rights as part of his plea agreement.

118a
Appendix K
Attached to this motion as Exhibit A is the plea
agreement entered by the parties in this case and other
pending cases against Nevarez. Under that agreement
Nevarez agreed to plead guilty in this case to eluding a
police officer and possession of a controlled substance.
(Exhibit A, ¶¶ 1, 5.) The parties stipulated to binding
concurrent sentences of five years with three and one-half
years determinate for eluding and five years indeterminate
for possession. (Exhibit A, ¶ 7.) The district court followed
the binding plea agreement and imposed the agreed-upon
sentences. (Exhibit B (“Judgment and Commitment”).)
As another condition of the plea agreement Nevarez
“specifically waives and gives up his right to appeal the
judgment and sentence” imposed by the district court.
(Exhibit A,¶ 9.)
Nevarez has filed an appeal from the court’s judgment
wherein the court imposed the agreed-upon sentences. He
has, however, waived his right to this appeal as part of
his plea agreement. (Exhibit A, ¶ 9.) The state therefore
seeks dismissal of this waived appeal.
Opposing counsel has not been contacted regarding
this Motion.
DATED this 20th day of September, 2019.
/s/					
KENNETH K. JORGENSEN
Deputy Attorney General

119a
Appendix K
EXHIBIT A
IN THE DISTRICT COURT OF THE THIRD
JUDICIAL DISTRICT OF THE STATE OF IDAHO,
IN AND FOR THE COUNTY OF CANYON
CASE NO. CR14-l8-03316
CR 14-18-10034
CR 14-19-02181
THE STATE OF IDAHO
Plaintiff,
vs.
JOE ANGEL NEVAREZ
D.O.B. 02/22/1971
Defendant.
RULE 11
COMES NOW, Plaintiff, State of Idaho (“State”),
by and through its attorney, Chris J. Berglund, Deputy
Canyon County Prosecuting Attorney, and Joe Angel
Nevarez (“Defendant”), individually and through his
attorney of record Paul Taber, and do hereby state as
follows:
1.

The Defendant is charged by Information in case
CR14-18-03316 with the following criminal acts:

120a
Appendix K

2.

3.

a.

Eluding a Peace Officer, a violation of Idaho
Code §49M-1404(2).

b.

Felony Possession of a Controlled Substance,
a violation of Idaho Code § 37-2732(c)(1).

The Defendant is charged by Information in case
number 14-18-10034 with the following criminal
acts:
a.

Aggravated Driving Under the Influence, a
violation of Idaho Code §18-8006.

b.

Vehicular Manslaughter, a violation of Idaho
Code §18-4006-3(a)

The Defendant is charged by Indictment in case
number 14-19-02181 with the following criminal
act:
a.

4.

Involuntary Manslaughter, a violation of
Idaho Code §18-4006(2).

Pursuant to this agreement the State is to file
an Amended Information in case Crl4-18-10334
which alleges the following criminal acts:
a.

Aggravated Driving Under the Influence, a
violation of Idaho Code §18-8006.

b.

Misdemeanor Vehicular Manslaughter in
violation of Idaho Code §18-4006(3)(c) and
18-4007(3)(c).

121a
Appendix K
5.

The Defendant agrees to plead guilty to Counts I
and II of the Information in case CR14-18-03316
and to Count II of an Amended Information
in case number 14-18 -10334 which alleges
Misdemeanor Vehicular Manslaughter as appears
in the Information in case CR14-18-03316 and the
Amended Information in Case 14-18-10334:
a.

Eluding a Peace Officer. That the Defendant,
Joe Angel Nevarez, on or about the 13th day
of February, 2018, in the County of Canyon,
State of Idaho, did operate a motor vehicle, a
1997 Dodge Caravan at or about 2nd St S and/
or 18th Ave and/or Roosevelt and/or Maple
St and/or Sherman and/or 12th Ave and
willfully fled a pursuing police vehicle after
being given a visual signal and/or audible
signal to stop, and in so doing traveled in
excess of thirty (30) miles per hour above the
posted speed limit and/or caused damage to
the property of another or bodily injury to
another and/or drove the vehicle in a manner
as to endanger or be likely to endanger the
property of another or the person of another.

b.

Possession of a Controlled Substance Felony.
That the Defendant, Joe Angel Nevarez, on
or about the 13th day of February, 2018, in
the County of Canyon, State of Idaho, did
unlawfully possess a controlled substance,
to-wit: Methamphetamine, a Schedule II
controlled substance.

122a
Appendix K
c. Misdemeanor Vehicular Manslaughter.
That the Defendant, Joe Angel Nevarez,
on or about the 13 day of February, in
the County of Canyon, State of Idaho,
did, while operating a green 1997 Dodge
Caravan, commit the unlawful act of driving
recklessly without gross negligence, and the
defendant’s operation of the motor vehicle in
such an unlawful manner was a significant
cause contributing to the death of Georgia
Cabrerra.
6.

If the defendant agrees return all photographs
in his possession which depict Georgia Cabrerra.

7.

Pursuant to Idaho Criminal Rule 11(f)(I)(C),
the parties stipulate and agree to the following
sentence recommendations:
a.

The court shall impose no more and no less
than 3.5 years fixed with credit for time
served on the Eluding a Peace Officer charge.

b.

The court shall impose no more and no less
than 1.5 year indeterminate on the Eluding
a Peace Officer charge.

c.

The court shall impose a sentence of no
more and no less than 0.0 years fixed with
credit for time served on the Possession of
a Controlled Substance charge which shall
run consecutive to the Eluding a Peace

123a
Appendix K
Officer charge from the same case and same
Information
d.

The court shall impose a sentence of no more
and no less than 5 years indeterminate on the
Possession of a Controlled Substance Charge
which shall run Consecutive to the Eluding
a Peace Officer charge from the same case
and same Information.

e.

The court shall impose a sentence of no more
and no less than 365 days with credit for
time served on the Misdemeanor Vehicular
Manslaughter charge and any remaining
days to be served on that count shall be
concurrent with the sentence on Count I of
the Information in case 14-18-03316.

8.

The parties agree that, pursuant to Idaho
Criminal Rule 11(f)(I)(C), this Court shall be
bound by the parties’ joint stipulation as outlined
above.

9.

Pursuant to Idaho Criminal Rule 11(f)(1) and
State v. Murphy, 125 Idaho 456, 872 P.2d 719
(1994), the Defendant specifically waives and
gives up his right to appeal the judgment and
sentence imposed by this Court.

10. The Defendant specifically relieves this Court
from its obligation to notify him of his appellate
rights at sentencing under Idaho Criminal Rule
33(a)(3).

124a
Appendix K
11. The Defendant acknowledges that he is entering
into this stipulated, binding plea agreement
knowingly, voluntarily and intelligently, and that
his decision is not the result of threats or coercion
by any individual, including his attorneys, any
representative of the State, or this Court.
12. The Defendant acknowledges that he is aware of
the maximum penalty for the crime of Eluding
a Peace Officer and Possession of a Controlled
Substance as alleged in the Information in case
CR14-18-03316 and the crime of Misdemeanor
Vehicular Manslaughter in case 14-18-10334 as
alleged in the Amended Information.
13. The Defendant acknowledges that he is aware of
his right to plead not guilty, the right to have a
trial by a jury of his peers, the right to require the
State to prove the charges against him beyond a
reasonable doubt, the right to confront and crossexamine witnesses and to present witnesses
and evidence on his own behalf, and the right to
remain silent and not be compelled to be a witness
at the trial or to incriminate himself in any way.
14. The Defendant understands that, by pleading
guilty, he is waiving the right to have a trial by
jury, that he gives up the right to require the
State to prove the charges against him beyond
a reasonable doubt, that he gives up the right
to confront and cross-examine witnesses and to
present witnesses and evidence on his own behalf

125a
Appendix K
in defense of the charges, and that he gives up
his right to remain silent.
15. The Defendant understands that Rules 4 and
11(c) of the Idaho Appellate Rules provide him
the right to file an appeal from any sentence this
Court may impose following this plea of guilty
to the crimes of Eluding a Peace Officer and
Possession of a Controlled Substance as alleged
in the Information in case 14-18-03316 and the
crime of Misdemeanor Vehicular Manslaughter
as alleged in the Amended Information in
case CR14-18-10334 and also understands and
acknowledges that he is knowingly, voluntarily
and intelligently waiving his rights to appeal.
16. The Defendant understands that Idaho Criminal
Rule 35 provides him the right to file a motion
to reduce any sentence this Court may impose
follow ing his plea of guilty to the crimes
of Eluding a Peace Officer and Possession
of a Controlled Substance as alleged in the
Information in case 14-18-03316 and the crime of
Misdemeanor Vehicular Manslaughter as alleged
in the Amended Information in case CR14-1810334, and also understands and acknowledges
that he is knowingly, voluntarily and intelligently
waiving his right to file a motion pursuant to
Idaho Criminal Rule 35 requesting a reduction
of his suspended sentence, or otherwise request
leniency that could result in a reduction of his
sentence.

126a
Appendix K
17. The parties acknowledge that nothing in this
agreement limits the victims’ rights to provide
victim impact statements or otherwise abridges
their rights under Idaho Code § 19-5306 or the
Idaho Constitution or for the State to seek a Civil
Penalty under the victims’ rights statute.
18. The Defendant and the State have entered into
this stipulated plea agreement with the intent
that the Defendant cannot appeal his sentence
or file a motion for leniency pursuant to Rule 35,
regardless of the sentence entered by this Court,
unless this Court enters an illegal sentence.
19. With the exception of those terms expressly
addressed in this agreement, all other terms
and conditions of sentencing are left to the sound
discretion of the Court. The Defendant retains
all legal rights except those expressly waived in
this agreement.
20. The parties agree that this agreement constitutes
the entire agreement between the Defendant and
the State of Idaho, and that no other promises
or inducements have been made, either directly
or indirectly by the State of Idaho or any of its
agents regarding the disposition of this case.
Additionally, the Defendant states that no
person has threatened or coerced him, directly
or indirectly, to enter into this agreement.

127a
Appendix K
21. Counsel for the Defendant specifically state that
they have read this agreement, have read and
explained said agreement to the Defendant, and
also state that, to the best of their knowledge
and belief, the Defendant understands this
agreement.
22. The Defendant specifically states that he has read
this agreement, that he has had this agreement
read and explained to him by his attorney, and
that he is entering into this agreement knowingly,
intelligently and voluntarily, and with a full
understanding of its contents.
23. Defendant understands that the Court is not
bound to accept this Plea Bargain Agreement and
that if the Court should reject said Agreement,
Defendant shall be allowed an opportunity by the
Court to withdraw his plea of guilty to the charge
and proceed to a trial on the original charges
pursuant to Rule 11(f)(4), Idaho Criminal Rules.
The Defendant is aware if the defendant persists
to a jury trial and a guilty verdict is rendered,
the disposition of this case may be less favorable
to the defendant than that contemplated by the
plea agreement.
24. If this Court does not accept this Rule 11
agreement and the Defendant withdraws his
guilty plea, the State agrees the statements
during the change of plea and on the change of
plea form shall not be used in any future court

128a
Appendix K
hearings except as contemplated under IRE
410(b)(3).
DATE: 6/12/19

/s/				
Chris J. Berglund
Deputy Prosecuting Attorney

DATE: 6/12/19

/s/				
Paul Taber
Attorney for Defendant

DATE: 6/12/19

/s/				
Joe Angel Nevarez
Defendant

129a
Appendix K
EXHIBIT B
IN THE DISTRICT COURT OF THE THIRD
JUDICIAL DISTRICT OF THE STATE OF IDAHO
IN AND FOR THE COUNTY OF CANYON
CASE # CR14-18-03316
THE STATE OF IDAHO,
Plaintiff,
vs.
JOE ANGEL NEVAREZ,
SSN: XXX-XX-9085
D.O.B: 02/22/1971
Defendant.
JUDGMENT AND COMMITMENT
On this 5th day of August 2019, personally appeared
Chris Berglund, Deputy Prosecuting Attorney for the
County of Canyon, State of Idaho, the defendant Joe Angel
Nevarez, and the defendant’s attorney Paul Taber, this
being the time heretofore fixed for pronouncing judgment.
IT IS ADJUDGED that the defendant has been
convicted upon a plea of guilty to the offense of Eluding
a Peace Officer, a felony, as charged in Count I of
the Information, in violation of I.C. §49-1404(2), being

130a
Appendix K
committed on or about the 13th day of February 2018;
and Possession of a Controlled Substance, a felony, as
charged in Count II of the Information, in violation of I. C.
§ 37-2732(c)(1), being committed on or about the 13th day of
February 2018; and the Court having asked the defendant
whether there was any legal cause to show why judgment
should not be pronounced, and no sufficient cause to the
contrary being shown or appearing to the Court,
IT IS ADJUDGED that the defendant be sentenced,
in Count I, to the custody of the Idaho State Board
of Correction for a minimum period of confinement of
three and one half (3.5) years, followed by a subsequent
indeterminate period of confinement not to exceed one
and one half (1.5) years, for a total unified term of five (5)
years; and that the defendant be sentenced, in Count II,
to the custody of the Idaho State Board of Correction for a
minimum period of confinement of zero (0) years followed
by a subsequent indeterminate period of confinement not
to exceed five (5) years, for a total unified term of five (5)
years. The sentence in Count II shall run consecutively
with the sentence in Count I.
IT IS ORDERED that the defendant be given credit
for two hundred ninety five (295) days of incarceration
prior to the entry of judgment for this offense (or included
offense) pursuant to I.C. § 18-309.
IT IS FURTHER ORDERED that the defendant
pay court costs and fees in the total amount of $245.50,
rei mbu rse Canyon County for the cost of lega l
representation in the sum of $350.00 and pay restitution

131a
Appendix K
pursuant to the Order of Restitution. The defendant’s
driving privileges shall be suspended for an absolute
period of three (3) years, commencing 2/13/2018.
IT IS FURTHER ORDERED that the defendant shall
submit a DNA sample and right thumbprint impression
to the Idaho State Police or its agent, pursuant to I.C.
§19-5506. Such sample must be provided within 10
calendar days of this order; failure to provide said sample
within the 10 day period is a felony offense.
IT IS ADJUDGED that the defendant be committed
to the custody of the Sheriff of Canyon County, Idaho,
for delivery forthwith to the Director of the Idaho State
Board of Correction at the Idaho State Penitentiary or
other facility within the State designated by the State
Board of Correction.
IT IS FINALLY ORDERED that the clerk deliver a
certified copy of this Judgment and Commitment to the
Director of the Idaho State Board of Correction or other
qualified officer and that the copy serve as the commitment
of the defendant.
DATED this 8 day of August 2019.
/s/
		
Thomas W. Whitney
District Judge

132a
Appendix
L
Appendix l — State
of Idaho
v. Nevarez,
No. CR14-18-3316 (District Court, Third
Judicial District of Idaho, Canyon
County), Defendant-Appellant’s
Amended Notice of Appeal, Filed
September 20, 2019
IN THE DISTRICT COURT OF THE THIRD
JUDICIAL DISTRICT OF THE STATE OF IDAHO,
IN AND FOR CANYON COUNTY
CASE NO. CR14-18-3316
S.C. DOCKET NO. 47342—2019
STATE OF IDAHO,
Plaintiff-Respondent,
v.
JOE ANGEL NEVAREZ,
Defendant-Appellant.
AMENDED
NOTICE OF APPEAL
TO: THE ABOVE-NAMED RESPONDENT, STATE OF
IDAHO, AND THE PARTY’S ATTORNEYS, BRYAN
TAYLOR, CANYON COUNTY PROSECUTOR, 1115
ALBANY STREET, CALDWELL, ID 83605, AND THE
CLERK OF THE ABOVE-ENTITLED COURT:

133a
Appendix L
NOTICE IS HEREBY GIVEN THAT:
1. The above-named appellant appeals against the
State of Idaho above-named respondent to the Idaho
Supreme Court from the final Decision and Order
Judgment and Commitment entered in the above-entitled
action on the 8 th day of August, 2019, the Honorable
Thomas W. Whitney, District Judge presiding.
2. That the party has a right to appeal to the Idaho
Supreme Court, and the judgments or orders described
in paragraph 1 above is are appealable orders under and
pursuant to Idaho Appellate Rule (I.A.R.) 11(c)(1-9)
3. That the defendant anticipates raising issues
including, but not limited to: A preliminary statement
of the issues on appeal, which the appellant then intends
to assert in the appeal, provided any such list of issues
on appeal shall not prevent the appellant from asserting
other issues on appeal, is/are:
(a) Did the district court err in sentencing
the defendant to a unified sentence of five (5)
years with the first three and one-half (3.5)
years determinate and the subsequent one and
one-half (1.5) years indeterminate on Count
I of the Information and five (5) years with
zero (0) years determinate and five (5) years
indeterminate on Count II of the Information,
Count II running consecutive Count I?

134a
Appendix L
4. There is a portion of the record that is sealed.
That portion of the record that is sealed is the PreSentence Investigation Report (PSI), and the Psychiatric
Evaluation.
5. Reporter’s Transcript. The appellant requests the
preparation of the entire reporter’s standard transcript
as defined in I.A.R. 25(c)(d). The appellant also requests
the preparation of the additional portions of the reporter’s
transcript:
(a) Change of Plea Hearing held on June 12, 219
(Court Reporter: Patricia Terry, no estimation
of pages is listed on the Register of Actions);
and
(b) Sentencing Hearing held on August 5, 2019
(Court Reporter: Kim Kofkins, no estimation
of pages is listed on the Register of Actions).
6. Clerk’s Record. The appellant requests the
standard clerk’s record pursuant to I.A.R. 28(b)(2). The
appellant requests the following documents to be included
in the clerk’s record, in addition to those automatically
included under I.A.R. 28(b)(2): The defendant requests
that the clerk’s record contain only those documents
automatically included as set out in I.A.R. 28(b)(2),
including the Grand Jury Transcript if Indicted, and
Jury Instructions requested and give, and Pre-Sentence
Investigation.

135a
Appendix L
(a) Affidavit of Probably Cause filed February 13, 2018;
(b) Notice of PTR Agreement filed February 14, 2018;
(c) Notice of Conflict Counsel & Assignment of Conflict
Counsel filed July 17, 2018;
(d) Notice of Appearance filed July 17, 2018;
(e) Letter from Defendant filed December 4, 2018;
(f) Memorandum in Support of Defendant’s Motion to
Suppress filed February 18, 2019;
(g) Guilty Plea Advisory filed June 12, 2019;
(h) Rule 11 Plea Agreement filed June 12, 2019;
(i) Credit for Time Served (295 days) as of August 5,
2019;
(j) Letter from Defendant filed August 21, 2019;
(k) Letter from Defendant filed August 22, 2019; and
(l) Any exhibits, including but not limited to the
PSI, the Psychiatric Evaluation, letters or victim impact
statements, addendums to the PSI or other items offered
at the sentencing hearing. Except that any pictures or
depictions of child pornography necessary to the appeal
need not be sent, but may be sought later by Motion to
the Idaho Supreme Court.

136a
Appendix L
7. I Certify:
(a) That a copy of this Amended Notice of Appeal has
been served on the Court Reporter(s), Patricia Terry, and
Kim Hofkins;
(b) That the appellant is exempt from paying the
estimated fee for the preparation of the record because
of the appellant is an indigent person and is unable to pay
said fee. (I.C. §§ 31-3220, 31-3220A, I.A.R. 27(f));
(c) That the defendant is exempt from paying the
appellate filing fee because he is indigent and is unable
to pay said fee. That there is no appellate filing fee since
this is an appeal in a criminal case (I.C. §§ 31-3220, 313220A, I.A.R. 23(a)(8));
(d) That the Defendant is exempt from paying the
estimated transcript fee because he is an indigent person
and is unable to pay said fee. That arrangements have
been made with Canyon County who will be responsible
for paying for the reporter’s transcript, as the client is
indigent, (I.C. §§ 31-3220, 31-3220A, I.A.R. 24(h)); and
(e) That service has been made upon all parties
required to be served pursuant to I.A.R. 20.
DATED this 20th day of September, 2019.
/s/ Erik R. Lehtinen		
ERIK R. LEHTINEN
Chief, Appellate Unit

137a
Appendix
Appendix M — State
of M
Idaho v. Nevarez,
No. CR14-18-3316 (District Court, Third
Judicial District of Idaho, Canyon
County), Defendant-Appellant’s Notice
of Appeal, Filed September 4, 2019
IN THE DISTRICT COURT
OF THE THIRD JUDICIAL DISTRICT
OF THE STATE OF IDAHO, IN AND
FOR THE COUNTY OF CANYON
Case No. CR14-18-03316
Supreme Court No. 47342-2019
THE STATE OF IDAHO,
Plaintiff,
v.
JOE ANGEL NEVAREZ,
Defendant.
NOTICE OF APPEAL
TO: THE ABOVE-NAMED RESPONDENT, BRYAN
TAYLOR, CANYON COUNTY PROSECUTOR, AND
THE CLERK OF THE ABOVE ENTITLED COURT.

138a
Appendix M
NOTICE IS HEREBY GIVEN THAT:
1. The above-named Defendant appeals
against the State of Idaho to the Idaho
Supreme Court from the final Decision and
Order entered against him in the aboveentitled action on the 8th day of August 2019,
the Honorable Thomas Whitney, District
Judge, presiding.
2. That the party has a right to appeal to the
Idaho Supreme Court, and the Judgment
described in paragraph one (1) above is
appealable pursuant to I.A.R. 11(c)(1).
3. That the Defendant requests the entire
reporter’s standard transcript as defined
in Rule 25(a), I.A.R.
4. The Defendant requests that the clerk’s record
contain only those documents automatically
included as set out in I.A.R. 28(b)(2), including
the Grand Jury Transcript if Indicted, any
Jury Instructions requested and given, and
Pre-Sentence Investigation Report.
5. I certify:
a) That a copy of this Notice of Appeal
has been served on the reporter.

139a
Appendix M
b) That the Defendant is exempt from
paying the estimated transcript fee
because he is an indigent person
and is unable to pay said fee.
c) That the Defendant is exempt
from paying the estimated fee for
preparation of the record because
he is an indigent person and is
unable to pay said fee.
d) That the Defendant is exempt
from paying the appellate filing
fee because he is indigent and is
unable to pay said fee.
e) That service has been made upon
all parties required to be served
pursuant to I.A.R. 20.
6. That the Defendant anticipates raising
issues including, but not limited to:
a) Did the District Court err in
sentencing the Defendant to a
unified sentence of five (5) years
with the first three and one-half
(3.5) years determinate and the
subsequent one and one-half (1.5)
years indeterminate on Count I of
the Information and five (5) years
with zero (0) years determinate

140a
Appendix M
and five (5) years indeterminate on
Count II of the Information, Count
II running consecutive to Count I?1
DATED this 28th day of August 2018.
PAUL R. TABER III
By /s/Paul Taber
Paul R. Taber III
Conflict Counsel for Defendant

1. Counsel for the Defendant is well aware that the Record
reflects that Mr. Nevarez waived his right to appeal the sentence
in his plea agreement pursuant to (I.C.R.) Rule 11. However, the
United States Supreme Court recently held in Garza v. Idaho, 139
S.Ct. 738, 203 L.Ed.2d 77 that counsel is ineffective if no appeal is
filed after a request by the Defendant. In that case the Defendant
asked his counsel to file an appeal of his sentence and only an appeal
of his sentence. While the Court seems to acknowledge that such a
waiver was binding it nonetheless held that counsel was ineffective
for not filing the requested appeal. Counsel for the Defendant is filing
this appeal as he is the same counsel who was found by no less an
authority than the United States Supreme Court to be ineffective
for not filing an appeal in the Garza case.

